<html>
<title> - [H.A.S.C. No. 111-76]RAISING THINKING FROM THE TACTICAL TO THE OPERATIONAL LEVEL: JPME I AND II AT THE SERVICES'AND JOINT COMMAND AND STAFF COLLEGES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



                         [H.A.S.C. No. 111-76]

                   RAISING THINKING FROM THE TACTICAL

                       TO THE OPERATIONAL LEVEL:

                       JPME I AND JPME II AT THE

                      SERVICES' AND JOINT COMMAND

                           AND STAFF COLLEGES

                               __________

                                HEARING

                               BEFORE THE

               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             JUNE 25, 2009


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                  U.S. GOVERNMENT PRINTING OFFICE
52-356                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                     VIC SNYDER, Arkansas, Chairman
JOHN SPRATT, South Carolina          ROB WITTMAN, Virginia
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
ELLEN O. TAUSCHER, California        MIKE ROGERS, Alabama
SUSAN A. DAVIS, California           TRENT FRANKS, Arizona
JIM COOPER, Tennessee                CATHY McMORRIS RODGERS, Washington
JOE SESTAK, Pennsylvania             DOUG LAMBORN, Colorado
GLENN NYE, Virginia                  TODD RUSSELL PLATTS, Pennsylvania
CHELLIE PINGREE, Maine
                 John Kruse, Professional Staff Member
                Thomas Hawley, Professional Staff Member
                      Trey Howard, Staff Assistant










                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Thursday, June 25, 2009, Raising Thinking from the Tactical to 
  the Operational Level: JPME I And JPME II at the Services' and 
  Joint Command and Staff Colleges...............................     1

Appendix:

Thursday, June 25, 2009..........................................    35
                              ----------                              

                        THURSDAY, JUNE 25, 2009
RAISING THINKING FROM THE TACTICAL TO THE OPERATIONAL LEVEL: JPME I AND 
     JPME II AT THE SERVICES' AND JOINT COMMAND AND STAFF COLLEGES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Snyder, Hon. Vic, a Representative from Arkansas, Chairman, 
  Oversight and Investigations Subcommittee......................     1
Wittman, Hon. Rob, a Representative from Virginia, Ranking 
  Member, Oversight and Investigations Subcommittee..............     1

                               WITNESSES

Cardon, Brig. Gen. Edward C., USA, Deputy Commandant, Army 
  Command and General Staff College..............................     8
Damm, Col. Raymond C., Jr., USMC, Director, U.S. Marine Corps 
  Command and Staff College......................................    13
Jackson, Brig. Gen. Jimmie C., USAF, Commandant, Air Command and 
  Staff College..................................................    10
Kasun, Brig. Gen. Katherine P., USA, Commandant, Joint Forces 
  Staff College..................................................     3
Wisecup, Rear Adm. James P., USN, President, Naval War College...     6

                                APPENDIX

Prepared Statements:

    Cardon, Brig. Gen. Edward C..................................   109
    Damm, Col. Raymond C., Jr....................................   140
    Jackson, Brig. Gen. Jimmie C.................................   131
    Kasun, Brig. Gen. Katherine P................................    44
    Snyder, Hon. Vic.............................................    39
    Wisecup, Rear Adm. James P...................................    79
    Wittman, Hon. Rob............................................    41

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Dr. Snyder...................................................   159
 
RAISING THINKING FROM THE TACTICAL TO THE OPERATIONAL LEVEL: JPME I AND 
        II AT THE SERVICES' AND JOINT COMMAND AND STAFF COLLEGES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                 Oversight and Investigations Subcommittee,
                           Washington, DC, Thursday, June 25, 2009.
    The subcommittee met, pursuant to call, at 9:08 a.m., in 
room 2212, Rayburn House Office Building, Hon. Vic Snyder 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM 
 ARKANSAS, CHAIRMAN, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Dr. Snyder. The hearing will come to order.
    Good morning and welcome to the Subcommittee on Oversight 
and Investigations' third formal hearing on in-residence 
officer Professional Military Education. In our previous 
session, we looked at the role of the senior schools, that is 
the war colleges, and the Industrial College of the Armed 
Forces in educating strategists.
    Today we have the commandants and directors of the 
intermediate schools representing the individual services' 
command and staff colleges and the Joint Forces Staff College. 
These schools are focused on taking competent tacticians and 
raising their thinking to the next higher level, that of the 
``operational art.''
    In our next hearing, we will hear from the commandants and 
directors of the service academies and career schools, and at a 
subsequent hearing we will also invite those responsible for 
setting overarching Department of Defense joint and Service 
guidance on Professional Military Education.
    Mr. Wittman, any opening comments you would like to make, 
please?
    [The prepared statement of Dr. Snyder can be found in the 
Appendix on page 39.]

STATEMENT OF HON. ROB WITTMAN, A REPRESENTATIVE FROM VIRGINIA, 
   RANKING MEMBER, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Mr. Wittman. Yes, Mr. Chairman.
    Thank you so much to Chairman Snyder, and good morning to 
our witnesses. And we appreciate you being here today, 
especially Admiral Wisecup who is here making his second 
appearance. And you are logging some frequent flier miles with 
us. We appreciate that.
    Today's hearing focuses on the first level of Joint 
Professional Officer Education, which comes after an officer is 
well-grounded in his or her service, selected for field grade 
rank and is ready for broader responsibilities.
    More importantly, completion of the intermediate level of 
education, or Joint Professional Military Education I (JPME 1), 
is expected of all majors and lieutenant commanders. Therefore, 
unlike the war colleges, these schools are the only schools 
which educate all officers attaining the rank of O-4 and are 
thus an important touchstone of the Joint Professional 
Education System.
    While concentrating on operational matters of their 
respective services, the schools provide an important early 
joint education through more than the subjects taught. The use 
of other service faculty and attendance by other service, 
international, and interagency students in these seminar-based 
courses provide a broadening perspective.
    The witnesses will understand, then, our interest in 
questions of faculty quality and diversity of experience and 
the ability of the services to support each other with 
excellent faculty and students.
    Without a solid mix of other service and agency faculty and 
students, none of your institutions can provide a credible 
joint education. I would appreciate hearing both your success 
stories and your obstacles in attaining these goals as you 
testify today.
    Our preliminary research indicates that the Army and Navy 
programs are in transitional periods. In fact, it seems that 
the Army may believe it overreached in its stated goal of 
sending all majors to an in-residence intermediate education in 
Fort Leavenworth and may scale back these plans.
    It would be useful to have on record the reasons the Army 
determined to educate all majors in residence and the 
difficulties it has faced in reaching the goal.
    I am less concerned with service differences and school 
organization and placement in the service bureaucracy. What is 
important is getting the right people, both faculty and 
students, and funding to do the job.
    Mr. Chairman, since I would like to hear from our 
witnesses, I am mindful that our defense--or, excuse me, our 
National Defense Authorization bill is being debated on the 
floor. I will stop here and thank you for your time and 
leadership.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 41.]
    Dr. Snyder. Thank you, Mr. Wittman.
    Our witnesses today are Brigadier General Katherine Kasun, 
United States Army, Commandant of the Joint Forces Staff 
College; Rear Admiral James Wisecup, United States Navy, 
President of the Naval War College; Brigadier General Edward 
Cardon, Deputy Commandant, Army Command and General Staff 
College; Brigadier General Jimmie Jackson, United States Air 
Force, Commandant of the Air Command and Staff College; and 
Colonel Raymond Damm, U.S. Marine Corps, Director of the United 
States Marine Corps Command and Staff College.
    And before we begin, General Cardon, don't you have a guest 
here with you today?
    General Cardon. Yes, Mr. Chairman, I have my son, 
Specialist Chris Cardon.
    Dr. Snyder. Stand up for us please, if we won't embarrass 
you terribly.
    Thank you. We are pleased to have you here. Appreciate your 
service, too.
    Specialist Chris Cardon. Thank you.
    Dr. Snyder. Thank you.
    We will start with General Kasun. We are going to put the 
five-minute clock on, but it is more just to be kind of a speed 
bump for you. If you decide to go rapidly over the speed bump, 
that is your business, too.
    But if you have that thing it is good to say beyond the 
five minutes, just feel free to go ahead, but just to give you 
an idea of where the time is.
    We will begin with you, General Kasun.
    General Kasun. Thank you, Mr. Chairman.
    I probably will go over that speed bump today----
    Dr. Snyder. Yes, that is fine.
    General Kasun [continuing]. A couple of minutes----
    Dr. Snyder. Yes, that is fine.
    General Kasun [continuing]. Because I have two schools.
    Dr. Snyder. Right.

 STATEMENT OF BRIG. GEN. KATHERINE P. KASUN, USA, COMMANDANT, 
                   JOINT FORCES STAFF COLLEGE

    General Kasun. All right, sir. Thank you.
    Mr. Chairman, members of the committee, thank you for the 
opportunity to come before you to discuss Joint Professional 
Military Education at the Joint Forces Staff College (JFSC). 
The Joint Forces Staff College is a unique institution 
championed by General Eisenhower and Admiral Nimitz over 60 
years ago.
    In 1946, General Eisenhower emphasized that our college was 
the only institution in the military educational system where 
the basic mission will be to give instruction on the theater 
and major joint task force level.
    Despite many changes in the world since then, this 
statement still holds true. Our enduring mission is to educate 
national security professionals to plan and execute joint, 
multinational, and interagency operations. We accomplish this 
important mission through four major schools and a host of 
short courses.
    Today I will discuss four points concerning our two primary 
schools which provide resident JPME: our intermediate level, 
10-week Joint and Combined Warfighting School (JCWS) and our 
11-month intermediate and senior level Joint Advanced 
Warfighting School (JAWS).
    For the first point, allow me to reemphasize JFSC's 
uniqueness. We are a joint institution which focuses on joint 
planning at the operational level of war. Our military faculty 
is almost equally divided between the Army, Air Force and Navy 
with a representative number of Marines.
    Our student body is also divided proportionately among the 
services.
    Since 1993, when the congressional review of the Skelton 
Panel's recommendation was conducted at JFSC, the two schools 
have graduated approximately 3,500 Army officers, 4,400 Air 
Force officers and 3,400 Navy and Marine Corps officers, 
numbers which illustrate our true joint nature.
    All JFSC students study in a joint learning environment. 
JCWS students are also required to share housing with officers 
from other services during their 10 weeks on campus. Our 
curriculum assumes the officers arrive with a solid 
understanding of their service competencies from their service 
staff colleges. We build upon this service expertise to create 
planners who are strategically minded critical thinkers and 
skilled joint warfighters.
    The second point that I wish to make is how our curricula 
on academic methodologies excel in supporting the joint 
multinational interagency planning community. Both JCWS and 
JAWS immerse our students in academically rigorous programs 
using active and collaborative learning techniques.
    Students engage in active learning in over 90 percent of 
their classroom time and are required to demonstrate their 
skills by practical application, case studies, research, 
writing, and examinations.
    The Joint and Combined Warfighting School conducts four 
graduate-level JPME Phase two classes a year. They focus on 
joint planning at the operational level, ensuring that 
graduates are prepared for duty in a joint environment and can 
quickly become a productive leader of a joint planning group.
    We have agreements with 15 colleges which grant our JCWS 
graduates anywhere from 3 to 19 graduate-level credits. Joint 
Advanced Warfighting School, JAWS, continues to fulfill the 
vision of an advanced joint program as first recommended by 
Congressman Skelton and the HASC panel in 1989.
    JAWS students earned 36 graduate-level credits while 
completing a rigorous 11-month curriculum designed to create 
master joint planners. The curriculum uses military history and 
theory to lay the foundation for the study of national strategy 
and an in-depth focus on Joint Operational Campaign Planning.
    The course of study culminates with the completion of a 
thesis, a three-hour oral comprehensive examination and the 
awarding of a Master of Science degree in Joint Campaign 
Planning and Strategy.
    Both curricula are designed to be relevant and current with 
continuous updates that include compelling planning issues and 
other special areas of emphasis such as theater campaign 
planning, irregular warfare, building partnership capacity, 
strategic communications and defense support to civil 
authorities.
    Our faculty and curriculum developers maintain constant 
communication with subject matter experts in the joint, 
multinational, and interagency commands and staff in order to 
evolve the curricula to meet the most pressing needs of the 
planning community.
    Our methodologies and techniques have been validated over 
the years. The Middle States Commission on Higher Education has 
awarded full accreditation to JFSC through National Defense 
University since 1997. Last year, under the chairman's Process 
for Accreditation of Joint Education, JAWS met all the 
standards required for 6-year accreditation.
    Dr. Snyder. Ignore those bells. I have never heard that 
before in my life. [Laughter.]
    I don't know what that was. [Laughter.]
    General Kasun. I still get my minutes. [Laughter.]
    Dr. Snyder. You still get your minutes. [Laughter.]
    General Kasun. During the same evaluation, JCWS was 
reaffirmed for the third time and met all accreditation 
standards with the exception of the required student-to-faculty 
ratio.
    Since then, National Defense University funded 10 
additional civilian Title X billets to alleviate that 
situation, although gaps in the military billets continue to be 
a problem.
    I would like to close this second point by noting that we 
routinely hear suggestions that the JCWS course could be 
shorter. However, the increasing complexity of modern warfare 
is such that we effectively use the entire 10 weeks to execute 
a very rigorous academic program with very little white space 
left on the calendar.
    Given that joint warfare has grown more complex and the 
operational environment is more challenging than ever before, 
we fully support the Skelton Panel's conclusion that we must 
resist pressures to shorten the length of this school any 
further.
    My third point involves educating the right student at the 
right time. Ideally, JCWS students should arrive to the college 
en route to or within 12 months of being assigned to a joint 
command. Unfortunately, only about \1/3\ of the JCWS student 
meet this criteria.
    Moreover, if other officers do not come en route, joint 
commands are frequently unwilling to lose their officers for 10 
weeks. Based on surveys of former students and their 
supervisors, those officers who attend our course are more 
productive earlier in their Joint assignment if they are able 
to attend JCWS en route to or earlier in their tour.
    For JAWS, having the right students means having one who 
can fill a joint planning billet immediately following 
graduation. However, we have noticed that the service struggled 
to ensure that over half of our graduates go to joint 
assignments immediately following their graduation.
    Annual selection decisions and assignments policies limit 
the number of graduates reaching JAWS-coded joint billets. To 
date, JAWS graduates have filled less than 20 percent of 
available coded billets, and some billets have never received 
one of our graduates.
    As the combatant commanders become more familiar with the 
skills of our graduates, we are convinced the demand for our 
graduates will grow exponentially.
    My fourth and final point concerns the future.
    Mr. Chairman, while we are successful in attracting 
international students, efforts to increase the number of 
interagency students remain a challenge. We need to increase 
the number of interagency students to expose more mid-level 
government professionals to an effective whole-of-government 
approach to solving complex problems.
    We must also increase the number of Reserve and National 
Guard students attending JCWS. The need to educate the reserve 
component in joint matters is essential since they are 
deploying as individual augmentees and populating joint staffs 
with increasing frequency.
    Finally, we must continue to encourage services to provide 
the right education to the right person at the right time.
    Mr. Chairman, I am very proud of our college. The quality 
of our faculty and staff and students are unsurpassed. 
Jointness permeates everything we do. We play a vital role in 
preparing the military to fight today's enemies as well as 
those yet unknown of tomorrow.
    Thank you for this opportunity to be here with you today.
    [The prepared statement of General Kasun can be found in 
the Appendix on page 44.]
    Dr. Snyder. Thank you, General.
    Admiral Wisecup? We will see if you get the same squeaking 
thing. [Laughter.]
    Normally, this system breaks. We have never actually had it 
100 percent work before.
    It was your lucky day, General. [Laughter.]

STATEMENT OF REAR ADM. JAMES P. WISECUP, USN, PRESIDENT, NAVAL 
                          WAR COLLEGE

    Admiral Wisecup. Good morning.
    Chairman Snyder, Representative Wittman, distinguished 
ladies and gentlemen of the Oversight and Investigation 
Subcommittee, I am Rear Admiral Phil Wisecup, President of the 
Naval War College, and I thank you for the opportunity to speak 
with you again.
    Let me begin by assuring you the Navy now has a distinct 
curriculum for the intermediate-level course as recommended by 
the Panel on Military Education of the 100th Congress headed by 
Representative Ike Skelton.
    Today, our intermediate courses focus on building 
operational-level expertise, a key emphasis of Admiral Gary 
Roughead, the Chief of Naval Operations (CNO). The college's 
intermediate-level graduates are skilled in applying 
operational art through the Navy and joint planning processes 
and are critically thinking leaders with operational-level 
perspectives.
    They are familiar with a range of challenges of operating 
in the maritime domain and are competent in employing Naval 
capabilities in conjunction with other services, other agencies 
and partner nations to achieve strategic objectives in war and 
peace.
    Further, the Chief of Naval Operations determined that 
unrestricted line Navy officers in the grade of commander must 
have completed an intermediate-level professional military 
course with embedded JPME Phase I before assuming command. 
Likewise, most staff and restricted line officers must have 
also completed that level of PME before assuming command 
equivalent positions.
    This CNO decision requires nearly all Navy officers to 
complete intermediate level PME and ensures those with the 
greatest potential will complete it.
    The intermediate-level course, resident and non-resident, 
consists of three academic programs. The National Security 
Decision-Making Course instructs in theater strategic planning, 
the economic, political, organization and behavior factors 
affecting selection, command, and the use of military forces 
and the operational level critical thinking skills essential to 
the work of complex national security organizations.
    The course's capstone exercise requires each seminar to 
produce an executive-level strategic estimate of the future 
security environment, a theater strategic vision that advances 
U.S. national interests and a prioritized list of new or 
improved concepts capabilities necessary to advance the 
strategy.
    The strategy and war course, as opposed to the senior 
course, which is strategy and policy, is designed to develop a 
deeper understanding of the interaction of strategy and the 
operational use of military force. The course sharpens the 
students' ability to assess how alternative operational courses 
of action best serve to achieve overall strategic objectives.
    After reviewing the classical theories, the 11-week course 
explores a different war weekly, each with a discrete political 
purpose, normally examined through the lens of a theater of 
operations. For this academic year, for example, the maritime 
domain dominates in 5 of the 10 cases. Irregular warfare was 
the focus of three cases and a substantive part of three 
others.
    The longest course of study is the 17-week Joint Maritime 
Operations Course. In it students study the operational level 
of war throughout the range of military operations with an 
emphasis on the maritime environment.
    Once firmly grounded in operational art, students use Navy 
and joint planning processes to develop alternatives for 
applying Naval, U.S. and partner nation capabilities toward 
strategic objectives. A major planning exercise requires each 
seminar to develop alternative courses of action supporting 
operational orders including the Joint Force Maritime 
Commanders.
    The course's capstone war game involves a crisis 
development and deployment planning phase, a humanitarian 
assistance phase, and a transition phase, all using 
collaborative technology tools in a distributed environment.
    Together, these courses develop an operational knowledge 
base and perspective required to contribute on a major staff. 
The resident curriculum is the basis for the four non-resident 
programs.
    We are confident our educational approach, which uses an 
executive perspective in a seminar-centered environment, 
requiring an appreciation of alternative viewpoints and the 
synthesis of complex ideas using multidisciplinary tools 
remains on target.
    We expect application of principles to case studies of real 
events and issues and require our students to provide written 
analysis of complex open-ended issues. Grading clearly sustains 
the academic rigor.
    Through such endeavors, we believe we can well judge if our 
students are achieving the required educational outcomes.
    I have found the college to be a place where morale is 
high, faculty and staff members are satisfied they are doing 
meaningful work that makes a difference, students are highly 
motivated professionals, many coming right off the front lines, 
who take their duties seriously.
    They continue to challenge themselves and me every day.
    On behalf of the students, faculty and staff representing 
each of our armed services, many of our international partners, 
and numerous Department of Defense and other federal 
activities, we thank you for your continued support within 
Congress and your commitment to professional military 
education.
    Thank you.
    [The prepared statement of Admiral Wisecup can be found in 
the Appendix on page 79.]
    Dr. Snyder. Thank you, Admiral.
    General Cardon.

     STATEMENT OF BRIG. GEN. EDWARD C. CARDON, USA, DEPUTY 
       COMMANDANT, ARMY COMMAND AND GENERAL STAFF COLLEGE

    General Cardon. Chairman Snyder, Congressman Wittman and 
honorable members of the committee, I would like to extend to 
each of you a warm welcome from Fort Leavenworth, Kansas. Thank 
you for this opportunity to speak about professional military 
education at the Army's Command and General Staff College.
    I came to the position of deputy commandant from 5 years of 
service in Third Infantry Division with 29 months in Iraq 
between 2003 and 2008. This experience directly influences how 
I view my job today.
    First, for my personal experience and observation, our 
graduates are doing well in supporting the operations around 
the world, especially in Afghanistan and Iraq. I recognize that 
their state of readiness is a combination of their experience, 
training and education, but it is clear that the college is 
contributing to the success of these majors.
    Second, there is more we can do to prepare this next 
generation of leaders. We often say we train for certainty but 
we educate for uncertainty. This concept is more important than 
ever given the unknowns of the future environment.
    We must broaden our focus, planning and executing 
operations in environments that include extended operations 
over time. We need a richer, joint interagency, 
intergovernmental, multinational experience. And we need to 
continue to focus on ill-structured problems.
    And we need to educate our officers on comprehensive 
soldier fitness to preserve the force.
    A considerable amount of the current success of military 
education is directly attributed to the implementation of 
recommendations on the report of the Panel of Military 
Education. We strive and will continue to strive to meet your 
intent for rigorous, quality education that prepares our 
officers to operate in an ever-changing environment.
    Strategic leaders develop over time. We are an important 
stop in this journey as our students, who are already confident 
in tactics, will understand operational art, and will be 
educationally prepared to start or build on a strategic study.
    Numerous thoughtful questions have been raised that we 
attempted to address in our written statements, but I just want 
to highlight a few points.
    Education: We believe leaders develop though education, 
training and experience. Training is great if it is the right 
training. Experience is great if it is the right experience, 
and education provides the intellect to see the difference.
    Educating for uncertainty allows us to operate in these 
complex environments, to work on these ill-structured problems, 
and to operate in a more decentralized environment with 
increasing interaction to coalition and non-military partners.
    For our students, the Army adopted the concept of universal 
resident intermediate-level education for all active-duty and 
select reserve component majors, which continues to be an 
intriguing debate for our Army.
    This concept is under stress today due to the operational 
demands of the force. The Army needs all of its majors to be 
successful, and the increasing complexity of the environment 
makes education even more important.
    One of the greatest values to resident education--is the 
interaction between Army officers, district service officers, 
international officers and a growing number of interagency 
officers.
    For curriculum, we have an integrated curriculum based on 
educational outcomes using an adult education model that 
includes time to reflect while providing rigor in upholding 
graduate standards and evaluating student work. It is possible 
to fail.
    We incorporate history and history studies in the curricula 
of students in an appreciation for examining the past to 
prepare for the future. Our task is to provide the best 
education we can offer to every officer attending the college 
and we are very fortunate to have a select number of students 
attend a second year of study in operational art at the School 
of Advanced Military Study.
    The faculty has changed dramatically, going from a 
predominantly military faculty to a current faculty construct 
that consists of approximately 65 percent civilian with more 
than 95 percent of the civilians having active-duty experience.
    Our number of Ph.D.s is growing. Our military faculty, 
including the joint military faculty, is critical. They are the 
role models who coach and mentor, bring recent operational 
experience to the classroom, and provide context in our current 
military environment.
    The challenge is balancing the needs of the college with 
the personnel pressures on all our formations and organizations 
and we need our sister service officers to receive joint credit 
as the current system negatively influences officers from other 
services in their interest to serve as an instructor at Fort 
Leavenworth.
    For the future, I want to highlight three initiatives. 
Historically, interagency participation in education has been 
minimal, whether they were civilians from the Army or outside 
agencies. We have had minor faculty support from some agencies 
but almost no civilian students attending.
    The need to add interagency faculty, students and 
curriculum is paramount. Over the last two years, we have 
talked to dozens of agencies and done our best to market this 
program. The story is uniformly the same.
    These agencies understand and support the initiative, but 
lacked the education and training account of people to support 
the efforts. We have developed an intern program for Army 
officers to help mitigate the manning issues of participating 
agencies, but we need additional help to better attract 
interagency students.
    We also have interagency faculty from the Department of 
State, National Geospatial-Intelligence Agency and the Central 
Intelligence Agency. It is a great start, but there is more to 
be done. This is an area we can also use your support.
    Our current policy sets standards for joint representation 
within the student body. We feel a similar system to support 
interagency participation at the intermediate level is 
appropriate.
    The second initiative I want to showcase is the Student 
Health Program, which has been added to the college. It saves 
lives. Three years ago, the leadership began to see signs and 
symptoms of stress in the student population, and upon further 
investigation, we discovered that the majors were in worse 
physical condition than our colonels.
    The program was developed and resourced. We have a complete 
wellness program for our majors. But the next step is to 
implement the Comprehensive Soldier Fitness Program, including 
resiliency programs to help our students deal with the stress 
of today's and tomorrow's environment.
    And the final initiative I want to highlight is our 
emphasis on preparing our majors to use information. Every 
student must write for publication, must be interviewed by the 
media, complete a public speaking engagement and touch the 
blogosphere.
    Early results of having our students engaged with the 
public are inspiring. There are great stories to tell and 
important messages that they bear I think people should hear. 
This is having an immediate impact on our Army.
    In closing, we are unbelievably proud of the men and women 
who serve at Fort Leavenworth, both in the military and our 
dedicated civilians. We are extremely grateful for the 
committee for the support to Professional Military Education. 
We strive and will continue to strive to meet your intent for 
rigorous, quality education. Both teaching and learning is 
strong and will remain strong.
    We will continue to evolve and adjust to meet the needs of 
the future. We have a sacred trust to ensure our education 
prepares our officers, our leaders to lead our soldiers in 
formation.
    Thank you.
    [The prepared statement of General Cardon can be found in 
the Appendix on page 109.]
    Dr. Snyder. Thank you.
    General Jackson.

 STATEMENT OF BRIG. GEN. JIMMIE C. JACKSON, USAF, COMMANDANT, 
                 AIR COMMAND AND STAFF COLLEGE

    General Jackson. Mr. Chairman, members of the committee, 
thank you for this opportunity to appear and testify about the 
Air Command and Staff College (ACSC). I would like to submit my 
written statement as a part of the official record and look 
forward to addressing any questions you may have after my 
opening remarks.
    Dr. Snyder. All written statements are a part of the 
record.
    Thank you.
    General Jackson. I understand the focus of your current 
efforts is on the Goldwater-Nichols Act of 1986 and the House 
Armed Services Committee (HASC) Panel on Military Education 
Report from 1989, and what their influence has been shaping 
Professional Military Education.
    I can personally attest to the influence they have had on 
Air Command and Staff College. I was a faculty member at ACSC 
during the 1998-1999 timeframe, and in September 2007 returned 
as the ACSC commandant.
    What I found in 2007 is significantly different than when I 
left in 1999. ACSC is a programs that is academically rigorous, 
steeped into our operations and a college that educates airmen 
who are agile, critical thinkers prepared to meet any 
challenge.
    Unique to ACSC with respect to other PME institutions is 
its air-centric operational focus. But this service perspective 
is balanced by a comprehensive curriculum that stresses joint, 
interagency and multinational planning and operations.
    ACSC does not rest on its past laurels but continues to 
address key faculty, curriculum and resource challenges to 
sustain this level of success. I want to emphasize that we 
consider our faculty as our center of gravity.
    Faculty make or break our institution.
    I believe, and student feedback supports, that ACSC has a 
well-prepared, motivated faculty and staff. However, we must 
continue to focus on faculty and faculty development to sustain 
these qualifications and credentials.
    ACSC faculty considerations include the mix of Air Force, 
sister service and civilian instructors. When I was on the 
faculty, we had two civilian faculty members. Today we have 31. 
Congressman Skelton's support in attaining Title X authority 
was key to this effort.
    The increased civilian faculty has been a significant 
factor in creating a more academically rigorous program. In 
addition, all Air Force Officer Professional Military Education 
schools are co-located within the Carl A. Spaatz Center for 
Officer Education at Maxwell Air Force Base.
    We are able to draw upon the synergies of the seven 
colleges and schools, their civilian and military faculty 
members, to interagency advisors, to mentors assigned to every 
person.
    It is important that the college establish the right mix 
with its military faculty. The right mix begins with Air Force 
sister service ratio. Sister services have been very supportive 
in providing outstanding faculty members, but an issue is joint 
credit for faculty duty at Air Command and Staff College.
    I believe there is justification for all military faculty 
members at the service intermediate level colleges to receive 
joint credit. Your subcommittee may be able to help us with 
this effort.
    We are working to address both the quantity and the mix of 
Air Force military faculty expertise. We must continue to 
emphasize that PME faculty duty is valued in an individual's 
career in the Air Force.
    As I referenced in the written comments, ACSC recognizes 
the need to invest in the professional development of its 
entire faculty as teachers, scholars and practitioners. The key 
is maintaining the currency and relevancy of the curriculum and 
remaining on the leading edge of teaching methodology.
    The ACSC resident class forms a diverse, uniquely-
experienced population. The class contains a mix of operational 
and functional expertise from the non-host military department, 
air reserve components, international officers, Department of 
Defense (DOD) civilians, and representation from other 
agencies.
    The caliber of the students attending ACSC has remained 
high. The move in 1994 to integrate the international officers 
for the full academic year has had a significant positive 
impact on the ACSC program, especially as we increased our 
regional and cultural emphasis.
    The ACSC curriculum today is very focused on operational 
art. One challenge I face as the commandant are frequent 
requests for insertions into the curriculum. ACSC has 
established the context of a core curriculum that serves as the 
basis for curriculum changes, insertions and additions.
    The Air Force has also established an Air Force Learning 
Committee to screen these recommendations similar to the 
process used by the Chairman of the Joint Chiefs of Staff over 
insertions into joint PME.
    The joint approach serves as a good model for the 
curriculum change by the Air Force.
    Every element of the core is reviewed and updated to ensure 
that each is relevant to the needs of today's warfighters and 
prepares those warfighters for the challenges they will face 
tomorrow.
    Examples of ACSC's adaptability include institutionalizing 
jointness across the curriculum, embracing a robust regional 
and cultural studies program, embedding concepts and ideas 
about operational-level warfare throughout our core courses and 
reemphasizing irregular warfare and the nuclear enterprise.
    Another improvement I noted upon my return was a stronger 
emphasis on focused research. ACSC student papers are read by 
senior military leaders generating ideas affecting operations 
and military strategies.
    We have already had reports that academic year 2009 student 
research is being used to change the way DOD handles field 
distribution, how Congress may view weather control, and how 
intelligence operations may be executed.
    In summary, there has been broad sweeping change at ACSC 
since the initial implementation of joint education. ACSC has 
matured from the joint track approach in 1998 to full 
integration and the use of jointness as our primary language.
    Process changes mandated in the Goldwater-Nichols Act and 
by the panel have now been institutionalized. Our students are 
receiving the education necessary to critically reflect upon 
today's issues while preparing to address the unforeseen 
challenges of the future.
    Mr. Chairman, I again thank you for the opportunity to 
testify and the chance to talk about Air Command and Staff 
College. I have been honored to serve as the commandant for the 
past two years, and I look forward to your questions.
    [The prepared statement of General Jackson can be found in 
the Appendix on page 131.]
    Dr. Snyder. Thank you, General Jackson.
    Colonel Damm.

 STATEMENT OF COL. RAYMOND C. DAMM, JR., USMC, DIRECTOR, U.S. 
             MARINE CORPS COMMAND AND STAFF COLLEGE

    Colonel Damm. Chairman Snyder, Ranking Member Wittman, 
distinguished subcommittee members, good morning. On behalf of 
General Gardner, Marine Corps University president, thank you 
for allowing me to tell you about the accomplishments of your 
Marine Corps Command and Staff College.
    Informed by the study of history and culture, the college's 
present mission is to educate and train its joint, 
multinational and interagency professionals to overcome diverse 
21st century security challenges.
    We teach warfighting and the context in which that 
warfighting occurs. We rely heavily on a combination of 
seminars, practical applications, case studies and student 
self-direction.
    As its director, my intention is to create an atmosphere of 
professional excellence by employing a world-class faculty and 
staff, working with energetic, motivated students in a 
supportive, challenging and forward-looking educational 
environment.
    Our graduates are regarded by operational commanders as 
outstanding planners, accomplished communicators, both orally 
and in writing, innovative thinkers and sound decision makers 
who have raised their thinking above the tactical level.
    They should be adept at solving the complex problems of an 
inherently ambiguous and dangerous world and to perform 
effectively at the operational level of war. In short, we seek 
to produce graduates who can think creatively, reason 
critically and act decisively.
    Our students are accomplished professionals, aggressive, 
bright, savvy and, in this year's class, more than 80 percent 
combat veterans. Knowing they will soon return to the fight, 
they are eager to learn.
    Our task is to continue to challenge them professionally 
and intellectually. To do this requires a first-class faculty 
and a challenging and relevant curriculum. The college is 
blessed with both.
    Let me talk about our faculty for a few moments.
    The faculty is the college's center of gravity. Our unique 
combination of military officers and civilian academics, paired 
as faculty teams, create the learning environment in the 
college. Congressman Skelton's panel over 20 years ago found 
much about which to be concerned.
    Our faculty of only 24 had just a single Ph.D. We had 
limited operational and academic credentials among the military 
faculty. That has changed.
    Just this month, we said good-bye to 12 of our 19 military 
faculty. More than half departed because of promotion to 
colonel or to take command. All of our military faculty have 
advanced degrees. Our civilian faculty, including the one Ph.D. 
resident at the time of the Skelton Panel, are a mix of variety 
of specialties and backgrounds.
    Some are former military. Others have no military 
background. All 19 civilian faculty are Ph.D.s.
    Our core curriculum consists of four courses. Our newest 
addition to the curriculum is Culture and Interagency 
Operations. This course improves the understanding of culture 
in today's security environment and looks at interagency 
operations as ways to employ all the instruments of national 
power.
    Our electives program provides additional depth to the 
curriculum and responds to student interests. Among our 
electives are courses on armed groups, insurgency from an 
insurgent's perspective, and religion and violence.
    The Defense Language Institute supports our survival-level 
language instruction and our negotiations practical exercise. 
Next year, we will offer five languages: Arabic, French, 
Chinese and two Afghan dialects, Dari and Pashtu.
    Students examine matters of professional significance 
through the college's accredited Master of Military Studies 
program. Also noteworthy is the college's exercise program, 
designed both to enhance the planning skills of our students as 
well as to increase their cultural and interagency awareness.
    Our vision for the college is to remain closely attuned to 
the needs of the operating forces, to retain and hire higher 
quality faculty without sacrificing that quality and to 
increase the sophistication of the technologies that support 
our curriculum.
    Our graduates face enormous challenges in the operating 
environment that awaits them once they leave us.
    The college is committed to doing all we can to assist them 
in their professional and intellectual development to become 
more skilled at their craft and mentally agile to adapt to un-
anticipated situations.
    As Lieutenant General John Allen, Deputy Commanding 
General, Central Command (CENTCOM), told our graduating class 
earlier this month, ``you may have 35-year-old bodies, but 
education is about having a 5,000-year-old brain.''
    Thank you, Mr. Chairman, for the chance to speak with you 
today. I welcome the subcommittee's questions.
    Semper Fidelis.
    [The prepared statement of Colonel Damm can be found in the 
Appendix on page 140.]
    Dr. Snyder. Thank you all for your opening statements, and 
thank you for your service. This subcommittee greatly values 
what you do, and that is why we are spending as much time on 
this topic as we have.
    And as you all know, full committee Chairman Ike Skelton 
feels very strongly about the work that you do. We are not 
trying to replicate the work that the Skelton panel did 20 
years ago. It is not that extensive of a--we don't have that 
level of staffing, and the situation is different now.
    But it is very important that we provide the kind of 
oversight and constructive help that, you know, the country 
wants and that you all want. And so we appreciate your presence 
here today.
    I go back to the days of Easter egg hunts--I am going to 
use a metaphor here--you know, now you get that they do Easter 
egg hunts with plastic eggs, and so when June comes if you 
still find the plastic egg, the dollar bill inside is still 
good.
    I am old enough when you actually hid real eggs, and if you 
found that missing egg in June, you really didn't want to be 
anywhere near it. Like if you are doing some gardening and hit 
it with a shovel.
    Your opening statements, those were very good. It was a bit 
like the old-time Easter egg hunt. It is a little bit 
challenging to find those places where you are actually 
acknowledging you have got some problems and challenges. So I 
am going to run through these quickly, and tell me if--I want 
you to respond and amplify on them and then any other issue 
that you have.
    General Kasun, you specifically mentioned the timing--I 
think your phrase was while no education is a waste, the timing 
of it--it is page 25 of your statement--the issue of sending 
the officers to JCWS at the right time. You also, on page 28 of 
your statement, discuss this issue about the billets.
    Just because a graduate is--to date, JWS graduates have 
filled less than 20 percent of available coded billets, and 
some billets have never received one of our graduates. I want 
you to amplify on that.
    On the next page, you talk about you have got some aging 
facilities. And then on page 30 you talk about the importance 
of outreach, making sure your faculty stays current. Those are 
four of the points that I picked up where you thought you 
perhaps needed some work. I want you to amplify on those.
    And then, Admiral Wisecup, you have mentioned faculty, I 
think it was on page 22 of your statement, where you say the 
challenges in attracting the very best Navy officers and again 
because this issue of jointness and where that fits into a 
career. I would like you to amplify on that.
    General Cardon, you specifically brought the issue of the 
majors, how many majors are being educated and what that does 
to the long-term goals of your mission. And page 11 you talk 
about--let us see here--oh, yes, again the issue of jointness 
with regard to faculty in attracting faculty and this, on page 
17 and 18, you talk about the--getting both students and 
faculty from the interagency, that that continues to be a 
challenge.
    I think there are some creative things that can be done 
there, or have been done there.
    General Jackson, you mentioned specifically, on page three, 
faculty. And I think the one thing I picked up from your 
statement, Colonel Damm, was, although it was not necessarily a 
problem, the fact the high turnover, which represents both the 
good and the bad.
    Those are the kind of the Easter eggs I picked up from your 
all statements and, I am sorry, General, we need to go ahead 
and start the clock. But if I could get each of you to maybe 
amplify on those a little bit, but also, this is your time. We 
need to hear where you all see problems.
    And I think sometimes while we want you to be upbeat about 
what you are doing, this is your chance to lay out where your 
needs are because we are trying to find out where things could 
be improved.
    So, General, we will start with you and amplify those.
    General Kasun. Sir, it keeps buzzing when it is my turn. 
[Laughter.]
    Dr. Snyder. That means we are 15 minutes away from going 
into session.
    General Kasun. Okay, sir. I won't----
    Dr. Snyder. So you don't have anything to worry about, 
here. Okay. [Laughter.]
    General Kasun. Mr. Chairman, thank you for your time and 
your comments and your questions. I will try to do this very 
succinctly.
    Bringing the students in at the right time--I have 
mentioned a couple of times that it is a difficulty. We only 
have about \1/3\ of the students that show up for JCWF, our 10-
week program, that are on their way to joint assignment. Fifty 
percent of them are on the backside of their Joint assignment.
    So when they come to our school, at that point, they are on 
their way to another service assignment or a regular command.
    My opinion, sir? Is that what you are asking for?
    Dr. Snyder. Yes. Yes.
    General Kasun. What to fix?
    Dr. Snyder. And how to fix it and whose responsibility it 
is to fix.
    General Kasun. Okay, sir.
    Well, there is legislation already there basically stating 
that students need to be educated prior to going to a Joint 
assignment. And I think just enforcing that legislation would 
make a difference.
    Dr. Snyder. Some of us might say that that would, you know, 
be like going to medical school, that I think it is generally a 
good idea to have completed medical school before you practice 
medicine, but--that is just--we didn't think we would really 
have to legislate that, but go ahead. [Laughter.]
    General Kasun. Sir, we do find that on our surveys, like I 
mentioned during my point, that the graduates that have 
actually gone to the school prior to or that within the 12 
months have gained a lot more----
    Dr. Snyder. A lot more----
    General Kasun. And it is truly an investment in our 
officers' education.
    So the 20 percent of JAWS students--we have about 41 
students that come through a year. Thirty-six of them are 
military. They are based on the \1/3\, \1/3\, \1/3\, air, land 
and sea forces that come through. But that is an even balance 
of O-4s and O-5s.
    However, only 20 percent of them have actually been 
assigned to JAWS-coded billets. About 60 percent of them have 
actually gone to the different joint forces--I mean, the joint 
billets, but not necessarily in a JAWS billet.
    So they may not be planners. They are master planners, but 
they are not actually going into planning billets. And again, 
sir, I would suggest that communication, working with the 
services and trying to put that up front when they are assigned 
to JAWS, they have a following.
    Dr. Snyder. Because you are creating a valuable asset.
    General Kasun. Yes. Yes, sir.
    Dr. Snyder. And that valuable asset, I suspect, wants to be 
used to their fullest capacity, and yet too often, in your 
opinion, they are not being used to that capacity.
    Thank you.
    General Kasun. That is correct, sir.
    And, one other point on that specifically, we are both an 
intermediate and a senior-level college--I mean, a senior-level 
course there. So we have the O-4s to O-6s, predominately O-4s 
and O-5s, but there are O-6s, and because it can be either 
Intermediate Level Education (ILE) or Senior Level Education 
(SLE), which was an agreement made when JAWS started 5 years 
ago, and that was in order to provide the services with 
flexibility, currently it is a single-phase JPME. They get JPME 
I and II.
    But depending on the service decision, which one they get, 
whether they get ILE or SLE. So my point with that is that it 
is an advanced warfighting school equivalent to our services, 
and I believe that the O-4s and O-5s actually making them 
master campaign planners is much more useful.
    I see a point where there are O-6s coming through, but they 
are more on the high side of the position rather than the 
actual workers.
    Sir, you asked about the aging--I had mentioned about the 
aging buildings. We have buildings that have been there 
actually since the 1940s, but the majority of the ones that we 
have are about 47, almost 50 years old. And it costs over $1 
million a year for maintenance and upkeep. We are refurbishing 
the exterior of the existing buildings to support more classes, 
and we had some issues with post-9/11 security.
    We are putting a gate in and, of course, funding. We are 
still working on getting funding for that. We have the human 
capital. We are sending students through, about 255 students, 
every 10 weeks through our school, and we have them 4 times a 
year for our JCWS.
    We have just enough faculty--actually, we are just a few 
short--basically, we have just enough faculty, sir, to be able 
to teach those students over and over and over and there is 
about a week and a half in between, there is no white space for 
the faculty.
    So that our human faculty, we have some outstanding 
faculty. We have \2/3\ military and \1/3\ civilian, but there 
is no time to do any research. And we are working on getting 
another manpower increase but, again, it is going to have to be 
built in to make sure that that is authorized.
    Because currently, right now, for the ratio, the 3.5-to-1--
I am not sure which student gets \1/2\ a leg--but the ratio of 
3.5-to-1 students-to-faculty, we are about 4-to-1. So the 
faculty is working all the time.
    We actually have several of our faculty who have gone down 
range. Since 2003, we have had 18 faculty and staff that have 
deployed in support of a variety of outreach operational 
missions in the following areas: the Horn of Africa, Iraq, 
Afghanistan, Ethiopia, Saudi Arabia and we also have other 
faculty members working specifically on teams to help develop 
political and military policy in Bulgaria, the Ukraine and 
Georgia.
    We have frequent opportunities for billets out working for 
the COCOMs, and that is one of my missions or one of my visions 
that I plan to continue that. But again, that is taking faculty 
out of the class when they need to do the research.
    When they do come back, when the faculty comes back, 
whether they are the Title X's or the military, they bring that 
new freshness to the students. Of course, our student 
population being joint with all services, almost everyone has 
gone downrange either one, two and even three times.
    So to keep that freshness within the students--I mean, the 
faculty with the students is very, very important.
    The interagency attendance, I don't know, sir, if you 
mentioned that, but I know I did. It is difficult at best. I 
know that the 10-week course, it makes it very difficult to 
sell to the interagency. My two brother schools at Indy U, 
National War College and Industrial College of the Armed Forces 
(ICAF), have a great following. They can actually attract more. 
But they are in the D.C. area.
    And we find ourselves down in Norfolk in a hub with a great 
deal of experience. We have tradeoff. We have all the different 
services at the operational level, but for the 10-week course, 
we have some difficulty attracting interagency because the 
interagency looks at it as a gap when it is 10-weeks.
    But they look at it when they come to the JAWS course or 
11-month course, they get a Masters degree, and it is an 
investment.
    I find that both courses are an investment in their people.
    Thank you, sir.
    Dr. Snyder. Mr. Wittman, I have run out of time. My 
suggestion is we let them respond to this, and then I think 
that we have got a five-person panel. We will let you take as 
much time, if that is all right with you, sir.
    Mr. Wittman. That is fine. Yes.
    Dr. Snyder. So Admiral Wisecup, if you would continue that 
discussion?
    Admiral Wisecup. Yes, sir.
    You asked about the issue about attracting the very best 
Navy officers to join the faculty since you are not credited 
with joint duty.
    This is an issue that I have seen now as I have only been 
here seven months, and this is one of those things that I am 
becoming aware of. You know, we did have one of our officers 
screened to be carrier air group commander, which I thought was 
a very good development, okay?
    But JDAL, the Joint Duty Assignment List issues is a policy 
issue I probably need to work on as I have not yet really made 
the case on the quality versus the joint assignment. So what 
happens is naval officers look at the broad range of duties 
they can go to, come into the Naval War College, a Navy guy, 
you don't see the jointness. You don't see the joint 
experience.
    I could probably make the case, and I need to do that, 
okay, that they're actually getting a joint experience there. 
And we have, for example, 35 faculty members from other 
agencies and other services, of course, an Army officer coming 
to the Naval War College will very easily get joint credit on 
the JDAL, the Joint Duty Assignment List.
    But it is probably harder to make the case for a naval 
officer to get Joint Duty Assignment credit coming to the Naval 
War College. But that is something that I will work to try to 
make that case.
    Dr. Snyder. I mean, because it is a real problem if you 
have some of your, you know, kind of the folks that you want to 
be faculty members if they don't think coming to your place 
helps their career.
    Admiral Wisecup. Sure.
    Dr. Snyder. I mean, it sure is a problem.
    General.
    General Cardon. Sir, I will just carry on there first with 
the joint faculty.
    It used to be that sister service officers who came to the 
Command and General Staff College received joint credit. Now 
they don't. They have to apply for it. And as the admiral said, 
the problem with that is it is a quality cut because you have 
to be joint-qualified to advance. Officers know that.
    And because that is not seen as an automatic joint 
qualification, it is not seen as desirable of an assignment 
which brings a degree of negativeness.
    Sir, on the ILE issue, universal ILE for the majors, a 
number of reasons why this was formed. I will just highlight 
two.
    One is we used to have a 50-percent cut on the majors. So 
50 percent went to the resident course, 50 percent did the box 
of books. The challenge is that the 50 percent that did not go 
viewed themselves as disadvantaged. At the same time, we are 
trying to retain them to do important jobs for the Army.
    So the Army said if they are majors in the United States 
Army, they should all receive quality educations.
    What has complicated this has been the wars and the----
    Dr. Snyder. I am sorry, has been the----
    General Cardon [continuing]. The wars and the rotational 
Army. Because of the demands on the force now, not all of the 
majors are coming to ILE and we have a significant backlog 
already.
    So now the question is are we sending the right majors, 
because what is happening is as majors stay out and the 
captains then get promoted to major and stay out, and even if 
we actually have a couple of hundred majors that are in the 
primary zone for lieutenant colonel who have not been to any 
form of intermediate-level education.
    Now, half of those are probably our best officers serving 
as operation officers, executive officers, in both our 
battalions and brigades today. And so the Army is trying to 
address how to do this.
    But the complexity of the environment, I think, almost 
demands that we have to have--the officers need more education, 
not less. Because if you look to the future, it doesn't look 
like anything is becoming more clear. It is more complex. You 
need to educate to do that.
    Sir, interagency, 10 years ago when I was a young field 
grade officer, I had no involvement with the interagency to 
speak of. Nowadays, our captains are dealing with the 
interagency with the guards and things like the Provincial 
Reconstruction Teams out on the ground in Afghanistan and Iraq 
and, even more importantly, heavy integration with the 
intelligence agencies to the levels that I have never seen 
before.
    But we do nothing to help them operate in this environment 
and, you know, General Caldwell has started a number of 
initiatives to try and bring interagency to the college. And we 
are moving in the right direction, but we need help in and, as 
I said in my statement, the agencies do not have a pool of 
officers from which they can choose.
    So we have tried to give the interagency officers, but 
every major we give them in exchange for a major to come back, 
that is a reasonable level, but to grow to the 96 seminars we 
want, to have 96 interagency officers at the Command and 
General Staff College, I think, we are going to need some 
additional help.
    Sir, for military officers, the challenge is with the--and 
I think you are referring here to the--to confirm that you are 
talking about military faculty--there is no floor on military 
faculty. And what I mean by that is as the numbers--as the 
demands of the war increased, the number of military officers 
in the college have continued to drop.
    And General Caldwell and I are trying to hold the line at 
about 30 percent. But there is nothing written and I am not 
sure anything has to be written. But the challenge is how do 
you ensure you get the best military officer and have the right 
number of military officers?
    We think the military officers are critical for role 
modeling current experience and--well, it is role modeling and 
current experience being most important.
    So we don't need help. But I would say it is a challenge if 
the demands for majors continue. Why is the demand for majors 
continuing to increase? An example is the Security Force 
Assistance Missions that the Army is taking on, which is very 
officer-heavy, has put another levy of demands on our captains 
and majors, which directly impacts, now, availability to go to 
school and availability for majors assignments worldwide.
    Dr. Snyder. Thank you.
    General Jackson.
    General Jackson. Sir, thanks for the opportunity to talk 
about our faculty.
    Sir, I view the faculty as my weapons system. And, as a 
result, I spend a lot of time resourcing, rewarding them and 
making sure that they are recognized for the great things they 
do.
    Chairman Skelton then was very, very instrumental in Title 
X authority that allowed us to hire great civilians. In fact, I 
had two different phenomena. On my civilian side, I have great 
quality, not necessarily quantity, but it is a product of our 
success.
    As I mentioned in my opening remarks, we have reorganized 
that area of our university to put all our officer PME under 
one center. That means from lieutenants all the way through 
colonels. But as a result some of my Ph.D.s are moving as a 
natural progression to the other seven colleges and schools.
    So it is a never ending piece, but the quality of the 
civilian faculty is actually exponentially better than when I 
was there 20 years ago.
    For my military faculty, we have the quantity, but quality 
is what I am trying to instill in. We have some initiatives 
that we are undertaking from the Air Force and their university 
to instill the idea that being a faculty member at their 
university is valued in your Air Force career.
    Jointness would help us as an incentive. We are also trying 
to get the word out. We have been able to promote our folks 
from major to lieutenant colonel exceeding the Air Force rate 
for the last 4 years. And on Tuesday of this week, four of my 
active members were selected for O-6.
    So we have a good process, but in terms of getting 
volunteers and people with the right degrees, we still have a 
little bit of challenge that we are working at without----
    Dr. Snyder. Colonel.
    Colonel Damm. Mr. Chairman, you asked a specific question 
on the turnover rate. Sir, I see that as a challenge and not a 
detractor. We are very excited about hiring faculty that have 
one, commanded, two, have Masters degrees, and then the third 
iteration is Top Level School (TLS).
    So, occasionally we don't get the TLS, but we want 
upwardly-mobile, good faculty members and the backside of that 
is that we lose them. As I say, we had six up for O-6 this year 
and we had five selected. So immediately when they are 
selected, they leave.
    The analogy I will use is that as I start off as an F-4 
pilot and I moved from that analog airplane to F-16s for an 
exchange tour with the Air Force, and as a guy who had somebody 
in the back seat helping me out, an F-4's to a guy who was 
doing it all by myself in F-16's for the first iteration of 
students, I was about a step and a half ahead of them.
    So it causes our instructors to work a little harder for 
the first month of school. We will get them here in about two 
weeks. But we like having good people. We like having people 
who are upwardly mobile and we think they fit perfectly with 
that.
    One of our challenges I think is our building was built in 
1919. It was renovated in 1997. It is not digital-friendly and 
we are working through that right now, sir, and that is 
probably one of the bigger challenges we have that--to make 
that better as we go along with the students.
    Dr. Snyder. When you say work through that, does that mean 
trying to find money?
    Colonel Damm. Some, sir. We can try to do wireless, which 
is not that expensive. When we do one of our exercises, we run 
wireless throughout the system. But right now with Navy, Marine 
Corps Internet (NMCI) that can't work all the time.
    Now, our students can go over to our Gray Research Center 
facility and they are much better at their digital connecting 
than we are and the college itself.
    Dr. Snyder. Mr. Wittman, as much time as you need.
    Mr. Wittman. All right. Thank you, Mr. Chairman.
    I am going to ask some specific questions and then go into 
a suite of general questions for each of you. I will begin with 
General Kasun.
    The Joint Forces Staff College obviously is your purview, 
but I wanted to ask are you adequately being resourced for the 
Joint Advanced Warfare School and, if not, is there a plan for 
that to happen or how do you think that should happen?
    Secondly, when you talked about aging facilities, is there 
currently a military construction (MILCON) in place or is this 
on the unmet needs list? I am just wondering where that is in 
the process if we are identifying that as something that needs 
to be addressed. Where are we in that process?
    And then what I will do is just put some general questions 
out there for the rest of the panel members.
    I wanted to get a sense from you about how you survey 
students and graduates to assess quality and how you use that 
to manage and adjust your programs.
    Secondly, as we talked about keeping faculty, and I think 
that goes to not only--actually, in two areas, recruiting and 
retaining. And I wanted to get your ideas about how you think 
we should recruit and retain top-tier civilian faculty. I want 
to focus a little bit on that. You talked about uniformed 
faculty there, but civilian faculty and what do you have in 
mind as the definition of top-tier and what are the things that 
go into that effort to attract those folks?
    And then, lastly, we have heard a lot about this in some of 
our previous hearings about how do we, at this level, identify 
promising officers with the potential for high-level strategic 
thinking at this particular point in their career? And how do 
we do that?
    And then, how do we take that information and use that to 
develop these officers to their full potential, and is there 
something after the intermediate schools where these officers 
can be tracked and monitored to make sure that we have the best 
and brightest making their way into these key, critical 
leadership positions.
    And I know that is a lot, but I wanted to try to go ahead 
and get at that and----
    General Kasun. Sir, I was just trying to make sure I got 
all those notes.
    Mr. Wittman. Sure. Absolutely. [Laughter.]
    Thank you.
    General Kasun. You want me to start out and then pass it 
and then come back?
    Mr. Wittman. Yes. That will be great.
    General Kasun. I will answer one that way. It won't bog 
down the deal here.
    Are we adequately being resourced? That is a good question, 
sir. I believe that, at this point, we have for our 41, 42 
students that arrive, we have just enough. We have 10 faculty, 
and so we have three seminars.
    Currently, we are going to get another faculty member and 
we have intent to increase to four seminars, but that is not 
another 12 people because right now we have 14 in each. We are 
dropping it down. So it's really about seven or eight 
additional students.
    Again, my intent would be to increase the JAWS school to 
approximately 60, if that was going to be possible. We are 
looking for master campaign planners out in the field. The 
COCOM and the Joint Staff have asked for approximately 120 
billets, JAWS-coded billets. We can't do that, sir.
    At this rate, the way they are being assigned, certainly, 
like I mentioned in my speech, we are not even meeting some of 
those. They are not even being touched because they are being 
put into different jobs. We have one JAWS graduate who is a 
speech writer. A great writer. He does very well.
    So, we have them all over, but they are not in the right 
billet. So if we determine to do that, then I would suggest 
that we expand it. Like I said, again, it is on the equation of 
the other advanced warfighting schools.
    So I believe that it would be a good point to see if we can 
do that. That would take more funding. Yes, sir. More 
resources, both faculty as well as support in the classrooms as 
well.
    Our aging facilities. Sir, we are working on a MILCON 
request. But right now because we have our air conditioning 
system in the buildings, they are very antiquated, we are 
looking at getting them refurbished. We had funding. It has now 
been bumped. We have to make a determination if we need to 
build new buildings by putting in a new air conditioning system 
because there is still the asbestos issue.
    So, that is something, yes, sir, that I believe that we 
could look at and probably could utilize your help on.
    Mr. Wittman. Okay.
    Admiral.
    Admiral Wisecup. I am sorry, sir, if one of the questions 
was directed at me, I missed it entirely. I apologize.
    Mr. Wittman. No, no. That is all right. I just kind of gave 
that suite of questions and wanted to try to get everybody's 
thoughts on that about how to attract top-tier civilian 
faculty, how do you survey your students about quality, and 
then also how do we use the process to identify those high-
level strategic thinkers and make sure that that follows them 
through their career so that each branch is getting the best 
and putting them into positions where they can succeed and do 
the most for each branch.
    Admiral Wisecup. Sir. No, I am sorry.
    Mr. Wittman. That is all right.
    Admiral Wisecup. We recently had an opening in our strategy 
and policy department, and I will tell you we had 60 applicants 
for the position. In the end, this is civilian faculty, of 
which you know we have a good number. We have about I want to 
say 63 percent of our faculty is civilian.
    I think, in those terms, the only difficulty is the fact 
that we are a war college which is a little off-putting, but we 
are working on that. We are reaching out, we are coming more on 
line, we are shining a light on ourselves so that others 
understand.
    We also use our network. I mean, we have a very, very good 
network with Fletcher School, Yale, others, people who are 
faculty know and we use that network hard on the civilian side.
    With respect to the survey system, frankly, our students 
actually complain that they are over-surveyed. Each course at 
graduation, graduates, alumni at the two-year mark and five 
years post-graduation, and then what we call our academic 
policy council reviews those results.
    I feel confident that, you know, we are getting the kind of 
feedback that we need to keep the curriculum current and fresh.
    And then, I am sorry, I can't remember the last point.
    Mr. Wittman. The last one is just how do we identify high-
level strategic thinkers and then what do we do to nurture them 
to make sure that they get further advancement and get tracked 
and monitored to make sure we are getting the best out of them 
and putting them into positions where they can succeed?
    Admiral Wisecup. Yes, sir.
    Our, I mean, our graduates are all earmarked in the 
personnel system. For me, having thought about this for a while 
now since I have been there and also having talked with 
Representative Skelton, that is one of the places I want to 
zero in because trying to identify these people early is really 
the challenge.
    And sometimes, you know, even before they come to the War 
College that is part of getting the right people also to the 
War College. But in the end, what I find is that our faculty 
who actually touches these students are in a very, very good 
position to be tapped and so what I am shooting for is George 
Marshall's little black book so that we know who these people 
are, of course, there are ways to get that into the system 
formally.
    Mr. Wittman. Thank you, Admiral.
    General Cardon.
    General Cardon. Sir, we also do extensive surveys on our 
students and the faculty also does an assessment and we assess 
post--once they leave. And we just finished another survey. The 
stack of data is about this thick and that goes back into our 
curriculum.
    We feel pretty good that we got an assessment means to fix 
it. Some of the data that comes back is rather interesting. For 
example, we have a rotational model that we are using now. The 
force generation was not seen as value-added then, but I think 
it is seen much more as value-added now.
    So, there is some assessment that has to be done there as 
well.
    Recruiting and retaining top faculty. We have tried to--we 
have three previous points. One is we have tried to implement a 
chair program. That needs money. And we are trying to do that 
with our foundation.
    The second way that we attract top faculty is to try and 
get the niche areas such as history, strategic studies or 
ethics, et cetera, that has a draw where it can influence, this 
year it will be up to 1,500 majors. So there is a draw on that.
    We do have a challenge with top-tier faculty because of our 
location at Kansas City or Fort Leavenworth, which is a lot 
different than many of them living around the top universities. 
However, we are doing a lot more with the University of Kansas.
    All of our faculty have to teach, and that is the other 
thing that goes against top-tier faculty, because a lot of them 
want to write as well, and we are not set up that way right 
now. It is something that Dr. Ping and I will have to look at 
here in the future.
    And, sir, the last thing for identifying promising 
officers, I think there are three ways we are doing that. One 
is they self-select. We have the School of Advanced Military 
Studies (SAMS) that celebrated its 25th anniversary, well-
known, but that is a self-select program. But it is very 
demanding to get in.
    The second is there is an elective program that gives you 
what we call a six Zulu identifier which identifies you as a 
strategist. We are looking for two parts. We actually have a 
functional area in the army for strategists, but they don't 
command. And then we have commanders that we want to be 
strategists. I think we need both.
    And so both programs work in those directions.
    Now, are we getting absolutely the best officers to be our 
strategists? The Army now has what they call a Leader 
Development Panel which, as captains, tries to identify those 
officers that have specific skill sets in certain areas that we 
want to further develop.
    I don't think that it is working as well as it could be 
because of the demands on the force, that we have a lot of 
opportunities out there, but we have a lot of requirements that 
have to be filled by the combatant commanders.
    That is all I have.
    Mr. Wittman. Okay.
    General Jackson.
    General Jackson. Sir, to maintain a great curriculum, we 
need to stay relevant and current. As such, we must listen to 
our external and internal customers. We do that with a myriad 
of survey initiatives like a few of my other colleagues have 
mentioned--as we look at it lesson by lesson, daily comments 
from the students and the faculty, we have focus groups, 
interviews and special surveys as needed. And of course, at the 
end of the course all of the students will compile a survey and 
highlight the good things that happened.
    At the end of the year, all of the students that are doing 
the graduation week complete a survey that will allow us to 
prepare for the next upcoming point. Our alumni and alumni 
supervisors will be contacted 12 months after graduation to 
ensure that we are instilling the right skills with our 
customers as they receive our services.
    And we have a variety of external sources, the Process for 
Accreditation of Joint Education, operational readiness, the 
president of the Southern Association of Schools and Colleges, 
our own POV and our command board of advisors who are the vice 
commanders of our major commands.
    We ask their inputs to see if we are actually producing the 
kinds of folks that they would like.
    With respect to recruiting and retaining students and 
faculty, I look at faculty development as a great investment. 
For every dollar I put into the program, I will get a return of 
about 10. And as such, we send our civilian faculty to various 
professional symposia. We recruit from those means.
    We try to attract and develop relationships with great 
schools like the University of Denver or Gonzaga so that we can 
identify some folks that may want to come to our school. Once 
they get identified to the school, we review their C.V.'s to 
see if they are the kind of folks that can bring the tools that 
we would like to have to instill and develop in front of our 
students.
    We have a very good program. We also have a sabbatical. 
Since we are all located at Maxwell Air Force Base, we have the 
Maxwell Research Institute, which will allow our Ph.D. folks to 
do the things that are important to maintain their academic 
credentials, and that is publish, research.
    We have an opportunity for them to take a 1-year sabbatical 
to work issues that are of interest to them or to the United 
States Air Force and the joint community at large.
    Sir, to identify high-level thinkers, last week we 
graduated the 18th class of the School of Advanced Air and 
Space Studies. This is similar to the SAMS program. This is 
where we identify our best intermediate-level majors, 
lieutenant colonels, or international officers. We steep them 
in another year of academic rigor to filter that.
    We will look at where the special experience identifier for 
them and continue on with a possibility of establishing a Ph.D. 
program at our school that will allow us to continue the 
opportunity but also be very sensitive to the command 
opportunities so that we can develop a true warrior-scholars.
    Colonel Damm. Congressman, thank you for your questions.
    Mr. Wittman. Sure.
    Colonel Damm. With our students, all of our students are 
board-selected. I have sat on a couple of those boards myself 
throughout my career. And so we consider about \1/3\ of the 
Marines can go to resident course. So, we select those and to 
attend the other schools as well.
    On the survey issue, we survey our students throughout the 
year. We survey them at the end of the year for the entire 
class, and then we survey them about six, eight months after 
they have been out. And that is kind of important for us 
because I talked about our cultural interagency operations 
course. They hated it last year--it was one of the newer 
courses--and then six months after they were out in the fleet 
said that was the best thing we could have gotten.
    So, we read all those surveys. We try to apply them to our 
curriculum review board and make changes where changes apply, 
but we don't change everything because of that.
    We also survey the commanders. It is very important for us 
to know whether the commanders are getting the graduates that 
they want. And that is where we come up with the fact that they 
want them to be able to read, write, speak and make decisions.
    Our civilian faculty, when we went to the Title X hiring 
process, it made it a much better process for us because we can 
hire and pay world-class faculty. And we believe we have gotten 
that opportunity.
    We were looking for four for the next year. We had 31 
applicants. Those applicants came from referrals. Those 
applications came from personal networking of our own faculty 
that we had and then also via an electronic system that the 
request goes out.
    How do we retain them? I think some of our faculty will 
come and tell us that I will be here for four or five years, 
and I would like to move on. Some of our faculty come because 
they get tired of academia. Some of our faculty come--they are 
former military--they come for the reputation of the school and 
where we are, 30 miles south of D.C. And then some faculty come 
just because they love Marines and they love teaching.
    We have Dr. Bittner who is starting his 35th year with us 
this year. And how we keep them? We have another one, Dr. 
DiNardo, he is publishing his sixth book I think this fall. He 
has been here for a while.
    As you know, we bridge the tactical to the operational and 
then we bridge to the strategic and the school.
    How do we I.D. our tactical--or our strategic thinkers, 
excuse me. We have the same process and our School of Advanced 
Warfighting (SAW) program was modeled after SAMS at Fort 
Leavenworth. We actually board-select--it is voluntary--but we 
board-select them to go to the school and it is one of the nice 
things is we have recently opened it up about three years ago 
to non-resident courses because not every Marine can get to a 
resident course.
    So, but they still have to interview and get themselves in. 
We also tag them with a Military Occupational Specialty, 0505, 
so you can find them amongst the 200--almost 200,000 Marines, 
now. You can figure out who they are.
    We also look at the published papers through the year for 
our thinkers and we look at those who are outstanding teachers 
we think become the strategic leaders of the future.
    As for the college itself, we have had a wonderful thing. 
As you know, General Gardner, today I will head back south and 
attend his retirement ceremony. But he has been there for 5 
years, 54 years of service in the Marine Corps. And the nice 
thing about having him there was he has given us a strategic 
vision for the school and that is where our fiscal vision, our 
strategic vision has come from.
    Thank you, sir.
    Mr. Wittman. Thank you, Colonel.
    General Kasun.
    General Kasun. Thank you, sir.
    As for the surveying the students, we actually do queries 
as well. We do the surveys during the school time, but 
afterwards we send out surveys to both the students as well as 
the graduates as well as their supervisors to find out if they 
are--just like some others--are getting what they want.
    And we have been getting very, very good feedback as long 
as the students came to them already educated or if they have 
gone and let them go to come back. If they have actually 
invested--and I use that word because I believe it is investing 
in education and the people--if they have invested their time 
to let it go, let that person go for a bit, then they are very, 
very happy with the quality and what they are getting.
    However, many of our surveys that go out, they go out to 
the supervisors, and they are the service supervisors, and it 
is ``thank you very much, but he is a commander, doing a great 
job.'' Or as a planner, if they are on staff, they are not 
necessarily a planner, but, yes, he understands joint. She 
understands joint.
    But that is how that works.
    On the flipside with our JAWS graduates, everybody is 
extremely happy when they have a JAWS graduate on their staff 
no matter where they are at. Again, we prefer to put them in 
the planning position where they are supposed to be or a JAWS-
coded billet, but they are very satisfied with the education 
that they are getting through the JAWS.
    And the students, the graduates, are very happy for the 
most part.
    The senior officers that are coming through, all of the O-
6s that are coming through certainly because now there are not 
more waivers, most of them have been joint, in joint billets 
and joint staffs many times, so when they are coming by to get 
their education way back after the backside of their careers, 
it is okay. They say yes. Good training. Good education.
    Civilian faculty. How do we recruit and retain? We actually 
advertise in every possible venue to make sure that everybody 
across the board has the opportunity, and then we go through a 
very rigorous matrix and a hiring process.
    So I feel that we do get the highest quality and we can 
attract them there in the Norfolk area. It is only three-and-a-
half hours away from the big city.
    Their main concern, any faculty that we do hire on the 
civilian side is that there is very little white space for them 
to do any thinking outside the box, any stopping and working on 
research and publishing. However, we have had many published 
papers from some of our faculty, but they are doing it on their 
own time because truly there is no white space there.
    We are looking to fund and establish a writing program. We 
have found through the JCWS and the JAWS that the students need 
a writing refresher. And that is through the thesis as well as 
the papers that they are writing. People aren't doing that 
well.
    So, that is what we need to look forward as well. We are 
looking to a Program Objective Memorandum (POM) for a couple of 
additional people. Of course, that is going to build out the 
need for some space and time, or space and equipment. But we 
are looking to hopefully pull on two more people to get that 
set up.
    Identifying the high level of strategic thinkers. We have 
to defer to our service, our brothers and sisters in the 
services to actually choose the planners. They are the ones who 
actually send the students to our college. As a joint college, 
we don't choose who comes.
    They choose who comes, how they are vetted, how they get 
there to the JAWS and there is not always the same boarding as 
they are sent to the war colleges. And I find that just a 
little bit disconcerting because I feel that we do need just as 
strong a vetting process.
    For the placement, again, the services choose where they 
are placed. So, it would be great if we can get that kind of 
fixed up and online, but it is not much different than the 
service schools. When they choose the--to go to these schools 
and specifically the SAMS and SAWS and the Advanced Warfighting 
Schools, they have a plan.
    But the services each, as I understand it, tag their 
service personnel differently. So, they will follow them, and 
if you are a planner, some of them will follow. But they don't 
necessarily tag them, or tag them as joint planners.
    So, thank you.
    Mr. Wittman. Thank you, Mr. Chairman.
    Dr. Snyder. Thank you, Mr. Wittman.
    How often do the five of you get together, and when was the 
last time you were all together?
    Sorry?
    Colonel Damm. Mr. Chairman, we were at the Military 
Education Coordination Council (MECC), and then we had a pre-
MECC meeting in Fort Leavenworth, Kansas about 3 months before 
that. Twice this year, sir.
    Dr. Snyder. Do you all formally try to get together on a 
regular basis? Is that helpful or not? It sounds like you have 
some similar issues. At least give you a chance to poach each 
other's faculty, I would think. [Laughter.]
    Is it something you find helpful, or do you meet on a 
formal basis to sit down with each other, or is it more kind of 
random?
    General Kasun. Sir, I would say that it would be very 
helpful to get together more often, but we have, with our 
schedules, sir, we haven't been doing that.
    Dr. Snyder. You have some similar concerns.
    Colonel, I am going to start with you and go the other way.
    How are you chosen for this job and where does it fit into 
your career? Will you retire out of this job, or how does your 
service view your service or how were you selected?
    Colonel Damm. Sir, I am probably a little bit of a 
different case because, at this point, I just passed my 29th 
year. So, I will retire out of this job, next year.
    What happens in the schools is the school is actually a 
requisition that goes up to the commandant, he will pick some 
folks, and then the commandant will choose that person.
    But I think the lead-up to me coming to be the director of 
the school was I was at our Marine Air-Ground Task Force 
(MAGTAF) staff training program just before I came there, which 
goes around, and it is another model after the Army's Battle 
Command Training Program, which I also had the pleasure of 
spending two years on.
    They go out and they train staffs, we train staffs before 
they went out to Operation Iraqi Freedom (OIF) and Operation 
Enduring Freedom (OEF). So, I was there for two years as a 
deputy, and then my name went up and the commandant approved it 
for me to go down to the college.
    So, besides that, sir, I have taught Air Force guys how to 
fly F-16s. I spent two years teaching youngsters how to fly F/
A-18s, which was a wonderful experience, down at Oceana. And, 
so, I had a lot of opportunity to teach people.
    I have to teach them how to think now, not how to fly, 
though.
    Dr. Snyder. General Jackson.
    General Jackson. Mr. Chairman, I will retire from the Air 
Force in 19 days, but that is a good thing--I think our process 
works. Of course, our chief gets involved. We view, as you 
know, sir, military education is very, very high importantly. I 
think I was a little unusual. I am the 40th commandant of 
former commandant at Air Command and Staff College but the 
first that has been on the faculty.
    I bring a different perspective to the school and, as I 
mentioned in my remarks, it has changed exponentially better 
from the late 1980s when I was there as a student and as a 
faculty. It is a very, very focused program.
    I think about it a little bit because I had seen things out 
there that we are doing. I have also considered that the 
faculty needs to be looked at very, very strongly. We have that 
look from our interuniversity commander and our former 
interuniversity commander was promoted to four-star, and he is 
now a commander of the Air Education and Training Command, so 
we did a lot of focus on ensuring that we have the right 
resources and the faculty to do our job for the United States 
Air Force and the joint community, sir.
    Dr. Snyder. General Cardon.
    General Cardon. Sir, I know the secretary and the chief had 
something to do with this. I am not exactly sure how I was 
selected. I was told 3 months before I arrived back from my 15-
month tour there in Iraq.
    I am not retiring. I am trying to stay in the Army a while 
longer, and I think the Army did look pretty hard because the 
three previous deputy commandants have retired. And that is not 
the trend that has been in this position, which, if you look at 
the wall of previous deputy commandants, they have all gone on 
into much more senior positions in the Army.
    Admiral Wisecup. Sir, I can honestly say that, you know, I 
got the call from Admiral Roughead asking me to come and be 
president of the Naval War College. I came off Operational 
Fleet Command. I was out at the Carrier Strike Group 7 in 
charge of the Ronald Reagan Carrier Strike Group.
    So, operationally, very current, and that is necessary for 
background, credibility with the students and the war gaming 
piece of the Naval War College.
    But as you look down our corridor which, you know, now has 
portraits of presidents over 125 years, it is mixed. So, in the 
end, I come into this job, and I tell everyone I am on a day-
to-day contract, and I am just going to work as hard as I can, 
and I don't know what the future holds.
    But if you look over time, many of these presidents have 
gone on to other positions after. Stansfield Turner, for 
example, in the 1970s went on to be Director of the CIA. Those 
kinds of things.
    But in terms of Navy, I can't answer that question, sir.
    Dr. Snyder. General.
    General Kasun. Sir, I have a somewhat unique background. I 
was the Deputy Commanding General of the Intelligence Security 
Command at Fort Belvoir as an Individual Mobilization 
Augmentee. As a reserve officer, I was called up and said that 
my name is being put into the hat as the nominee for the Army 
Reserve to be the Commandant for the Joint Forces Staff 
College. That was sometime in June.
    In August, I was somewhere over Australia on Capstone, and 
I got an e-mail saying that you are now the Commandant of the 
Joint Forces Staff College. And so about one month later I took 
the staff and thrilled to be there. I believe that I am at the 
right place at the right time.
    For my future, sir, I am in a two-star billet. I am very 
honored to be there. It is up to the chairman as well as my 
Chief of the Army Reserve what happens to me now. [Laughter.]
    Dr. Snyder. Thank you.
    You all may have touched on this when Mr. Wittman was 
asking about looking for strategists, but I hope I am not 
asking you something repetitive, but do you all look for 
potential Ph.D. candidates and, if so, what mechanisms do you 
have for considering, you know, calling to somebody's attention 
or shepherding them into a program.
    Again, Colonel Damm, I will start with you.
    Colonel Damm. Mr. Chairman, no, I would say that we 
probably do not do that. But they can be identified generally 
through our faculty. As my dean sits behind me, he was an Army 
officer, a graduate at West Point, that type of thing. And we 
can point them in the right direction to do that.
    But I will say that the Marine Corps does not look at our 
program as a pre-Ph.D. program.
    Dr. Snyder. General Jackson.
    General Jackson. Sir, we have a couple of opportunities for 
our faculty and also our students. I currently have 10 folks 
that are in Ph.D. pipeline. We normally get between three and 
four of our faculty members to go to a school to get a Ph.D.--I 
currently have 11 military faculty members that are products of 
that kind of organization.
    We have looked to build strategists and Ph.D.s in 
particular. Once they finish Air Command and Staff College they 
are vetted to a board, get selected for a slew of advanced air 
and space higher studies.
    We have looked at the possibility of increasing the rigor 
in that program to get them all but dissertationed, and then 
allow them to go back to the field to get operational command 
or things to fill up their portfolio professionally and then 
bring them back as a research fellow at senior development 
education, probably at Air War College, and allow them to write 
their dissertation so that we can allow them to think 
strategically, get an operational pause, command, and an 
operational opportunity and then come back and become the 
strategist of the future, sir.
    Dr. Snyder. General Cardon.
    General Cardon. Sir, we don't do it that way.
    When we met in Fort Leavenworth, when we heard about what 
the Air Force was doing with their advanced program, we are 
looking at that for our SAMS program. But we have no--we do not 
use the school to identify strategists for Ph.D. programs at 
this time.
    Dr. Snyder. And when I mentioned Ph.D., I don't 
specifically mean in strategy in terms of Ph.D.-quality people.
    General Cardon. Sir, Ph.D.s for the Army are really in 
two--I would say two places. One is you do it as a junior 
officer, in other words as a captain where you have a lot of 
time, so by the time they come to the school, that time has 
already passed. Or they are going to go to a job that requires 
a Ph.D.
    For example, they are going to go teach at West Point and 
the decision is that they want you to go to a Ph.D. program. 
So, I think once you get past major, there is little 
opportunity for a field-grade officer to attend school for that 
amount of time without going in to a very specific billet.
    Dr. Snyder. Right.
    Admiral Wisecup. Sir, what I have seen in my short time is 
that there is a very nice, informal network managed centrally 
in the Officer Personnel Information System (OPINS) staff, that 
is Admiral Doug Crowder's folks who manage things like Federal 
Executive Fellowships, graduate programs and things like that, 
Arthur Morrow scholarships up to Fletcher, those types of 
things.
    But I think that we have the possibility to keep our eye 
open for good talent and, like one of the gentlemen said the 
faculty is very helpful in identifying those people. And I talk 
to a lot of students, too.
    You can tell when you talk to some of these folks that not 
only are they bringing operational experience and they are 
going to be the big thinkers, okay, but you read some of their 
papers and you know immediately that these are the kind of guys 
we want to keep our eye on.
    For me, personally, it is, right now, it is an informal 
feedback network to talk to the people who are actually trying 
to keep their eyes out on their staff.
    Dr. Snyder. General Kasun.
    General Kasun. Sir, for the Joint Forces Staff College, we 
just went through a large surge, and not all of them were 
Ph.D.s, so we are not going out exclusively for them. But, 
however, within the actual hiring contract, they have to roll 
within a Ph.D. program within the 3 years.
    There are eight universities, local universities, that have 
doctorate courses that they can actually enroll in, or, of 
course, there are others.
    So, yes, sir, we need it for the JAWS as well as for our 
accreditation.
    Dr. Snyder. For the faculty. I got you.
    Colonel Damm, I had just one specific question for you. You 
all have been perhaps more aggressive about language, formal 
language training, and what kind of feedback do you get from 
your graduates as far as whether that language training has 
been helpful or not, in terms of trying to get specific 
language skills, and where they are going to end up and how it 
has worked out for them?
    Colonel Damm. Thank you, Mr. Chairman, for the question.
    We kind of have come to the realization on the language 
that we have looked at a couple of different things, sir. We 
have looked at a full year program. We have found that that is 
not really cost effective. What we should probably do for a 
language, if we truly want Marines to have that language skill, 
is to start it at TBS, at The Basic School, and then have them 
followed.
    They are already doing some tagging with foreign area 
officer stuff where they actually get tested on that language 
and use it and have some cultural program that they are part 
of.
    What we have figured out is that if we give them a year at 
school it doesn't work very well. So, what we have gone to is 
the negotiation exercise where last year was the first year we 
did it this way. We used to do it all in one block. Last year, 
we just finished. Excuse me sir.
    We had the Defense Language Institute (DLI) come out in the 
fall, give them instruction for a couple weeks on specific 
languages. We only had four this year. Korean was part of it 
last year. And next year, as I told you, we are going to switch 
to the Afghan dialects.
    Then we give them Rosetta Stone and have them practice that 
throughout the year, and then in the spring we come to the 
negotiation exercise where we just want them to have survival-
level language training where they do the niceties of the 
cultural, hello, you know, how are you, who is that, who is the 
big guy around here, that type of thing, and then turn it over 
to a negotiator.
    So, the feedback from this year, and as I talked about the 
cultural piece, I am going to--I would like to see what it is 
eight months from now. But the feedback was good, but that was 
about the right amount for them.
    We also involve our international students a little bit in 
that as part of the negotiator or the negotee that they are 
talking to. So, it works now. I would like to see, and I think 
the commandant would like to see, much more of the language 
piece that follows a Marine through his entire career.
    But I don't think we can do it in the 10 months that we 
have them.
    Dr. Snyder. Right.
    Doesn't have any of the--I don't remember if you and I have 
ever talked about it, Colonel Damm, but I have always thought 
is that when we are not talking enlisted now that it ought to 
start the first day of Marine Corps boot camp. That you have 
a--you don't get to relax very much at Marine Corps boot camp 
from enlisted, but like at either--like lunchtime that you 
would have a foreign language, perhaps, native speaker that 
would let the lunchtime be a relaxed thing if people spoke in 
that language and learned to talk. That it would just be a way 
of making it part of--wouldn't take any much more time away 
from the rifle range or the obstacle course or anything.
    But we would just bring home, you know, this may actually 
help you sometime. Because it has got to start early. And then 
you would identify the people that you think are important or 
that value the language.
    I think we have probably kept you all here long enough. I 
am sure we will have some formal questions for the record and 
probably some informal phone calls and so on as time goes by. I 
hope you will feel free to share with us any thoughts you have, 
if you think of something after you leave here, and just send 
us something or call us up.
    We are going to continue to look at this over the next 
several months and we continue to value your input.
    General Jackson, seeing as how you have got, like, 18\1/2\ 
days to go, this is your last chance to say anything you want 
to say to the Congress. [Laughter.]
    General Jackson. I just appreciate the opportunity to serve 
and what the committee and Congress has done for our United 
States, sir.
    Dr. Snyder. Well, we appreciate your service.
    Thank you all. We are adjourned.
    [Whereupon, at 10:47 a.m., the subcommittee was adjourned.]

=======================================================================




                            A P P E N D I X

                             June 25, 2009

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             June 25, 2009

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             June 25, 2009

=======================================================================

      
                   QUESTIONS SUBMITTED BY DR. SNYDER

    Dr. Snyder. Please provide your school's mission statement.
    General Kasun. The mission of the Joint Forces Staff College is to 
educate national security professionals to plan and execute joint, 
multinational, and interagency operations to instill a primary 
commitment to joint, multinational, and interagency teamwork, 
attitudes, and perspectives. Its vision is to be the premier 
institution for educating national security professionals in planning 
and executing joint operations.
    The mission of the Joint and Combined Warfighting School (JCWS) is 
to produce graduates capable of creatively and effectively planning 
operational level warfighting for joint and combined military forces 
while integrating the effects of the United States Government, non-
governmental organizations, and international organizations to ensure 
the success of Combatant and Joint Task Force Commanders operating 
within an uncertain operating environment.
    The mission of the Joint Advance Warfighting School (JAWS) is to 
produce graduates who can create campaign-quality concepts, plan for 
the employment of all elements of national power, accelerate 
transformation, succeed as joint force operational/strategic planners 
and be creative, conceptual, adaptive and innovative.
    Dr. Snyder. How have ongoing operations in Iraq and Afghanistan 
affected the quality of military faculty members? What is your average 
tour length for military faculty members? Have the credentials of 
military faculty in terms of graduate degrees and JQO qualifications 
diminished during this period? What is the percentage of military 
faculty who are fully JQO qualified?
    General Kasun. Ongoing operations in Iraq and Afghanistan have 
increased the quality and credentials of military faculty members 
assigned to JFSC. Seventy-seven percent (77%) of the JAWS and seventy-
eight percent (78%) of the JCWS military faculty have combat/
operational experience. The vast majority of these military faculty 
members have been deployed in support of current operations. Many have 
been deployed on multiple occasions. This battlefield experience 
increases their understanding of planning and executing operations in 
complex contingencies and enhances their ability to facilitate the 
dialogue with students in the learning environment during planning 
exercises. The percentage of U.S. military students with combat/
operational experience over the past two years in the JAWS/JCWS classes 
is seventy-nine percent (79%)
    The typical military faculty is ordered to the College for a three 
year tour. Some faculty retire prior to completion of their tour; in 
accordance with DoD regulation, they must spend at least one year on 
board before retiring. Others extend beyond the three years to bring 
them up to their retirement date.
    The credentials of military faculty in terms of graduate degrees 
and JQO qualifications have improved. The JAWS and JCWS military 
faculty members have a wealth of operational experience. Three of the 
four JAWS military faculty are currently enrolled in PhD programs and 
all four are fully-JQO qualified. A greater percentage of JCWS military 
faculty have graduate level degrees and there has been an increase in 
the number who are fully JQO qualified from 59% to 68% during this 
period.
    As shown by the data below, faculty is more qualified now than they 
were several years ago in terms of education and joint qualifications. 
Military faculty assigned to JFSC without JPME II completion are 
normally enrolled as students in a JCWS JPME II class immediately upon 
arrival. On occasion, at the discretion of their Service, JAWS and JCWS 
instructors may receive credit for completing Phase II after teaching 
the course twice and demonstrating mastery of the entire curricula. 
Therefore, by the time they depart most faculty are eligible to be 
designated a JQO.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    y.epsDr. Snyder. Are the services and agencies filling their 
assigned billets for faculty? What are your gaps?
    General Kasun. While Services fill the billets, there are often 
gaps between the time a person detaches and the next one reports. 
Service representative are actively working to get faculty members 
ordered into the College.
    When officers report, they may be placed in either the Joint and 
Combined Warfighting School (JCWS) or the Joint Advanced Warfighting 
School (JAWS) depending on their qualifications. We currently have 
eleven gapped billets, all at the O-5 (LTC/LtCol/CDR) level affecting 
these two schools. JCWS is authorized 64 billets which achieves the 4:1 
student to faculty ratio for 256 students. JFSC does not have any 
assigned agency billets. However, through Memorandum of Agreements 
Academic Chair billets are currently available with the Department of 
State and the National Security Agency. The State Department Academic 
Chair detached on 7 AUG 09; his relief is not yet identified but the 
Department of State is actively contacting potential personnel. The 
National Security Agency Academic Chair is filled.
    Dr. Snyder. To what extent has the curriculum enhanced its coverage 
of Stability, Security, Transition, and Reconstruction (SSTR) 
Operations given that DOD has put them on a par with combat operations?
    General Kasun. The Joint and Combined Warfighting School (JCWS) 
curriculum includes Stability, Security, Transition, and Reconstruction 
(SSTR) Operations throughout contingency and crisis action planning 
lessons and exercises. SSTR is addressed as part of military support 
for whole-of-government approaches to national security issues. There 
is an increased emphasis on planning operations that set the conditions 
for SSTR implementation during the early phases of war. Students also 
study the considerations and concepts necessary for successful post 
conflict/disaster operations and practice planning SSTR phases in a 
number of scenarios that are described in the answer to question five.
    SSTR Operations are discussed throughout the Joint Advanced 
Warfighting School (JAWS) curriculum. In the TH6100 Theory and History 
of War block of instruction SSTR Operations are looked at in the 
historical context of the Post WWII era in comparison with the 
occupation of Iraq beginning in 2003. During the ST6300 Strategic 
Foundations block of instruction SSTR Operations are discussed in the 
broader context of national strategy, defense strategy and State 
Department strategy. During the student visit to the State Department 
they are given a brief by the Office of the Coordinator for 
Reconstruction and Stabilization on the role of S/CRS.
    Throughout the OP6500 Operational Art/Campaign Planning block of 
instruction in JAWS, SSTR Operations are emphasized. Practical 
exercises which entail approximately 60 total classroom days commence 
with phase 0 and work through phases 1-5. Specially, SSTR Operations 
are discussed in the context of Campaign Design in OP6504. In OP6509, 
the students take an in-depth look at operational plans for OIF with 
emphasis on the SSTR Operations. During the deliberate planning portion 
of the curriculum (OP6517-6538), SSTR Operations are incorporated into 
phase 3, 4 and 5 planning as appropriate to the planning scenario. 
Finally, the students engage in two Crisis Action Planning exercises, 
OP6543 and OP6547, where SSTR Operations are again considered across 
the spectrum of the plan with particular emphasis on the transition and 
return to civilian control phases. OP 6543 and OP6547 scenarios are 
based on potential real-world complex SSTR issues with only minor 
traditional warfare components.
    Dr. Snyder. Describe the scenarios that you use for your simulation 
exercises and war games. To what extent do they incorporate SSTR and 
irregular warfare concepts?
    General Kasun. Stability, Security, Transition, and Reconstruction 
(SSTR) and Irregular Warfare (IW) concepts are woven throughout the 
Joint and Combined Warfare School (JCWS) and Joint Advanced Warfare 
School (JAWS) curricula. SSTR is addressed as part of military support 
for whole-of-government approaches to national security issues. IW is 
addressed during lessons about the nature of anticipated operations.
    JAWS executes Joint Operational Planning for three distinct 
scenarios under the current curriculum. The first two scenarios 
incorporate detailed aspects of traditional, irregular, catastrophic 
and disruptive threats represented by complex sets of state and non-
state actors in weak or failing state scenarios. Careful emphasis is 
placed on the thorough assessment of and response to these complex 
``Hybrid'' threats in a coherent balance. SSTR activities are fully 
addressed by balanced analyses and courses of action, with direct 
application of contemporary lesson learned in Iraq and Afghanistan. 
They also reflect consideration of the published Joint Operating 
Environment (JOE) and Capstone Concept for Joint Operations (CCJO), 
both of which consider future environmental and threat trends.
    The final scenario is not established far in advance of the 
exercise, but typically derives from real-world emerging crises which 
involve less traditional and conventional military employment. The 
emphasis remains the same although this scenario is usually much more 
strongly balanced toward SSTR than the previous two scenarios.
    The Wargaming section of the Information Technology Division 
provides role-playing Computer-Assisted Exercises (CAX) for both JAWS 
and JCWS. The following scenarios are used:

    PURPLE ECLIPSE (JCWS)
    A five day role-playing exercise that presents the students with a 
daunting political-military crisis in northern Africa that includes 
significant multinational and interagency issues. Although the scenario 
involves regular force engagements, IW aspects are threaded throughout. 
The students not only construct a detailed Operation Plan for Phases IV 
(Stabilize) and V (Enable Civil Authority) but set the conditions for 
SSTR during Phases I, II and III (Deter, Seize Initiative, Dominate) to 
ensure success of SSTR during Phases IV and V. In this exercise, 
students are required to apply Crisis Action Planning (CAP) procedures 
during a time-sensitive scenario. This exercise highlights the 
collaborative planning as the Combatant Commander and Joint Task Force 
(JTF) Headquarters staffs are conducting parallel planning in support 
of the objective. This is the capstone exercise in the JCWS (JPME II) 
course.

    PURPLE LIGHTNING (JCWS)
    A faculty guided practical exercise involving a humanitarian crisis 
brought on by religious strife, terrorism, and an insurgency in a 
central African country. This scenario gives the students the 
opportunity to develop solutions using U.S. and coalition forces and 
coordinating with U.S. agencies, private humanitarian organizations and 
other nations to employ the SSTR and IW concepts. Specifically students 
are asked to apply an understanding of the relationships and activities 
of governmental agencies, and non-governmental agencies (NGOs); prepare 
a concept of operations for integrating the governmental, non-
governmental, and private volunteer organizations into provision of 
humanitarian assistance to the people of Nigeria; and plan to transfer 
control of the humanitarian assistance from coalition military to the 
NGOs.

    PURPLE GUARDIAN (JCWS and JAWS)
    A one day simulation-model assisted, student role-playing exercise. 
The exercise is designed to provide students with an opportunity to 
explore the unique intricacies and special demands of the homeland 
security/homeland defense mission. It involves a number of domestic 
homeland security threats in which the military provides support to 
federal, state, and local government agencies. Although not normally 
described as SSTR, these support activities and capabilities can be 
related to SSTR. Role playing as a member of the USNORTHCOM Standing 
Joint Force Headquarters, students experience the challenges of 
establishing relevant situational awareness while simultaneously being 
faced with tough decision-making scenarios in an unfamiliar 
environment. A certain level of ambiguity, fog, friction, and 
uncertainty is desired in this fast paced exercise.
    The scenarios consist of two terrorist attacks within CONUS 
requiring the Standing Joint Force Headquarters to assess potential 
tasking. Command and Control relationships and the actions required to 
pre-empt future attacks are stressed. The third vignette of the 
exercise consists of a LNG tanker approaching the U.S. that may have 
been taken over by a group of terrorist crew members. The seminar uses 
this inject to compare and contrast Homeland Security and Homeland 
Defense, the roles of the Navy and USCG, and the interagency 
relationships between DoD, DHS, and the other federal agencies.
    Dr. Snyder. Please provide the most recent survey results from your 
graduates and their supervisors.
    General Kasun. The answer to this question is being provided for 
both the Joint Advanced Warfighting School (JAWS) and the Joint and 
Combined Warfighting School (JCWS).

    JAWS Graduate and Supervisor Surveys (Class 07-08, graduated June 
2008)

    Process: Approximately nine months after graduation in June 2008, 
each of 41 07-08 JAWS graduates and their supervisors were contacted 
individually via a Commandant-signed letter with a link to an 
electronic survey.
    Questions asked: In addition to demographic and general program 
questions, graduates and supervisors were asked questions that related 
to the 10 Graduate Competencies. This report will focus on the 
responses to the Competencies.

    Graduates were asked to assess their level of preparation for their 
current assignments as measured by the following 10 JAWS Graduate 
Competencies. Available responses were Strongly Disagree, Disagree, 
Agree, and Strongly Agree:

     1.  I am able to communicate cross-culturally in a joint 
environment, while fostering trust internally and externally. Others 
will find me versatile at tailoring communication to audiences.

     2.  I am confident and at ease making decisions in the absence of 
complete information, responding quickly, effectively and proactively 
to emerging and ambiguous conditions and opportunities.

     3.  I am able to effectively communicate and build teams through 
persuasive influence, collaboration, negotiation, and consensus 
building. Through active listening, I modify my communications in 
response to feedback.

     4.  I am able to recognize patterns and changes, and am 
comfortable with uncertainty and ambiguity.

     5.  Others find me versatile and creative and able to develop 
innovative solutions, thinking in time and context within the complex 
environment.

     6.  I habitually think in terms of systems/linkages (effects) and 
function as an expert learner.

     7.  I am able to conduct campaigning and statecraft and understand 
the role of war and politics. Maintaining an integrated understanding 
of globalization and its effects on defense, domestic and foreign 
policy, I use this understanding to inform strategic visioning.

     8.  I am capable of integrating joint, interagency and multi-
national capabilities within physical, virtual and human domains in 
time, space and purpose in terms of operational art. I demonstrate a 
broad understanding of battle-space systems and their 
interdependencies.

     9.  I understand and employ Service core competencies, 
demonstrating this expertise through integrating and leveraging Service 
and joint doctrine.

    10.  I maintain an understanding and awareness of Service-centric 
biases and tendencies (in myself and others) that may compromise 
mission success. Exercising this awareness, I work to eliminate biases 
and tendencies such as self-interest-careerism and Service 
provincialism or parochialism.

    Supervisors were asked to respond to 10 questions related to the 
graduate's preparedness in terms of the 10 JAWS Graduate Competencies. 
Available responses were Strongly Disagree, Disagree, Agree, and 
Strongly Agree.

     1.  This graduate is a cross-cultural communicator in a joint 
environment, able to foster trust internally and externally. The 
graduate is versatile at tailoring communication to audiences.

     2.  This graduate is self-confident and at ease making decisions 
in the absence of complete information, responding quickly, effectively 
and proactively to emerging and ambiguous conditions and opportunities.

     3.  This graduate effectively communicates and builds teams 
through persuasive influence, collaboration, negotiation and consensus 
building. As an active listener, the graduate modifies communications 
in response to feedback.

     4.  This graduate is able to recognize patterns and changes, and 
is comfortable with uncertainty and ambiguity.

     5.  This graduate is versatile and creative, and is able to 
develop innovative solutions, thinking in time and context within the 
complex environment.

     6.  This graduate thinks in terms of systems/linkages (effects) 
and functions as an expert learner.

     7.  This graduate is able to conduct campaigning and statecraft 
and understands the role of war and politics. Maintaining an integrated 
understanding of globalization and its effects on defense, domestic and 
foreign policy, the graduate uses this understanding to inform 
strategic visioning.

     8.  This graduate is capable of integrating joint, interagency, 
and multi-national capabilities within physical, virtual and human 
domains in time, space, and purpose in terms of operational art. The 
graduate demonstrates broad understanding of battle-space systems and 
their interdependencies.

     9.  This graduate understands and employs Service core 
competencies, demonstrating this expertise through integrating and 
leveraging Service and joint doctrine.

    10.  This graduate maintains an understanding and awareness of 
Service-centric biases and tendencies (in self and others) that may 
compromise mission success. Exercising this awareness, the graduate 
works to eliminate biases and tendencies such as self-interest-
careerism and Service provincialism or parochialism.

    End process: Our review of the 07-08 graduate and supervisor survey 
data found many similarities with the two previous graduated classes. 
The surveys suggest strong post-graduate benefits, particularly in the 
data from graduates who are currently assigned to planning billets. The 
results were provided to the JAWS Director for use in ensuring the 
curriculum remained current and relevant.
    Survey results: For 41 JAWS students of Class 07-08, the response 
rate was 63% for the Graduate Survey and 68% for the Supervisors.

    The percentage of graduates indicating they agreed or strongly 
agreed that they had been prepared in the following competency areas is 
shown below:


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    The percentage of supervisors indicating they agreed or strongly 
agreed that graduates demonstrated the competencies is show below:


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    JCWS Graduate and Supervisor Surveys (all four 2008 JCWS classes)

    Process: Approximately six months after graduation, graduates were 
contacted via email with a link to an electronic survey. The email also 
contained a link to the supervisor survey and asked the graduate to 
forward the email to their immediate supervisor. The most recently 
completed report was based on survey data was for all four classes from 
Academic Year 2008 (1 October 2007-30 September 2008).
    Questions asked: In addition to demographic and general program 
questions, graduates and supervisors were asked 14 questions related to 
Learning Objectives (LOs)

        Graduates were asked 14 questions related to the LOs in terms 
        of applicability and usefulness.

        Supervisors were asked 14 questions related to the usefulness 
        of the JCWS program in terms of the LOs.

    Questions asked to both Graduates and Supervisors:

    Apply appropriate strategic security policies and guidance used in 
developing joint operational plans across the range of military 
operations to support national objectives.

    Analyze the integration of all instruments of national power in 
achieving strategic objectives. Focus on the proper employment of the 
military instrument of national power at the joint force level both as 
a supported instrument and as a supporting instrument of national 
power.

    Synthesize the capabilities and limitations of all Services (own 
Service, other Services--to include SOF) in achieving the appropriate 
strategic objectives in joint operations
    Analyze the capabilities and limitations of multinational forces in 
achieving the appropriate strategic objectives in coalition operations.

    Analyze the capabilities and limitations of the interagency 
processes in achieving the appropriate strategic objectives in joint 
operational plans.

    Comprehend the attributes of the future joint force and how this 
force will organize, plan, prepare and conduct operations.

    Value a thoroughly joint perspective and appreciate the increased 
power available to commanders through joint, combined, interagency 
efforts and teamwork.

    Analyze the principles, capabilities, and limitations of 
information operations across the range of military operations--to 
include pre- and post-conflict operations.

    Analyze the use of information operations to achieve desired 
effects across the spectrum of national security threats.

    Synthesize examples of campaign/theater planning and operations. 
Focus on the use of planning concepts, techniques and procedures as 
well as the integration of battlespace support systems.

    Analyze complex contingency operations for use of appropriate 
planning principles.

    Apply current technology, modeling, simulation and wargaming to 
accomplish the synchronization, employment, support and transportation 
planning of the joint force.

    Analyze the appropriate mix of battlespace support systems and 
functions to develop joint operational plans.

    Apply an analytical framework that incorporates the role that 
factors such as geopolitics, geostrategy, society, culture, and 
religion play in shaping the desire outcomes of policies, strategies, 
and campaigns in the joint, interagency, and multinational arena.

    End Process: Survey data for all four classes was aggregated, 
analyzed and reported to the Director of the JCWS for use in ensuring 
the curriculum remained current and relevant.

    Survey results: There were 1,008 graduates from the four JCWS 
classes in 2008; 339 completed the survey for a 34% response rate. 
Forty-seven supervisors completed their survey, an increase from last 
year's thirty-three respondents.

        The percentage of graduates indicating that they agreed or 
        strongly agreed that the learning objective was relevant to 
        their current job is shown below:


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

        

        The percentage of graduates indicating that they agreed or 
        strongly agreed that the learning objective was useful in their 
        current job is shown below:


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

        

        The percentage of supervisors indicating that they agreed or 
        strongly agreed that the learning objective information was 
        useful for the graduate in his or her current job is shown 
        below:


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

        

    x.epsGraduates were also asked to list any areas they believed were 
important for their joint job, but not taught at JFSC. The two areas 
most repeatedly listed were (1) the POM/Budgeting Process and (2) 
Interagency Focus/Communication.
    When graduates were asked if attending JFSC was a valuable and 
worthwhile experience, 94 percent responded positively (agreed or 
strongly agreed). This compares favorably with last year's 90 percent 
positive rating to the same question.
    Dr. Snyder. The intermediate level schools lost Joint Duty credit 
for their non-host service military faculty in the 2007 National 
Defense Authorization Act. We know that the tours of those who were 
grandfathered are ending. What will the effect of this be? How will it 
affect the quality of your faculty? How important is it that these JDAL 
positions be restored? Do the instructors truly get a joint experience?
    General Kasun. Neither JAWS nor JCWS are impacted by this 
restriction. However, faculty billets in the Joint Command, Control, 
and Information Operations School (JC2IOS) were removed from the JDAL 
even though, as with JCWS and JAWS, the subject matter, faculty, and 
student body are innately joint. Though not a Joint Professional 
Military Education qualifying school, the JC2IOS faculty provide 
specialized instruction to JCWS and JAWS.
    JC2IOS courses are chartered by the Joint Staff, built from joint 
doctrine and policy, and prepare students for assignments to Joint Task 
Force and Unified Combatant Command staffs. As a result of the billets 
being removed from the JDAL, it is more difficult to get quality 
faculty assigned to the school and retain them for a controlled (three-
year) tour. These instructors, as those assigned to JCWS and JAWS, 
truly get a joint experience. These billets should be restored to the 
JDAL.
    Dr. Snyder. Describe your school's use of historical case studies 
to teach strategy.
    General Kasun. The Joint and Combined Warfighting School (JCWS) 
uses several historical case studies to examine strategy and the 
enduring principles of military operations. Historical case studies are 
used to reinforce strategic concepts and principles, bringing students 
from the knowledge level to the analysis level of education. JCWS cases 
studies include:

    Yorktown, 1781
    Gettysburg, 1863 (Optional)
    Operation Torch, North Africa 1942
    Operation Overlord, 1944
    Operation Iceberg, Invasion of Okinawa, 1945
    Beirut, 1983
    Liberia, 2003
    Operation Iraqi Freedom, 2003-Present

    The Joint Advanced Warfighting School (JAWS) has a 137 contact hour 
block focused on history. It is a broad, conceptual survey of classical 
through contemporary theories of the nature of conflict and the 
application of armed force in the land, sea and air domains. This block 
focuses on developing critical thinking skills with a distinct focus on 
analyzing the art, science and nature of war and its evolving character 
and conduct--past, present, and future. A series of historical case 
studies provides the opportunity to analyze and evaluate techniques for 
leading strategic change and building consensus among key 
constituencies, including Service, multinational, and interagency 
partners within the changing nature of conflict and national security. 
This course requires students to synthesize techniques and skills 
necessary for leading and sustaining effective organizations in a 
complex joint, interagency, and multinational environment. The 
curriculum includes a study of timeless patterns of force application, 
investigation of engines of transformation, analysis of the 
relationship between national security strategies and warfighting 
concepts, and the importance of personality and leadership at 
strategic-operational levels. A module exploring three tectonic 
cultural clashes is included in the curriculum and specifically 
addresses Islam, Russia, and China as well as contemporary lessons from 
the War on Terror. A highlight of the first portion of this curriculum 
is a week-long staff ride/field research visit to the Gettysburg 
battlefield to explore the confluence of the human dimension of warfare 
with other intangibles at the strategic and operational levels of war.
    Specific cases studies in the JAWS curriculum include:

    Yorktown, 1781
    Gettysburg, 1863
    Post WWII to include Korean War
    Mao's Insurgency Campaign, 1933-1949
    Beirut, 1983
    Panama, 1989
    Desert Shield/Desert Storm, 1990-1991
    Somalia, 1993-1994
    Bosnia, 1994-1996
    Kosovo, 1999
    Afghanistan, 2001-Present
    Iraq, 2003-Present

    Additional current case studies which focus on the history of the 
conflict as a part of mission analysis include Nigeria, Darfur, Congo, 
and Zimbabwe.
    Dr. Snyder. What is the process for renewal and non-renewal of the 
faculty? How transparent is the system? In a tenure system people think 
the faculty members have all the power, in a non-tenure system it 
appears that the school has unlimited power. How do you avoid these 
extremes?
    General Kasun. The NDU-P has the sole authority to approve renewal 
or non-renewal of Title 10 employees (faculty). In accordance with NDU 
Policy 690-4 paragraph 8b:

        Subsequent consecutive terms of employment, that is renewals, 
        will normally be for periods not to exceed three years, 
        although the NDU-P may authorize longer renewals in exceptional 
        circumstances. No faculty member is entitled to renewal. Non-
        renewal at the expiration of an employment term is not an 
        involuntary termination of employment. . . . The Commandant/
        Component Director may make a recommendation to renew an 
        employee based upon demonstrated exceptional professional 
        experience and competence. When hired or renewed, the employee 
        understands that his/her experience, expertise and skills are 
        the basis for his/her employment and that the extent to which 
        he/she sustains his/her currency in the field (i.e. continues 
        to maintain and improve their expertise) and their performance 
        of their duties will be considered in any decision to renew. . 
        . . If the determination [for non-renewal] is made, based on 
        the reasons provided below, the Commandant submits a 
        recommendation to the NDU-P to either terminate the Title 10 
        appointment or request the appointment not be renewed. The 
        employee would be notified, in writing, as early as possible.

    NDU 690-4, paragraph 12b(2) addresses other reasons for non-
renewal:

        The Commandant/Director has the authority to recommend 
        termination of the employment of Title 10 employees prior to 
        the expiration of their employment terms for the following 
        reasons:

        (a) Change in mission, resources, workload or organizational 
        changes, or other similar and compelling reasons may require a 
        change in the number of Title 10 civilian positions. 
        Commandants/Directors, with the concurrence of COO/VPA, will 
        decide which positions shall be abolished. If practicable and 
        possible, at least six months notice of termination will be 
        given to the individual(s) affected, but in no event will the 
        notice be less than 60 days.

        (b) Loss of Security Clearance. Any faculty member who for any 
        reason fails to obtain and maintain a security clearance (if 
        required) for his/her position will be terminated from that 
        position.

        (c) Termination for Cause: A Title X employee may be terminated 
        for misconduct or unsatisfactory performance. Proposed 
        termination actions will be initiated by the Commandant/
        Director/Vice President by providing a ``Notice of Proposed 
        Termination'' to the employee in writing setting forth the 
        grounds for the proposed termination. The employee will be 
        given a reasonable opportunity to respond to the proposed 
        termination. After consideration of the employee's response, 
        the Commandant/Director/Vice President will make a 
        recommendation through proper channels to the NDU-P. 
        Commandants and Directors should seek both UGC and Director, 
        HRD guidance and assistance. NDU-P is the final decision maker 
        in all termination cases. This includes those that may require 
        terminating a Director or a Vice President.

    The Joint and Combined Warfighting School and Joint Advanced 
Warfighting School faculty are generally retained on three-year 
contracts, which are renewed if they have demonstrated satisfactory 
performance. During this time, the faculty member must prepare a 
portfolio of their accomplishments in the areas of teaching, research, 
and outreach with specific outcomes. While Title X employees are not 
tenured, there does appear to be a long-term commitment between JFSC 
and these faculty members. Only two faculty members since 1997 have not 
had their contract renewed, which prevents the appearance of the school 
having unlimited power.
    Dr. Snyder. What is your school's role in identifying promising 
officers with the potential for high-level strategic thinking at the 
appropriate point in their careers?
    General Kasun. Joint Forces Staff College provides an equal 
educational opportunity to all students sent to the school by the 
Services. We do not specifically identify promising officers; however 
certain officer's academic achievements are recognized via our awards 
program. This information is provided back to the services for their 
further consideration and evaluation of the officer's potential.
    Dr. Snyder. How do you specifically measure the quality of the 
faculty and staff in the PME environment?
    General Kasun. Each military and civilian faculty member is 
evaluated at least annually by his/her Director. The Director takes 
into account the person's contribution to the college, student 
evaluations, outreach, and research activities. The contributions of 
military personnel are documented using their Service process with the 
Commandant being the Senior Rater. The contributions of civilian 
faculty are documented using the Title X evaluation system.
    Staff members are evaluated at least annually by their supervisor, 
who takes into account the effectiveness of their contributions to the 
College as defined in their position description. As with faculty 
members, the contributions of military personnel are documented using 
their Service process. The contributions of civilian staff are 
documented either using the Title X evaluation system or the National 
Security Personnel System as appropriate.
    Dr. Snyder. How were you chosen to be school's commandant? How was 
your dean chosen? Will you be retiring from this job? What background 
should the Chief of Naval Operations be looking for in selecting 
individuals for these positions? Should the focus be on operational 
leadership skills or academic and teaching experience (not instructing 
in a training institution) background or both?
    General Kasun. The current Commandant was notified by the U.S. Army 
reserve General Officer Management Office (GOMO) in June 2008 that she 
was being nominated for the vacancy as the most qualified candidate for 
the Army Reserves by the Chief, Army Reserve (CAR) to the Chairman, 
Joint Chiefs of Staff (CJCS). She was notified in August 2008 that she 
had been selected as the first Reserve general/flag officer to fill 
this position. Further questions on how she was selected should be 
directed to GOMO and/or CAR.
    BG Kasun is filling a two star position. Her future will be decided 
upon by a board of senior Active Duty and Reserve general officers and 
the Chief, Army Reserve.
    The Commandant should have both extensive operational experience 
and joint senior level education commensurate with the authorized 
billet. The Commandant needs a minimum of a master's degree, should be 
fully joint qualified, and have had some exposure to adult education. 
The Commandant should have experience in managing a large dynamic 
organization.
    The Academic Dean was selected through the Title X competitive 
process. The Academic Dean plans to retire in 2012 after 33 years of 
federal service.
    The Academic Dean should have a doctorate in a relevant field such 
as education or national security studies, have attained the academic 
rank of full professor, have had exposure to the military environment, 
have experience in higher education and administration, and have an 
extensive background in managing and supervision of large dynamic 
organizations.
    Dr. Snyder. How should intermediate schools attract top-tier 
civilian faculty? How do you specifically define top-tier? What are the 
elements that would attract the highest quality of faculty--tenure, 
copyright, resources, pay, ability to keep their government 
retirements, research and administrative assistance, etc.?
    General Kasun. Top tier faculty are those who are nationally 
recognized by their peers as experts in their field of study. Teaching 
faculty are attracted by the promise of high-quality, motivated 
students, the freedom to teach the subject assigned by any appropriate 
means, and a sufficient compensation package including pay, vacation 
time, and retirement. The flexibility of the Title X pay scale, through 
which exceptional performers may be appropriately recognized, is also 
an incentive. To help ensure we attract the best faculty, we advertise 
for openings at multiple educational and employment institutions as 
well as the on the government web site.
    Currently, we have superb faculty, but just enough to cover 
classroom requirements without any in reserve, which stresses both the 
teaching and curriculum development faculty. The problem is exacerbated 
by gaps when filling military billets as well as by the time needed to 
qualify some military faculty to teach the curriculum. Increased 
funding would allow us to attract additional highly qualified civilian 
faculty, which in turn would allow those on board to conduct research 
and publish, another important incentive for top-tier civilian faculty.
    Dr. Snyder. What are the policies at your school regarding academic 
freedom? What is its proper role in a PME setting without tenure? 
Describe how your faculty may be called upon to respond to press 
inquiries in the field of expertise and whether and how they are 
allowed to respond in a timely manner.
    General Kasun. The Joint Forces Staff College fully supports 
academic freedom as outlined in the National Defense University's 
policy below:

    NDU policy states that we subscribe to the 1940 American 
Association of University Statement of Principles on Academic Freedom 
and Tenure

    <bullet>  ``freedom to pursue research and publication in concert 
with other academic duties, freedom in the classroom to discuss his or 
her subject, and the right to speak on nonacademic issues just as an 
ordinary citizen''

    <bullet>  ``faculty members also have the responsibility to uphold 
the reputation of their profession and institution''

    <bullet>  ``freedom to discuss relevant subject matter in 
classrooms, even if controversial with attendant responsibility to 
remain on the subject and consciously and consistently avoid intruding 
material that has no relation to the subject they are teaching''

    For reference to the statement itself: http://www.higher-ed.org/
resources/AAUP_1940stat.htm

    Recent controversies regarding academic freedom have led to a 
recent AAUP Report:
    Freedom in the Classroom (2007): Response to help faculty with what 
they can and can't say in the classroom . . . .especially on 
controversial or political issues. ``We out to learn from history that 
the vitality of institutions of higher learning has been damaged far 
more by efforts to correct abuses of freedom than by those alleged 
abuses. . . . We ought to learn from history that education cannot 
possibly thrive in an atmosphere of state-encouraged suspicion and 
surveillance. . . The essence of higher education does not lie in the 
passive transmission of knowledge but in the inculcation of a mature 
independence of mind.''
    Middle States Accreditation Standard 6: Integrity, ``In the conduct 
of its programs and activities, involving the public and the 
constituencies it serves, the institution demonstrates adherence to 
ethical standards and its own states policies, providing support for 
academic and intellectual freedom.''
    Academic freedom, intellectual freedom, and freedom of expression 
are central to the academic enterprise. These special privileges, 
characteristic of the academic environment, should be extended to all 
members of the institution's community. . . .''

    <all>  Academic and intellectual freedom gives one the right and 
obligation as a scholar to examine data and to question assumptions. It 
also obliges instructors to present all information objectively because 
it asserts the student's right to know all pertinent facts and 
information. A particular point of view may be advanced, based upon 
complete access to the facts or opinions that underlie the argument, as 
long as the right to further inquiry and consideration remains 
unabridged.

    <all>  To restrict the availability or to limit unreasonably the 
presentation of data or opinions is to deny academic freedom.

    <all>  Intellectual freedom does not rule out commitment; rather it 
makes it possible. Institutions may hold particular political, social, 
or religious philosophies, as may individual faculty members or 
students; but both individuals and institutions should remain 
intellectually free and allow others the same freedom to pursue truth.

    <all>  ``At NDU we seek to understand issues, policies, and 
strategies so we can, as scholars, future leaders, and current 
advisors, best articulate, assess, defend, critique, and improve those 
policies and strategies over time.'' (former NDU president Paul 
Gaffney)

Legal standing:

    Based on constitutional protection of 1st amendment to the U.S. 
Constitution--academic freedom as a special concern of the 1st 
amendment
    Adler v. Board of Education (K-12) ``there could be no academic 
freedom in an environment where teachers are under surveillance and 
feared for their jobs''
    Sweezy v. New Hampshire (higher education) ``to impose any straight 
jacket upon the intellectual leaders in our colleges and universities 
would imperil the future of the nation'' (Chief Justice Warren). Four 
essential freedoms of the university (Justice Frankfurter): who may 
teach, what may be taught, how it shall be taught, who may be admitted 
to study.
    Regents of the University of Michigan v Ewing ``Academic freedom 
thrives not only on the independent and uninhibited exchange of ideas 
among teachers and students . . . but also, and somewhat 
inconsistently, on autonomous decision-making by the academy itself
    Faculty members' academic freedom in the classroom is limited by 
the academic freedom of the institution to determine what shall be 
taught (establishing curriculum, relevance to mission) and how it shall 
be taught (setting teaching standards) multiple cases
    Faculty in private institutions do not have constitutional 
protection and must rely on contracts with the institution to protect 
academic freedom (i.e. the AAUP statement)

Ethical Considerations

    Central to the values of education is the ``search for truth''
    Academic freedom is necessary for discovery
    ``Truth seeking and discovery are facilitated when professors and 
their institutions remain free to pursue scholarship, wherever it may 
lead''
    ``Scientific and scholarly progress cannot be made if so-called 
heretical views are not brought to light to be subjected to the 
scrutiny of others through observation, research, and whatever 
objective, scientific method is appropriate to the subject matter at 
hand.''

    NDU Non-Attribution/Academic Freedom Policy

    1.  Academic Freedom is defined in the university's values as: 
Providing the climate to pursue and express ideas, opinions, and issues 
relative to the university purpose, free of undue limitations, 
restraints, or coercion by the organization or external environment. It 
is the hallmark of an academic institution.
    2.  The National Defense University subscribes to the American 
Association of University Professors' statement on academic freedom, 
issues in 1940. That statement defines academic freedom in terms of:
         a.  Freedom of research and publication of results
         b.  Freedom of classroom teaching
         c.  Freedom from censorship when faculty speak or write as 
        citizens
    3.  The statement also includes faculty responsibilities in 
academic freedom:
         a.  Faculty, when action as private citizens, should make 
        every effort to indicate that they are not institutional 
        spokespersons.
         b.  Controversial issues not pertaining to the subject should 
        not be introduced.
         c.  Peer review is vital and encouraged.
         d.  Institutional missions could limit academic freedom.
    4.  Free inquiry is essential to the National Defense University 
because the senior officers and government officials who are educated 
here will assume a variety of roles in their future assignments, as 
future policy makers, advisors, and leaders. NDU graduates must be 
ready to discuss, challenge, question, and determine national policy.
    5.  So that guests and university community members may speak 
candidly, the university offers its assurance that presentations will 
be held in strict confidence. Our policy on non-attribution provides 
that, without the expressed permission of the speaker, nothing will be 
attributed directly or indirectly in the presence of anyone who was not 
authorized to attend the lecture.

    APPLICABLE REGULATION: Title 10, United States Code; DoD Directive 
5230.0, Clearance of DoD Information for Public Release; NDU Reg. 360-
1, Academic Freedom and Public Information
    Press inquiries are directed to the Public Affairs Office, who 
determines whether or not current faculty or students have expertise in 
the field/areas of the inquiry. PAO will inform the school director of 
the faculty/student member. If the faculty/student member is available/
willing to respond, the response will be reviewed by the PAO who will 
then forward the response to the entity making the inquiry.
    Dr. Snyder. Acquisition reforms all call for more of the general 
purpose forces to be educated and trained in understanding contracting 
and contractors. Civilians, contracting, and contractors on the 
battlefield--how much do officers, outside the acquisition workforce, 
need to know?
    General Kasun. The battlefield is comprised of military, civilians 
and contractors. It is imperative that officers are familiar with the 
contracting process. When working with contractors, they must 
understand the appropriate interactions and legal constraints that 
affect working relationships.
    In 2009, at the recommendation of the MECC, the Chairman designated 
``Operational Contract Support Education for Non-Acquisition DoD 
personnel'' as a JPME Special Area of Emphasis. Additionally, the 
October 2008 issuance of a relevant Joint Doctrine publication (JP 4-10 
``Operational Contract Support'') is available to underpin efforts.
    Dr. Snyder. What level of support do you receive from your 
University? The Chairman of the Joint Chiefs? JCS/J7? The Secretary of 
Defense? OSD? Who advocates for your budget requirements in what 
forums?
    General Kasun. NDU provides us with our allocation of the budget 
and POM's our issues. They provide us with policy guidance. They also 
provide us with our manpower allocation and maintain hiring authority. 
They provide our legal support and select subject matter experts. We 
also share library databases and the IT system. We have our regional 
accreditation under NDU. We are satisfied with the level of support 
provided by NDU.
    The Chairman provides us with curriculum guidance via the Officers 
Professional Military Education Program (OPMEP). The Faculty Education 
Conference provides yearly training to the faculty on key joint issues 
and new joint doctrine. Any guidance provided by the SECDEF/OSD to NDU 
applies to JFSC. Both NDU and OSD advocated for our budget requirements 
in the POM cycle.
    Dr. Snyder. Are you being adequately resourced for the Joint 
Advanced Warfare School? If not, what is your plan for becoming so?
    General Kasun. The Joint Advanced Warfighting School (JAWS) is 
adequately resourced. There are no significant budget issues at this 
time. JAWS has dedicated classrooms which have the most advanced 
technology of any at JFSC. The school has adequate faculty to meet the 
mission; however there is no redundancy to allow for seamless turn-over 
of faculty or additional tasking of faculty to include research and 
writing time. Additionally, the Director must teach in order to meet 
the student to faculty ratio of 3.5:1.
    Dr. Snyder. Describe any IT challenges you may have. What are your 
other resource challenges, if any?
    General Kasun. Joint Forces Staff College (JFSC) requires the 
replacement of critical network servers that provide all of the 
required services to the command. Critical services such as electronic 
mail, network security, database management, Continuity of Operations 
Program (COOP), and file storage are supported by the servers. A total 
of 40 servers currently support the College. The cost to replace these 
servers is $210,000.
    JFSC also requires the replacement of critical network switches 
that provide the infrastructure to support the College's local area 
network. The switches provide the connectivity needed to extend the 
network to the entire College and allow users access to network 
services such as electronic mail, file storage/retrieval, and database 
management systems. The JFSC network infrastructure currently has 
approximately 75 access switches and 7 distribution switches. Through 
lifecycle replacement, the cost to replace these switches is $150,000/
year.
    The classified JFSC SIPR network should be utilizing a tape backup 
system. The current system was purchased in FY00 and requires 
replacement. Security requirements specify that a backup system must be 
in place that will allow the College to be able to backup vital data on 
external media and store it in an offsite location in case of emergency 
or catastrophic loss to a system which is onsite. The cost for such a 
system is $25,000.
    In addition to the SIPR network, JFSC uses a Storage Area Network 
that provides approximately three terabytes of unclassified information 
storage. The Storage Area Network provides the ability to address 
continuing user storage requirements. Network size has continued to 
grow and it is more economical to purchase a Storage Area Network than 
to purchase the servers that would be needed to meet our growing 
requirements. This type of solution enables a backup solution that is 
faster than tape backup solutions. The Storage Area Network could not 
be used for classified information because doing so would make the 
entire system classified. The cost for a Storage Area Network is 
approximately $93,000.
    The JFSC backbone relies on a central Core switch which acts as a 
traffic cop for all network data. The Core switch controls connectivity 
to all devices within the College, including all user workstations, war 
gaming suites, and seminars. All computers that try to gain any 
information from the internal or external network are routed through 
the Core switch. All outlying switches/pc's/hubs/LAN drops/etc. attach 
to this central Core switch. The current Core switch was replaced in FY 
07, and should be replaced every 3 years. The cost for a replacement is 
approximately $63,700.
    The audio visual infrastructure and equipment are aging and in need 
of modernization. As an example, the infrastructure in the war game 
suites in Okinawa Hall and the Distance Learning Center in Normandy 
Hall is over 10 years old. The systems are heavily used to conduct 
exercises, provide video teleconferencing links, and enable distance 
learning with combatant commands to enhance the education of our 
students. All are well beyond their life-cycle. Internal equipment in 
these facilities is no longer supported by the manufacturer and 
consequently it requires an increased amount of time and money to keep 
them at minimal operational levels. The cost for this update is 
approximately $5,169,000.
    The College is designing its classroom of the future that will be 
incrementally implemented over the FYDP. The current classroom 
structure has five computers being shared by up to twenty students and 
three faculty members. The classroom of the future will need to provide 
computer access for all students and faculty. The front-end assessment 
has identified critical requirements for computing capability for the 
individual student, classroom flexibility, and interactive display 
devices. The solution will incorporate laptop computers to serve as 
both an electronic reader and IT asset. A wireless network for both 
Normandy and Okinawa Halls will enable the flexibility required for 
these classrooms and have a significant impact on network 
infrastructure. Interactive whiteboards will enable students and 
faculty to electronically capture application-level educational 
experiences in the classroom. In addition, the Joint and Combined 
Warfare School (JCWS) has 355 electronic readers (eBooks) that the 
students and faculty use to access the curriculum and reference 
materials. These readers will need to be replaced with a newer version 
of an electronic reader or laptop computers. The cost for JCWS 
classroom modernization is $5,400,000 over four years. The cost for the 
wireless network $1,200,000. Each electronic reader or laptop will cost 
$330-$450.
    An additional challenge is outside access to computer files. Many 
students and faculty take work home. Due to concerns for system 
security, people are currently unable to use thumb drives or access 
files from outside the college. Issuing government owned laptops to 
each student and faculty member may be the only way to restore homework 
access capabilities. The cost to do this is approximately $1,270 per 
person.
    Dr. Snyder. Is the Joint Advanced Warfighting School going to be 
ILE or SLE? We have heard conflicting stories.
    General Kasun. The Joint Advanced Warfighting School (JAWS) was 
established in 2004 for O4 and O5 officers. In 2005 the program was 
expanded to allow O6 officers to attend. The CJCSI 1800.01C Officer 
Professional Military Education Policy (OPMEP) listed JAWS as both ILE 
and SLE. As such students received either ILE or SLE credit depending 
on their rank. The Director, Joint Staff signed an update to this 
policy on 15 July 2009. In CJCSI 1800.01D Officer Professional Military 
Education Policy (OPMEP) JAWS is now listed as only SLE. The current 
class which graduates 18 June 2010 will be the last class to have 
students who receive ILE credit for JAWS.
    Dr. Snyder. Please provide your school's mission statement.
    Admiral Wisecup. The mission of the Naval War College is to:

    (1) Develop strategic and operational leaders: The College shall 
provide professional military education programs that are current, 
rigorous, relevant, and accessible to the maximum number of qualified 
U.S. officers and Navy enlisted personnel, civilian employees of the 
U.S. Government and non-governmental organizations, and international 
officers. The desired effect is a group of leaders of character who 
have trust and confidence in each other and are operationally and 
strategically minded, critical thinkers, proficient in joint matters, 
and skilled naval and joint warfighters.

    (2) Help CNO define the future Navy and its roles and missions: The 
College shall conduct research, analysis, and gaming to support the 
requirements of the Secretary of the Navy, the Chief of Naval 
Operations, the Combatant Commanders, the Navy Component Commanders, 
the Navy's numbered fleet commanders, other Navy and Marine Corps 
commanders, the U.S. Intelligence Community, and other departments and 
agencies of the U.S. Government. The desired effect is a program of 
focused, forward-thinking and timely research, analysis, and gaming 
that anticipates future operational and strategic challenges; develops 
and assesses strategic and operational concepts to overcome those 
challenges; assesses the risk associated with these concepts; and 
provides analytical products that inform the Navy's leadership and help 
shape key decisions.

    (3) Support combat readiness: The College shall conduct training, 
education, leadership and assessment activities to support the ability 
of the Navy's Joint Force Maritime and Navy Component Commanders to 
function effectively as operational commanders. This effort shall 
include supporting the needs of the Combatant Commanders, Navy 
Component Commanders, and the Navy's numbered fleet commanders for 
operational planning, analysis, and war gaming to respond to emerging 
operational requirements. The desired effect is to improve the 
capability of Navy commanders to lead maritime, joint and combined 
forces and their staff members to plan, execute and assess and function 
cohesively as a maritime headquarters organization.

    (4) Strengthen maritime security cooperation: The College shall 
bring together senior and intermediate level naval officers from other 
countries to develop leaders for high command in their navies; promote 
an open exchange of professional views; encourage friendship and 
cooperation; and study operational planning methods. The desired effect 
is to build and strengthen national and international maritime 
relationships and to improve the ability of U.S. and partner nations to 
operate together in the maritime domain.

    Status and Command Relationships. The Naval War College is a shore 
activity in an active, fully operational status under the command of a 
President who reports to the Chief of Naval Operations for mission 
accomplishment, broad policy guidance and governance. The Deputy Chief 
of Naval Operations for Total Force serves as the College's Resource 
Sponsor and Budget Submission Office.
    Dr. Snyder. How have ongoing operations in Iraq and Afghanistan 
affected the quality of military faculty members? What is your average 
tour length for military faculty members? Have the credentials of 
military faculty in terms of graduate degrees and JQO qualifications 
diminished during this period? What is the percentage of military 
faculty who are fully JQO qualified?
    Admiral Wisecup. Ongoing operations in Iraq and Afghanistan have 
clearly enhanced the quality of those military faculty members at the 
U.S. Naval War College who have had this experience. Recent combat 
experience provides instant credibility and enables our military 
faculty members to connect with students who have recently returned 
from combat operations. Recent faculty combat experience is also 
instrumental in making sure that our curriculum is current and 
relevant. We have used the individual augmentation program periodically 
as a professional development opportunity for selected military faculty 
members. The challenge is that combat operations in Iraq and 
Afghanistan only cover one aspect of the range of military operations 
and we must teach the full spectrum.
    Operations in Iraq and Afghanistan have also affected the 
perception among students especially those with combat experience that 
such experience is a discriminator. Those military faculty members 
without combat experience must work to build that credibility and prove 
their value in the classroom.
    However, there were problems with gapped billets for military 
faculty members especially during periods with the highest tempo of 
operations.
    The average tour length for military faculty is between two and 
three years, with most seasoned officers staying for a full tour and 
the more junior commanders/lieutenant colonels or junior captains/
colonels often departing closer to the twenty four-month mark. Clearly, 
the full tour allows these officers to contribute significantly in both 
teaching and curricula development. Most of the faculty members who 
depart after only two years are on the fast track to promotion and 
command and these are exactly the officers that we want to have in the 
seminar with both our intermediate and senior level students.
    The credentials of military faculty in terms of graduate degrees 
and JQO qualifications have not diminished at all during this period. 
Forty-seven percent of S&P's military faculty members have held O-5 
command. All have the requisite PME and hold a master's degree with 
eighteen percent having a PhD or enrolled as doctoral candidates.
    Among the JMO Department's military faculty, sixty-nine percent 
have held O-5 command, and over ninety four percent are graduates of an 
intermediate or senior level service college and hold a master's 
degree; forty-one percent hold multiple master degrees. Sixty percent 
of the NSDM military faculty has had O-5 command and sixty-seven 
percent hold multiple master's degrees.
    Approximately 20% (13/66) military faculty members are fully JQO 
qualified. In fact, the percentage of JQO faculty has remained steady 
over the past ten years.
    Dr. Snyder. Are the services and agencies filling their assigned 
billets for faculty? What are your gaps?
    Admiral Wisecup. Yes, the military services and agencies are 
filling their assigned billets at the Naval War College. Moreover, each 
of the other military departments have provided military faculty 
members who provide the skills, professional experiences, and generally 
the education outlined in the Memorandum of Agreement on Assignment of 
Military Faculty at the Service Senior Level Colleges dated 30 December 
2005.
    That Memorandum of Agreement covers the portion of the other 
Service faculty at the Naval War College which meets the CJCS 
definition for PME faculty, those who ``teach, prepare, or design PME 
curriculum or conduct research related to PME.'' Faculty members 
assigned to NWC's College of Operational and Strategic Leadership, the 
Center for Naval Warfare Studies, the Naval Command College, and the 
Naval Staff College do not fully meet this definition and are not 
counted as PME faculty unless they actively teach in the Elective 
Program. The information below is in reference to the PME faculty which 
is related to this Subcommittee's inquiry.
    For the upcoming academic year, the following billets for teaching 
faculty are currently gapped with no replacement yet identified:

    CIA--none (1 of 1 billets filled)
    Maritime Administration--none (1 of 1 billets filled)
    NCIS--none (1 of 1 billets filled)
    Royal Navy--none (1 of 1 billets filled)
    U.S. Air Force--1 of 11 billets (9%)
    U.S. Army--1 of 13 billets (8%)
    U.S. Coast Guard--none (1 of 1 filled)
    U.S. Marine Corps--none (5 of 5 billets filled)
    U.S Navy--3 of 42 billets (7%)
    U.S. State Department--none (2 of 2 billets filled)

    The Army had problems with timely fills in Academic Years 2006-2007 
and 2007-2008, but rectified them last academic year. As with all shore 
stations, Navy manning is less than 100%, but the College, as a matter 
of practice, places high priority on filling the PME faculty positions 
and absorbs the manning decrement with the research and gaming faculty 
and staff positions.
    Dr. Snyder. To what extent has the curriculum enhanced its coverage 
of Stability, Security, Transition, and Reconstruction (SSTR) 
Operations given that DOD has put them on a par with combat operations?
    Admiral Wisecup. Stability, Security, Transition, and 
Reconstruction (SSTR) Operations are an important part of the curricula 
at the U.S. Naval War College. The College has held fast to the belief, 
first articulated by its Founding Father, Rear Admiral Steven B. Luce, 
USN that ``The War College is a place of original research on all 
questions relating to war and to statesmanship connected with war, or 
the prevention of War.'' For the past 125 years, our focus has never 
been solely on conventional wars or high-intensity conflicts. We have 
examined the full spectrum of combat operations. Since the fall of the 
Berlin Wall and subsequent end of the Cold War as we know it, the 
College has increasingly emphasized both SSTR and irregular warfare.
    Failing and low-performing states are a perfect environment for 
these difficult operations. Our students have read and studied about 
operations in Beirut and Panama since the early 1990s. We continue to 
study operations in the Balkans that occurred during the Clinton years. 
Clearly there is a linkage between unstable environments like these and 
irregular war and insurgencies. We see this complexity as a part of the 
comprehensive whole.
    The NSDM Capstone Exercise asks students to look into the future 
security environment (6 years) to develop a seminar presentation that 
addresses creation of a future national security strategy, national 
military strategy, a regional strategic estimate, a theater strategic 
vision, and a list of new or improved concepts/capabilities necessary 
to advance the regional strategic vision. This exercise requires 
students to carefully consider all kinds of potential future 
operations, including SSTR operations.
    In addition, NSDM uses several case studies that touch on past 
events related to SSTR operations including:

    <bullet>  The use of Marines in Beirut in the early 80s

    <bullet>  Darfur

    <bullet>  Mine Resistant Ambush Protected Vehicles

    The Strategy and Warfare course includes a diverse assortment of 
case studies. SSTR concepts are clearly discussed in many of these case 
studies. Consequently, it is often an area that students discuss on 
their final examination.
    During the Joint Maritime Operations (JMO) course, students are 
required to complete a major research paper. There are many topic 
suggestions that include SSTR subjects; 36 students this past academic 
year chose SSTR topics.
    In the session on Introduction to Operational Art, students explore 
the application of operational art not only in conventional force-on-
force constructs, but ask the questions, ``Can operational art be 
applied across the range of military operations?'' extending the 
consideration through the traditional Phase 4 and Phase 5 construct. In 
the lesson on Military Objectives and the Levels of War, exploration of 
the desired end state leads students into consideration of SSTR issues.
    Specific to naval operations, one question students entertain in 
the lesson on the Employment of Naval Forces Across the Spectrum of 
Conflict, is ``Discuss the type and range of missions conducted by 
maritime forces in time of peace?'' Discussion leads to many roles for 
naval forces within SSTR. Another question in the session asks students 
to consider the application of naval forces to peace keeping and peace 
enforcement, two elements that have roles within SSTR.
    Interagency coordination and cooperation get consideration in 
several seminar sessions. In the lesson on the Department of State and 
the Country Team, the interaction between a Joint Task Force and the 
DoS/Country Team are considered specifically in SSTR operations. The 
JMO session on military decision making and planning continue the theme 
by asking students to consider planning not only for conflict but also 
for post-conflict operations.
    Many sessions in contemporary operations look at SSTR 
considerations. These include Failed States; a session devoted to a 
lecture on SSTR, Security Cooperation Planning, Interagency 
Coordination, and a panel discussion featuring representatives from 
nongovernmental and intergovernmental organizations and civilian 
contractors. The Post-Conflict Operations seminar looks at three SSTR 
case studies, Post-WWII Germany, Post-Operation Just Cause in Panama, 
and stability operations in Kosovo. The class on Civil-Military 
Operations features the investigation of establishing relationships 
early in an operation with a mind to ensuring coherent action in SSTR. 
The session on Peace Operations also includes SSTR considerations. 
Likewise, sessions on insurgency, counter-insurgency, and complex 
irregular warfare explore the gap between where a region or country is 
where it needs to be, and how it gets there through the lens of SSTR 
considerations. A seminar on Foreign Humanitarian Assistance Operations 
concludes the seminar series and through analysis of Operation Unified 
Assistance looks to identify lessons relevant to SSTR concerns. 
Overall, the JMO course weaves SSTR operations and considerations 
throughout the sixteen week course with concentrations interspersed.
    There are also several electives and workshops that cover SSTR and 
an Area of Studies with electives devoted to Irregular Warfare. These 
include:

  Employment of Special Operations Forces: A Case Study Approach

  Advanced Studies in Special Operations Forces

  Directed Research in Special Operations Forces

  Small Wars: An Introduction to Insurgency, Counterinsurgency, 
        Guerilla and Partisan Warfare Colonial Wars, 1846-1902

  Irregular Warfare

  Homeland Security and Counter Terrorism Technological and Policy 
        Foundations

  Confronting Armed Groups: 21st Century Challenges to U.S. National 
        Security

  Iraq: Insurgency and Counterinsurgency

  Contemporary Experiences in Counterinsurgency and Counter-Terrorism

    Also, our resident faculty members have recent experience and 
expertise with SSTR especially the military faculty that have recently 
returned from operations in Iraq and Afghanistan. Faculty members in 
the Wargaming Department work closely with the teaching faculty to 
remain current and share their experiences.
    In addition, in 2008, the Naval War College created a Center on 
Irregular Warfare and Armed Groups (CIWAG) in order promote and support 
research and teaching on irregular warfare and armed groups. The Center 
also helps to fund research projects on irregular warfare and armed 
groups. CIWAG hosted a conference that brought U.S. and international 
scholars together with military scholars and practitioners to analyze 
the national and international security challenges posed by armed 
groups and irregular warfare. CIWAG is taking a complex and rapidly 
evolving problem and exploring ways to help scholars and military 
leaders develop a sufficient understanding of the unique challenges 
posed by armed groups and irregular warfare.
    Dr. Snyder. Describe the scenarios that you use for your simulation 
exercises and war games. To what extent do they incorporate SSTR and 
irregular warfare concepts?
    Admiral Wisecup. At the Naval War College, our seminar-based 
educational methodology requires students to demonstrate mastery of 
theory and concepts through analysis, application, synthesis, and 
evaluation throughout the academic year through a variety of means 
including comprehensive case studies, exercises and simulations, and 
war games.
    In the National Security Decision Making course, the final exercise 
requires students to look into the future security environment (6 
years); they create their own scenario based on their assessment of the 
global and regional trends affecting their assigned geographic area of 
responsibility. The exercise requires the seminar to develop a 
presentation that addresses creation of a future national security 
strategy, national military strategy, a regional strategic estimate, a 
theater strategic vision, and a list of new or improved concepts/
capabilities necessary to advance the regional strategic vision.
    This exercise requires students to carefully consider all kinds of 
potential future operations, including SSTR operations and irregular 
warfare and determine the likelihood and risk of them to the security 
of the region and the United States.
    NSDM also uses two case studies involving SSTR operations and 
irregular warfare concepts:

    <bullet>  The use of Marines in Beirut in the early 80s

    <bullet>  Darfur

    The Strategy and War course includes a diverse assortment of case 
studies focusing on irregular warfare (IW) and the challenges of 
countering belligerents that utilize irregular strategies. IW is 
defined as a violent struggle among state and non-state actors for 
legitimacy and influence over the relevant populations and encompasses 
insurgency, counterinsurgency, terrorism, and counterterrorism. IW 
theory and practice is analyzed by students using historical and 
contemporary cases studies. Students read the famous study On 
Protracted War by Mao, perhaps the most successful fractioned and 
celebrated theorist of IW. A number of case studies involving IW and 
hybrid wars--the role of armed groups and militias in determining the 
outcome of the American War for Independence, the Huk Rebellion, the 
Malayan Emergency, Vietnam, the insurgencies in Iraq after the fall of 
Saddam Hussein's regime, and current operations in Afghanistan--receive 
in-depth examination. Moreover, the Strategy and War course emphasizes 
the importance of understanding how and why superiority in conventional 
military capabilities do not automatically translate into strategic 
success, when weaker adversaries adopt asymmetric, irregular methods of 
warfare to protract the fighting and diminish the will of their 
opponent. It is important to note that IW is taught in context so that 
the geopolitical, economic, historical, social, and cultural 
environments surrounding the conflict are also assessed in order to 
develop realistic strategies and counter-strategies.
    In the examination of IW, culture and religion figure prominently 
in the strategy courses. A conflict studied is the Algerian war to gain 
independence from France. This struggle raises troubling questions 
about the strategic effectiveness of a major western power--in this 
case, France--fighting in another cultural and religious setting 
against an adversary employing terrorism and insurgency.
    In addition, IW in the joint and interagency environment is 
exhaustively studied. On Vietnam, for example, students read 
Bureaucracy Does its Thing: Institutional Constraints on U.S.-GVN 
Performance in Vietnam, the classic study authored by Robert Komer, who 
headed the most successful phase of the United States pacification 
effort during the Vietnam War. Meanwhile, Andrew Krepinevich's 
provocative study The Army and Vietnam provides insights into the 
problems facing armed forces in adapting to strategic realities. 
Students examine institutional constraints that hamstrung the 
performance of the United States on the civil and local security 
aspects of the war. These include the faulty coordination of our 
diplomatic and military instruments, the lack of unified plans, the 
misuse of AID tools, poorly equipped staffs on several agencies that 
also could not understand each other's perspective or mission, and 
above all the lack of unified management both across civil and military 
functions and within each sphere.
    Students also examine the arguments made by the eminent Harvard 
academic, the late Samuel Huntington that the terror war is a 
culturally or religiously driven ``clash of civilizations.'' (That, 
indeed, is how Al Qaeda has been predisposed to portray the war.) The 
Strategy and Policy Department provides a valuable reading, entitled In 
the Eyes of Your Enemy: An Al-Qaeda Compendium, consisting of primary-
source documents, which allows students to engage in ``cultural 
intelligence'' by assessing first hand AQAM's ideological view of the 
world, peculiar version of history, and image of the United States, as 
well as their political objectives, strategies, information operations, 
and internal divisions and debates. In addition, Usama Bin Laden's 
speech, ``Come to Jihad: A Speech to the People of Pakistan,'' covering 
a substantial change in AQ's strategic rhetoric, is examined. In it, 
Bin Laden formally calls for war against the Pakistani state in a 
fashion which may mark another turning point in the Long War's 
evolution. Readings by well-known experts on the Middle East Fawaz 
Gerges and Gilles Kepel provide astute analyses of the cultural roots 
of current-day conflicts. Other readings and lectures provide an 
ethnographic break-down of tribal society along the Pakistan-
Afghanistan frontier, and some of the key ``cultural terrain'' features 
in it that effect military operations.
    AQAM has exploited the revolution in information technology to 
craft and control their messages to an unprecedented degree of 
sophistication and to make possible tactical training, operational 
planning, and strategic debate in a decentralized organizational 
framework. Another reading by Bruce Hoffman, a longtime RAND 
Corporation expert on terrorism, analyzes the ``virtual battleground of 
cyberspace'' and the different ways in which AQAM leaders and 
operatives have used the internet to advance their cause. AQAM has used 
new means of communication to try to impel a wide range of Muslim 
audiences to transcend their multiple national, ethnic, and tribal 
sources of identity and embrace a single, extreme, religious identity 
as a global umma (community) in mortal confrontation with infidels. 
AQAM also addresses Western audiences with words as well as propaganda 
of the deed. Its package of terrorism and strategic communication seeks 
to achieve psychological, economic, and political effects that, it 
presumes, will bring an end to the Western presence in the Muslim 
world. The deep attention paid to Al Qaeda's world-view, messages, and 
efforts in the strategy courses also provides a solid backdrop against 
which to compare and evaluate the United States' own efforts.
    Two major scenarios consider SSTR within the Joint Maritime 
Operations course. The first is a notional case study of a conflict on 
the island of Borneo. Within it, students are exposed to a 
conventional, maritime-based conflict with irregular warfare concerns. 
Within it, students are expected to plan for U.S. and coalition 
operations, including SSTR operations. The second and capstone exercise 
looks at the implosion of the DPRK in the year 2012. The entire 
exercise centers on conflict avoidance and SSTR efforts. As a result of 
years of food shortages and repression of the people, the DPRK 
leadership is unable to provide either security of basic human 
services. DPRK infrastructure is incapable of supporting the population 
and the U.N. estimates that, as winter approaches, up to 2 million DPRK 
citizens may starve or freeze to death. The U.S.-led Combined Task 
Force (CTF) Morning Calm conducts humanitarian assistance operations to 
assist DPRK government in maintaining order and restoring basic human 
services in order to ease human suffering and prevent regional 
instability. This exercise was designed as an SSTR/Irregular Warfare 
exercise to synthesize the course learning objectives.
    In addition, in 2008, the Naval War College created a Center on 
Irregular Warfare and Armed Groups (CIWAG) in order promote and support 
research and teaching on irregular warfare and armed groups. Part of 
its mission is to hold a series of conferences that bring scholars, 
both American and international, together with military scholars and 
practitioners to analyze the national and international security 
challenges posed by armed groups and irregular warfare. CIWAG 
contributes to curriculum development in the strategy, joint military 
operations, and electives courses taught at the Naval War College. This 
focus on increasing the faculty's expertise on SSTR and IW extends to 
our War Gaming Department, which executed a number of other SSTR and IW 
wargames over the past year involving faculty throughout the College. 
These include:

     1.  NAVCENT BILAT Game Series. Classified, scenario-based war game 
explored the irregular warfare threat to maritime infrastructure in the 
NAVCENT AOR. This war game served as a theater security cooperation 
instrument for NAVCENT to build partnership capacity among oil-
producing coalition partners.

     2.  Navy-Marine Corps Command Relationship Game. Scenario-based 
war game explored the issues and problems associated with various 
command relationship constructs for employing embarked Marine Forces. A 
range of scenarios from low-intensity conflict to MCO were analyzed.

     3.  Global 08. Four different alternative future scenarios used: 
``Made in East Asia,'' ``Global Chaos,'' ``United We Stand,'' and 
``Tri-Polar''.

     4.  Global 09. Classified scenario addressing Sea Control in an 
anti-access environment against a capable adversary.

     5.  Force Design Workshop. Scenario focused on high-end anti-
access and irregular maritime warfare across the most stressing Defense 
Planning Scenarios.

     6.  Final Destination 2 Game. SECRET-NOFORN level, included 
multiple, asymmetric attacks on the U.S. homeland and U.S. forces 
abroad.

     7.  U.S.-Australia Electronic Warfare Interoperability Game. 
Designed to identify gaps, deficiencies, and issues with respect to 
U.S. and Australian Electronic Warfare actions in combat conditions. 
Two scenarios were presented, the first of which focused on Major 
Combat Operations against a near-peer competitor. The second scenario 
explored the challenges of conducting EW operations in later-phasing 
(e.g., post-major combat, stability and rebuilding operations) in a 
Counter-Insurgency (COIN) environment.

     8.  Maritime Infrastructure Protection Symposium Scenario-Based 
Planning Activity. The scenario presented simulated attacks on a 
variety of physical infrastructure assets (i.e., oil platforms, 
agricultural experiment station, LNG holding facilities, and commercial 
assets). participants were divided into four multi-national groups, and 
explored the events from the specific lenses of indications and 
warnings, analysis and assessment, mitigation, and incident response.

     9.  Maritime Homeland Security/Homeland Defense War Game Series. 
Focus of all scenarios is on asymmetrical threats coming from the 
maritime environment (VOI, COI, POI threats). The series incorporates 
robust play from U.S. maritime forces as well as both the Canadian 
military and civilian senior leadership and an advancing Mexican 
involvement. Scenarios included: maritime assault teams inbound to 
Vancouver Olympics, small boat threat to oil platforms in GOMEX, VBIED 
inbound to Hampton Roads, and transiting vessel exhibiting personnel 
with radiation poisoning declaring force majeure for a U.S. Port.

    10.  Maritime Operational Threat Response (MOTR) War Game Series. 
The game includes significant U.S. interagency participation with the 
overarching goal of creating and implementing a single, unified U.S. 
government approach to an emerging irregular warfare threat. Scenarios 
included: suspected WMD being shipped to U.S. waters, chemical weapons 
shipments inbound through St Lawrence Seaway, and POI onboard vessels 
transiting through U.S. waters.

    11.  Office of Defense Cooperation/EUCOM Theater Engagement. The 
scenario based war game reinforced the concepts of joint operational 
planning. All scenarios focused on IW threats to critical energy 
infrastructure and WMD in a joint maritime environment.

    12.  Deterrence and Escalation Game and Review 09. The objectives 
for this game were to explore escalation dynamics after an adversary's 
first use of WMD. The game was conducted primarily at the operational 
and strategic levels of war.

    Dr. Snyder. Please provide the most recent survey results from your 
graduates and their supervisors.
    Admiral Wisecup. The U.S. Naval War College routinely surveys 
graduating students, alumni, and naval and joint leaders. With the 
significant change of intended educational outcomes and the 
corresponding curriculum revision implemented in academic year 2006-
2007, surveys to our alumni and senior leaders regarding the outdated 
intermediate-level course would have served no useful purpose. We have 
begun to solicit feedback on the revised course, but have not yet 
collected all of the data. Likewise, the College has not yet analyzed 
the data from our graduating students for the last academic year. 
However, the analysis from Academic Year 2007-08 follows.
    [The information referred to is retained in the committee files and 
can be viewed upon request.]
    Dr. Snyder. The intermediate level schools lost Joint Duty credit 
for their non-host service military faculty in the 2007 National 
Defense Authorization Act. We know that the tours of those who were 
grandfathered are ending. What will the effect of this be? How will it 
affect the quality of your faculty? How important is it that these JDAL 
positions be restored? Do the instructors truly get a joint experience?
    Admiral Wisecup. Billets at the U.S. Naval War College remained on 
the JDAL because our military faculty members teach both intermediate 
level PME with JPME I and Senior level PME with JPME II. To date, 
officers in these billets have received joint credit. However, 
previously the Joint Staff queried whether our faculty should receive 
full joint credit since they also teach the intermediate level JPME 
course.
    The long-term concern is that a bureaucratic decision may affect 
our teaching billets. Therefore we fully support returning these 
billets to the JDAL.
    Discussions with the Bureau of Naval Personnel indicates that a 
lack of joint credit makes it more difficult to assign commanders still 
competitive for promotion and recently promoted captains to faculty 
positions at the other intermediate level colleges. However, these 
billets are filled by more experienced officers, who do not absolutely 
require joint duty credit. Returning those faculty billets to the JDAL 
would be most beneficial.
    Dr. Snyder. Describe your school's use of historical case studies 
to teach strategy.
    Admiral Wisecup. The study of history has formed a part of the 
curriculum since the founding of the Naval War College. The College's 
first President, Stephen B. Luce, argued: ``Naval history abounds in 
materials whereon to erect a science, and it is our purpose to build up 
with these a science of naval warfare.'' (Stephen B. Luce, ``On the 
Study of Naval Warfare as a Science'' Proceedings, 1886) Historical 
case studies provided the foundation for frameworks of strategic 
thought that could guide the making of strategy and operations. Alfred 
Thayer Mahan used historical case studies to develop his concepts of 
sea power and grand strategy in the lectures delivered to students 
attending the College. These lectures, transformed into his famous book 
The Influence of Sea Power Upon History, Mahan stated: ``It is . . . 
particularly in the field of naval strategy that the teachings of the 
past have a value.'' (p. 9) Mahan's famous history remains a part of 
the College's courses on strategy. Historical case studies, then, have 
long formed a vital part of the curriculum on strategy at the Naval War 
College.
    Mahan's works on naval history, and those of his near contemporary 
Sir Julian Corbett, have lost none of their power for spurring critical 
thought on strategy. The noted policy commentator Robert Kaplan 
believes that an understanding of the current-day and future strategic 
environment ``requires an acquaintance with two books published a 
century ago: Mahan's The Influence of Sea Power Upon History, 1660-1783 
. . . and Julian S. Corbett's Some Principles of Maritime Strategy.'' 
(Robert D. Kaplan, ``America's Elegant Decline,'' Atlantic Monthly, 
November 2007) The historical case studies drawn upon by Mahan and 
Corbett, as well as their acute strategic analyses, remain an integral 
part of the education on strategy provided by the Naval War College.
    The study of strategy is an integral element of the Naval War 
College's intermediate-level education programs, resident and non-
resident. Through the core curriculum, students examine the formulation 
and implementation of strategy, assess its execution and effectiveness, 
and evaluate the subsequent adaptation and revision of strategy. For 
intermediate-level students, our focus remains at the operational level 
emphasizing the application of operational art and operational level 
leadership. The nexus of strategy and operations is then a major 
emphasis of the core curriculum. While our students analyze the 
national level strategies, their studies require them to synthesize and 
evaluate theater strategies and the corresponding campaigns, 
operations, and activities.
    Historical case studies are a significant element of the College's 
educational methodology, especially so in our study of strategy covered 
mostly by the National Security Decision Making (NSDM) and the Strategy 
and Warfare (S&W) courses. NSDM uses historical case studies 
extensively to teach both the development and implementation of 
strategy and policy, though the faculty has found case studies to be 
more effective in examining how strategy was implemented than in how it 
was developed. NSDM also uses historical case studies extensively to 
teach leadership.
    Most of the historical case studies used were developed by NSDM 
faculty members to illustrate various course concepts. Historical case 
studies related to strategy and policy development and implementation 
that have recently been used include:

    <bullet>  Use of Marines in Lebanon between 1982 and 1984

    <bullet>  The United States and Russia--Rekindling the Cold War

    <bullet>  The Cuban Missile Crisis

    <bullet>  North Korea

    <bullet>  A Time of Our Choosing: Confronting Saddam

    <bullet>  Darfur

    <bullet>  The 1973 Arab-Israeli War

    <bullet>  All midterm and final exams involve student analysis of 
case studies.

    These cases are used in conjunction with other required readings as 
necessary preparation for graduate-level seminar discussions. Those 
discussions are important to developing course concepts and applying 
the three general analytical frameworks offered by the NSDM course. The 
first conceptual framework considers how national interests, national 
strategies, and the security environment affect the ways and means 
combatant commanders develop and execute theater strategy cooperation 
activities. The second conceptual framework is designed to prepare 
students to lead and effectively participate in a dynamic staff 
environment, applying management and leadership skills to 
organizational assessment, strategy formulation, strategy 
implementation, and measurements. The third conceptual framework 
describes the environment with and external to the staff ensuring 
leadership styles, staff structure, organizational behavior and culture 
as well as the influence on the staff of U.S. government higher 
authority, and elements of the international community are considered 
during the strategic process. Through seminar discussions, a 14-17 page 
analytical essay exploring an existing strategy, a military strategic 
concept, or an emerging security challenge, and examinations involving 
student analysis of case studies, the NSDM course teaches strategy.
    The Strategy and Warfare course examines the complete strategic 
process through the use of historic case studies. This course uses 
required historic readings and faculty lectures to provide the baseline 
for exploration through seminar discussions and two analytical essays 
of 8-10 pages each. Students are provided nine interrelated course 
themes as a starting point for undertaking critical strategic thinking. 
Those themes are applied repeatedly via the historic case studies, the 
essay papers, and often the course's written final examination.
    A hallmark of the courses developed by the Strategy and Policy 
Department, including Strategy and Warfare, is the many different types 
of wars and the wide range of operations covered in historical case 
studies. By using historical case studies, the students have an 
opportunity to evaluate and discuss the ways in which political 
leaders, military and interagency planners in the real world have 
successfully (or unsuccessfully) grappled with the strategic challenges 
associated with the use of force to attain national objectives. The 
historical case studies in strategy examine diverse types of wars, 
featuring a variety of operations and different keys to success. The 
strategy courses show how success in one type of war may be followed by 
failure in another. An important aspect of strategic leadership is the 
ability to adapt to different types of wars. The curriculum analyzes 
the strategic success and failure of leading great powers and non-state 
actors over long periods of time. The goal in using historical case 
study is to expand the horizons of the officers studying at the 
College. Admiral Stansfield Turner argued for the value of this method 
for the study of strategy: ``Studying historical examples should enable 
us to view current issues and trends through a broader perspective of 
the basic elements of strategy. Approaching today's problems through a 
study of the past is one way to ensure that we do not become trapped 
within the limits of our own experience.''
    These historical cases lead up to the strategic problems 
confronting today's decision makers and emerging security challenges. 
In each case study, the students can study the actions of famous 
strategic leaders--such as, Washington, Churchill, Roosevelt, Stalin, 
Marshall, Eisenhower, Mao, and others. The case studies on strategy, 
then, are concerned with strategic leadership that can effectively deal 
not only with current problems in policy and strategy but also those 
that might emerge in the future.
    The study of history is also essential so that our students know 
about the books influencing the Nation's top decision makers. A recent 
example is provided by former President George Bush, who studied the 
historical case study of the Algerian war for independence against 
France. Henry Kissinger recommended that President Bush read Alistair 
Horne's book Savage War of Peace. This book shaped President Bush's 
views about the problems facing outside great powers fighting in the 
Middle East. This book, too, is part of the core curriculum on strategy 
at the College. In the courses offered by the Strategy and Policy 
Department, historical case studies give students an awareness of what 
is read by the country's leadership. Secretary of Defense Robert Gates 
highlighted in the journal the importance of Robert Komer's book 
Bureaucracy Does Its Thing for grasping the institutional impediments 
standing in the way of strategic effectiveness in fighting an 
insurgency. (Foreign Affairs, January-February 2009). The historical 
case study in the strategies of the Vietnam War employs this book with 
great effect. Many students returning from service in Afghanistan and 
Iraq have commented on the value of reading this book that captured 
some of the salient lessons of the hard-won experience of the long war 
in Vietnam.
    Our adversaries, of course, also turn to the past to make strategic 
sense current-day conflicts. We at the Naval War College must equip our 
students with an understanding of our enemies' construction of the 
past. For example, Osama bin Laden, in a famous speech delivered in 
2004, drew upon the experience of the Soviet Union in Afghanistan to 
explain why he remained confident of ultimate victory over the United 
States in the terror war. ``[We have] experience in using guerrilla 
warfare and the war of attrition to fight tyrannical superpowers, as 
we, alongside the mujahidin, bled Russia for 10 years, until it went 
bankrupt and was forced to withdraw in defeat. . . . So we are 
continuing this policy in bleeding America to the point of 
bankruptcy.'' (October 29, 2004) Understanding the strategy of our 
Nation's enemies requires an examination of history and the enemy's 
interpretation of it. The Naval War College's curriculum thus uses 
historical case studies to understand the ends, ways, and means 
employed by adversaries, as well as the role of cultural and religious 
considerations in the making of strategy.
    The strategy courses also examine the part culture played in the 
major conflicts fought in East Asia in the twentieth century. The study 
of these wars shows the violent interaction between the peoples within 
the region and with outside powers. In particular, students examine the 
Pacific theater in World War II, the Korean War, and the Vietnam War. 
In the strategy courses, students examine the rise of Japan as a major 
power, the growth of Japanese nationalism during the first half of the 
twentieth century, and Japan's collision with China, Russia, and the 
United States. The students also examine the rise of China. In recent 
years, the strategy courses have sought to give more prominence to the 
history of conflicts in South Asia. This historical background is an 
essential element of cultural literacy and for understanding today's 
dangerous flashpoints in Asia.
    An education in strategy entails an understanding of our own 
Nation's past. Cultural studies must begin with knowing about one's own 
history. The Strategy and Policy Department's courses provide an in-
depth examination of the evolution of the American way of war and 
strategic thought. The late Russell Weigley's landmark study The 
American Way of War: A History of United States Military Strategy and 
Policy provides essential background on how the United States has waged 
war. The history of the United States' interaction with the world and 
its wars offers invaluable background on the evolution of the 
international strategic environment as well as our own country's 
history. The Strategy and War Course examines the founding of the 
Republic in the midst of a highly competitive international environment 
and great-power wars. The victory at Yorktown is examined as a case 
study in successful joint and combined operations. The Strategy and War 
Course also follows the rise of the United States as a world power. The 
strategy courses examine as well the strategic challenges that have 
confronted the United States and the way our country's institutions 
have changed and adapted over time to provide for the Nation's 
security. Historical case studies provide the opportunity to delve into 
the topic of service cultures and civil-military relations. History, 
then, provides a rich vein of experience to understand the making of 
strategy in a joint and interagency environment and the barriers that 
can thwart strategic effectiveness.
    The courses on strategy offered by the Strategy and Policy 
Department thus employ in-depth examination of historical case studies. 
Strategic theory is put to the test offered by the hard reality of 
history. The study of history can hone the skills of critical analysis 
that are essential for understanding principles of war, the 
interrelationship of ends, ways, and means, and the dynamics of 
strategic interaction.
    Dr. Snyder. What is the process for renewal and non-renewal of the 
faculty? How transparent is the system? In a tenure system people think 
the faculty members have all the power, in a non-tenure system it 
appears that the school has unlimited power. How do you avoid these 
extremes?
    Admiral Wisecup. The process of retaining faculty at the U.S. Naval 
War College is an open, orderly and fair one. Though the College does 
not employ a system of tenure and has no intention of doing so, it 
accords its faculty reasonable contractual security consistent with the 
College's mission and its quality standard for faculty. As a practice, 
the College renews contracts as early as 364 days in advance prior to 
their expiration. All faculty members are notified at least six months 
prior to the expiration of their contract. As highlighted in the 
Faculty Handbook, in all but extraordinary circumstances, notification 
of non-reappointment will be given by 1 December prior to the 
expiration of the contractual term.
    Faculty members with more than six years of continuous employment 
at the Naval War College have the right to request a peer review of 
their non-reappointment. (Six years is the typical length of time it 
takes to make tenure at a civilian university.) A Non-Reappointment 
Review Committee will be appointed to consider their appeal. This 
process is delineated in the Faculty Handbook. There has only been one 
request for peer review of a non-reappointment since the original 
Skelton Report was published in 1989. Non-reappointment of faculty 
members who have served more than six years is rare.
    The College is well aware of the unique governance system under 
which it operates. The Chief of Naval Operations essentially serves as 
the governance board for the College. Faculty members have neither 
tenure system nor a faculty senate. The formal voice of the faculty is 
represented by the departmental chairs who are members of the Academic 
Policy Council, the President's advisory body on academic policy, 
practices, procedures, and resources. While there are a number of 
institutional practices and procedures to provide the faculty's voice 
formally and informally, they are simply not the same as their 
counterparts at civilian universities and colleges. But neither is our 
multi-disciplinary approach to education, our faculty-built and taught 
single curriculum, or our bias toward faculty teaching teams. Faculty 
members must work together much more closely at NWC to accomplish 
departmental curriculum development. Faculty members must become 
collegial, team players to a much greater extent than their colleagues 
at civilian educational institutions. Individual faculty members who 
have difficulty adjusting to our unique approach to curriculum 
development and teaching a shared curriculum or simply chose not to 
adjust are generally identified in their first contractual term, well 
before they would normally qualify for tenure at a civilian college or 
university, and depart on their own terms.
    Our current educational paradigm dates from 1972, when Admiral 
Stansfield Turner instituted the graduate-level case-study based, 
seminar model and expanded considerably the number of civilian scholars 
on the NWC faculty. Admiral Turner believed the faculty was the 
critical cog in a quality educational experience. To this day, we still 
contend our faculty is our center of gravity. As the College's 
``Guiding Principles'' from our Strategic Plan 2008-12 state ``The 
Naval War College's true strength lies in the creativity, energy, and 
intellectual capital of our people.'' And our values in that same plan 
include ``Academic Responsibility'' which ``means that one of our key 
duties as an academic institution is to `seek and state truth without 
bias.' Our faculty enjoys full freedom of dispassionate inquiry with no 
limitations other than adherence to security classification. Within 
this context, faculty members are expected to extend and transmit 
knowledge to their respective fields of expertise.'' In the ensuing 
thirty-seven years since Admiral Turner transformed NWC, this critical 
value of the faculty is ingrained in the culture of the College.
    This value placed on the faculty also imparts great responsibility 
to them. They take pride in their ownership of the curricula and the 
academic programs. They drive themselves relentlessly to ensure what we 
teach remains challenging, current, and relevant. Our culture of self-
assessment begins with the faculty and permeates the institution. 
Continual improvement is the unspoken motto. First and foremost, we 
continue to thrive because the faculty knows the trust and confidence 
placed in them by the College's leadership. They accept fully the 
responsibility and are self-driven to excel. Continued mission success, 
not tenure, provides them job satisfaction and security. They, in turn, 
place their confidence and trust in the College's leadership to be fair 
and judicious in its actions toward them and the College's mission.
    Dr. Snyder. What is your school's role in identifying promising 
officers with the potential for high-level strategic thinking at the 
appropriate point in their careers?
    Admiral Wisecup. Students in the College of Naval Command and Staff 
take the Strategy and War course, which comprises 28% of the core 
academic curriculum. This course is designed to teach students to think 
strategically. Aside from building a baseline for growth in strategic 
analysis and thought in every student, this also serves as an 
opportunity for the faculty to discern truly exceptional students with 
potential in this area. Faculty members often use their informal 
networks to identify and introduce these talented leaders. On the rare 
occasion where a student is truly exceptional, he or she is formally 
identified with remarks on their fitness reports upon graduation. In 
many cases, faculty members identify superb students and request that 
they consider a tour of duty at the College in the following years. 
Departments communicate and track these students for potential 
assignments at the College.
    The U.S. Naval War College also has a number of selective programs 
to enable students and faculty to work closely on strategic issues. 
These include the Advanced Research Program, Mahan and Halsey Scholars. 
The Advanced Research Program offers highly qualified students the 
opportunity to participate in one of several collaborative research 
groups as well as substitute an in-depth research project for some 
other segment of the academic program. Selected students may join an 
already established research group and at the direction of the group's 
faculty mentors, participate in the development research and analysis 
products of that group. Alternatively, select students can either 
develop a topic or chose from a list of pre-approved topics from which 
a major research paper is completed in place of one of two core 
courses.
    The Warfare Analysis and Research (WAR) Department conducts 
relevant research into current and future war fighting issues using 
select Naval War College students working under the mentorship of 
experienced research professionals. Collaborative research efforts are 
coordinated through student participation in one of the Halsey or the 
Mahan Scholars research groups while individual research work is guided 
by faculty from not only within the WAR department but also by faculty 
throughout the college as appropriate. This analysis is used to inform 
key policymakers, commanders and other defense and security 
professionals.
    Students in these programs work closely with faculty members for 
the duration of their year at the College. As a result, they receive 
higher contact time and significantly more mentorship than normal 
studying a variety of issues with strategic implications. The two major 
benefits of these programs are:

    1.  They yield an Additional Qualification Designator (AQD) for 
Navy students which identify them for their expertise. The AQD is a 
personnel code which identifies a skill set that can be matched to 
billet requirements throughout the Navy and Joint force.

    2.  These professors each have continuity with these research 
topics and have developed a network within the Navy and the Department 
of Defense that enables them to identify outstanding students to other 
subject matter experts.

    Dr. Snyder. How do you specifically measure the quality of the 
faculty and staff in the PME environment?
    Admiral Wisecup. CJCS PME standards for faculty members establish 
certain qualifications. The Naval War College aims for incoming faculty 
members to meet or exceed those qualifications. We then have high 
expectations for our qualified faculty members to continue to learn and 
grow as an integral element of their professional development.
    Regarding qualifications we expect our uniformed faculty to have 
expertise in their area of specialty (i.e., submarines, infantry, 
surface ships, aviation, logistics, etc.). We seek officers who have 
commanded as commanders or lieutenant colonels or held equivalent 
positions in the restricted line or staff communities and prefer 
officers who have also commanded as a captain or a colonel. We seek 
combat experience or operational experience in the recent conflicts in 
Iraq and Afghanistan. We seek experience at the strategic or 
operational levels. We expect them to be intermediate-level school 
graduates with JPME Phase I and expect most of them to also be senior-
level graduates. We seek officers with joint experience, preferably 
Joint Qualified Officers. For civilian education, we expect them to 
possess a master's degree at a minimum. Although a majority of our 
faculty have advanced degrees in international relations, history, 
political science, or military or political history, the discipline is 
not as important as their teaching ability. Our faculty has advanced 
degrees in a variety of disciplines and this diversity adds to the 
richness of our education.
    As stated in our Faculty Handbook, ``The Naval War College expects 
all civilian faculty members whose primary duties are not primarily 
administrative to engage in professional research and exhibit a 
sustained commitment to scholarship. It expects most of them to publish 
at least some of the results of their research. Military members are 
not expected to publish, but are encouraged to do so in their areas of 
expertise.'' For civilian professors teaching in the three core 
academic departments, there are common elements in every faculty 
member's performance appraisal; teaching performance, curriculum 
development, research and publication, and service to the College's 
larger mission. Individual faculty members meet with their departmental 
Chairs and establish personal plans annually to develop more specific 
criteria for those common areas and any distinct areas relevant to the 
professor's performance. Additionally, the Faculty Handbook established 
criteria for consideration for promotion to the ranks of Associate 
Professor and Professor which includes research and publication 
expectations. Thus, their annual appraisals, their potential for 
promotion, and ultimately their reappointment rest, in part on their 
productive scholarship. Military faculty members are expected to 
research and contribute to curricula development and are judged in 
their appraisals accordingly.
    For PME faculty members, teaching and curriculum development are 
the priorities. During their first year, the primary focus is on 
teaching responsibilities within the core curriculum. Once their 
teaching is mastered, they expand into other areas. Perhaps the best 
published indication of our expectations for faculty quality is 
expressed in our Faculty Handbook's section on qualifications for 
promotion, which are cited below:

    (a) From Instructor to Assistant Professor. The most basic 
criterion for promotion from Instructor to Assistant Professor is 
completion of the terminal degree when required or the attainment of 
sufficient professional expertise to warrant the higher rank. Those 
eligible for this promotion will also be evaluated on the basis of 
teaching and service done while an Instructor and promise shown of the 
ability to be a productive contributor to the work of his or her 
Department and the mission of the Naval War College.

    (b) From Assistant Professor/Assistant Research Professor to 
Associate Professor/Associate Research Professor. The key criteria for 
promotion to Associate Professor/Associate Research Professor are 
continued improvement and maturation in the faculty member's 
performance of his or her duties; initial evidence of professional 
productivity, including first curricular products, research, 
publications, or other outputs relevant to the faculty member's duties 
and area of expertise; clear evidence of further promise of scholarly 
or professional achievement, as defined by the leadership of the 
relevant department or unit of the College; and a demonstrated 
commitment to understanding and considering issues of jointness (to 
include interagency and multinational as well as interservice 
collaboration) in the faculty member's teaching and/or research, 
analysis and gaming activities at the College.

    (c) From Associate Professor/Associate Research Professor to 
Professor/Research Professor. This is an especially significant step 
for both the faculty member and the College. The criteria here include 
excellence in teaching or research, not simply a satisfactory level of 
performance; significant contributions to either the NWC's educational 
mission or the NWC's research, analysis, and gaming function; active 
engagement and visibility in the faculty member's academic or 
professional community; significant productivity in scholarly 
publication or professional research; a consistent commitment in the 
faculty member's teaching and/or research, analysis, and gaming to 
fostering critical thinking from a joint perspective and cultivating 
the ability of students/officers to function effectively in a joint, 
interagency, and multinational environment; a demonstrated commitment 
to teamwork with other faculty members across the departments and codes 
of the Naval War College; and the ability to develop or advance new 
ideas that enhance the effectiveness and efficiency of both the faculty 
member's department and the College as a whole.

    Faculty members undergo two regular types of evaluation in the 
course of an academic year at the Naval War College. After each term of 
instruction, the teaching performance of faculty members who have 
taught in a core course and/or an elective will be evaluated by their 
students. At the end of each year of instruction, the overall 
performance of faculty members will be evaluated by their Department 
Chairs or program directors. In addition, on occasion, and as 
coordinated between the faculty member to be evaluated and his/her 
Chair or Director, the teaching of a faculty member will receive a 
formal or informal evaluation by another faculty member after 
observation of classroom performance.

    (1) Civilian Faculty Members

    (a) Teaching Evaluations. The Academic Departments, the Electives 
Program, the Naval Staff College, and the College of Distance Education 
each use somewhat different mixes of methods for evaluating teaching 
proficiency. All make use of questionnaires, critiques, or surveys 
filled out by students, but the items included and questions asked may 
vary from course to course. In addition to written forms of evaluation, 
direct observation of teaching performance takes place as well. The 
College of Distance Education, with its extensive program of periodic 
Site Visits to Fleet Seminars, makes the most formal use of direct 
observation of one faculty member's teaching proficiency by another 
faculty member, although in residential departments that use a team-
teaching approach there is much informal observation by faculty 
colleagues. On occasion, a lecture or a seminar may be visited by 
Department Chairs or Executive Assistants, Division or Deputy Division 
Heads, directors of programs, other senior administrators or the 
President. Such monitoring is not meant to encroach upon academic 
freedom and is not used simply for purposes of evaluation; it serves to 
aid curriculum development, enhance pedagogical skills, and otherwise 
help maintain the high quality of the instructional environment at the 
Naval War College. Department Chairs and the Director, CDE, may elect 
to incorporate the results of teaching evaluations into the annual 
overall appraisal of a faculty member's performance.

    (b) Performance Appraisal and Review System. Civilian faculty 
members are evaluated annually in accordance with standard procedures 
established in the Performance Appraisal and Review System (PARS). The 
PARS annual appraisal period is 1 July to 30 June or, in the case of 
initial appointments, from the beginning date of appointment until 30 
June. At the beginning of the appraisal period, faculty members are 
apprised of the ``job elements'' and ``performance standards'' by which 
they will be assessed--for example, curriculum development, research 
and publication, teaching performance, and extra-departmental service 
to the Naval War College. Toward the middle of the year there is a 
``progress review.'' At the end of the year, Department Chairs, 
Directors, or other supervisors make full written assessments of the 
performance of each of their faculty members. Faculty members have the 
right to grieve performance appraisals and other matters relating to 
the appraisal program in accordance with NWCINST 12430.1 (series).

    (2) Military

    (a) Teaching Evaluations. All military officers on the teaching 
faculty participate in the same teaching evaluation process that 
civilian faculty members do.

    (b) Fitness Reports. Fitness Reports on military faculty members 
are submitted periodically and upon detachment of officers or reporting 
senior. Normal due dates are specified by individual Service 
directives. The appropriate Dean is responsible for coordinating and 
processing Navy reports. The Service Advisors coordinate preparation of 
faculty and staff evaluations for the members of their respective 
services, in conjunction with the Department Chair.

    The College collects data on faculty performance from graduate and 
alumni surveys. The feedback continues to be very positive about the 
quality of the education, the performance of the faculty, and the 
relevance and currency of the curriculum.
    Dr. Snyder. How were you chosen to be school's commandant? How was 
your dean chosen? Will you be retiring from this job? What background 
should the Chief of Naval Operations be looking for in selecting 
individuals for these positions? Should the focus be on operational 
leadership skills or academic and teaching experience (not instructing 
in a training institution) background or both?
    Admiral Wisecup. Selection of the President of the NWC is 
accomplished through a highly competitive administrative slating and 
nominative process, and ultimate appointment by the Secretary of the 
Navy.
    There are four parts to the institution's mission:

    (1)  Develop strategic and operational leaders.

    (2)  Help CNO define the future Navy and its roles and missions.

    (3)  Support combat readiness.

    (4)  Strengthen maritime security cooperation.

    If Rear Admiral Wisecup were selecting the College's President, he 
would select based upon an assessment of the Navy's flag officers who 
could fulfill all four parts of this mission statement. Rear Admiral 
Wisecup believes in addition to strong leadership the President needs 
expertise at the operational level of war, a comprehensive 
understanding naval and joint warfighting, strategic level experience, 
experience in the international area, and credibility with the Navy's 
senior leadership,
    Rear Admiral Wisecup does not plan to retire at the completion of 
this tour although he serves at the pleasure of the CNO and the 
Secretary of the Navy. In fact two of the last three Presidents have 
not retired from this job.
    The Naval War College employs both a Provost, who is the chief 
operating officer and dean of faculty, and a Dean of Academics. Those 
positions provide the necessary educational and teaching expertise for 
the College's successful mission accomplishment. Thus, it is not 
essential that the president have academic or teaching experience.
    We recently conducted a selection process to select both the 
Provost and the Dean of Academics. Both executive positions were 
advertised in a number of scholarly journals including The Chronicle of 
Higher Education. Well qualified candidates were invited to undergo the 
interview process here at the College. The selection boards included 
retired senior flag and general officers, faculty members, and 
distinguished scholars from local colleges and universities.
    Dr. Snyder. How should intermediate schools attract top-tier 
civilian faculty? How do you specifically define top-tier? What are the 
elements that would attract the highest quality of faculty--tenure, 
copyright, resources, pay, ability to keep their government 
retirements, research and administrative assistance, etc.?
    Admiral Wisecup. Since the U.S. Naval War College PME faculty teach 
both the intermediate and senior courses, it is very difficult to 
answer this in simply an intermediate-level context. We believe we 
possess a top-tier civilian faculty consisting of a balance of academic 
scholars and retired professionals with superb experience supported by 
solid academic credentials. We believe both are necessary, especially 
at the intermediate-level, to perform the educational focus especially 
that required by USC Title X and CJCS Officer PME Policy.
    Many of our faculty's stalwarts today have invested most of their 
professional life in this College and its mission. We hired most of 
them as younger scholars of great promise, retained them, and nurtured 
them wherever possible. They grew into seasoned, top tier faculty 
members. What attracted most of them was the opportunity to intermix 
with a faculty replete with esteemed scholars and the concentrated 
expertise of their colleagues. We believe the lure of teaching 
graduate-level courses to unique professional students (rather than 
introductory courses to college students) was a major consideration for 
faculty interested in job satisfaction. Our competitive pay and 
generous benefits certainly contributed to their hiring. Accreditation 
also proved significant because it meant their professional time at NWC 
generally met established academic standards, offering opportunity to 
retain their professional path of development as a professor. Our 
emphasis on teaching and curricula development as our principal mission 
vice publishing is a bit of an impediment, but for younger scholars 
there is clear evidence that publishing while at NWC is not only 
possible but encouraged. In order to continue to attract and retain 
top-notch scholars, it is vital that we continue to allow faculty to 
copyright their work under the conditions that currently prevail at NWC 
and other top PME institutions.
    Attracting top tier, full professor faculty members from other 
civilian institutions has it challenges. Pay can be an issue. Likewise, 
the teaching and curriculum development responsibility can be an issue 
as it may compete with time for writing and research. For top tier 
civilian faculty members who have been practitioners, like retired 
State Department personnel, they must forfeit their annuity to join our 
faculty. Rectifying that would be most helpful in our continued search 
for such talent.
    Our current educational paradigm dates from 1972, when Admiral 
Stansfield Turner instituted the graduate-level case-study based, 
seminar model and expanded considerably the number of civilian scholars 
on the NWC faculty. Admiral Turner believed the faculty was the 
critical cog in a quality educational experience. To this day, we still 
contend our faculty is our center of gravity. As the College's 
``Guiding Principles'' from our Strategic Plan 2008-12 state ``The 
Naval War College's true strength lies in the creativity, energy, and 
intellectual capital of our people.'' And our values in that same plan 
include ``Academic Responsibility'' which ``means that one of our key 
duties as an academic institution is to `seek and state truth without 
bias.' Our faculty enjoys full freedom of dispassionate inquiry with no 
limitations other than adherence to security classification. Within 
this context, faculty members are expected to extend and transmit 
knowledge to their respective fields of expertise.'' In the ensuing 
thirty seven years since Admiral Turner transformed NWC, this critical 
value of the faculty is ingrained in the culture of the College.
    This value placed on the faculty also imparts great responsibility 
to them. They take pride in their ownership of the curricula and the 
academic programs. They drive themselves relentlessly to ensure what we 
teach remains challenging, current, and relevant. Our culture of self-
assessment begins with the faculty and permeates the institution. 
Continual improvement is the unspoken motto. First and foremost, we 
continue to thrive because the faculty knows the trust and confidence 
placed in them by the College's leadership. They accept fully the 
responsibility and are self-driven to excel. Continued mission success, 
not tenure, provides them job satisfaction and security. They, in turn, 
place their confidence and trust in the College's leadership to be fair 
and judicious in its actions toward them and the College's mission. As 
stated in our Faculty Handbook, ``The Naval War College expects all 
civilian faculty members whose primary duties are not primarily 
administrative to engage in professional research and exhibit a 
sustained commitment to scholarship. It expects most of them to publish 
at least some of the results of their research. Military members are 
not expected to publish, but are encouraged to do so in their areas of 
expertise.'' For civilian professors teaching in the three core 
academic departments, there are common elements in every faculty 
members' performance appraisal; teaching performance, curriculum 
development, research and publication, and service to the College's 
larger mission. Individual faculty members meet with their departmental 
Chairs and establish personal plans annually to develop more specific 
criteria for those common areas and any distinct areas relevant to the 
professor's performance. Additionally, the Faculty Handbook established 
criteria for consideration for promotion to the ranks of Associate 
Professor and Professor which includes research and publication 
expectations. Thus, their annual appraisals, their potential for 
promotion, and ultimately their reappointment rest, in part on their 
productive scholarship. Military faculty members are expected to 
research and contribute to curricula development and are judged in 
their appraisals accordingly.
    When the College revised its criteria for assignment of civilian 
professorial ranks and the criteria for promotion and published it in 
the Faculty Handbook, we publicly identified our key indicators of 
quality at each professorial rank. The specific criteria for promotion 
to the rank of professor best describe our standard for top-tier 
faculty. The criteria are ``excellence in teaching or research, not 
simply a satisfactory level of performance; significant contributions 
to either the NWC's educational mission or NWC's research, analysis, 
and gaming function; active engagement and visibility in the faculty 
members academic or professional community; significant productivity in 
scholarly publication or professional research; a consistent commitment 
in the faculty member's teaching and/or research, analysis, and gaming 
to fostering critical thinking from a joint perspective and cultivating 
the ability of students/officers to function effectively in a joint, 
interagency, and multinational environment; a demonstrated commitment 
to teamwork with other faculty members across the departments and codes 
of the Naval War College, and the ability to develop or advance new 
ideas that enhance the effectiveness and efficiency of both the faculty 
members department and the college as a whole.''
    Dr. Snyder. What are the policies at your school regarding academic 
freedom? What is its proper role in a PME setting without tenure? 
Describe how your faculty may be called upon to respond to press 
inquiries in the field of expertise and whether and how they are 
allowed to respond in a timely manner.
    Admiral Wisecup. The practice of academic freedom by faculty 
members at the U.S. Naval War College is robust. While the Congress, 
the Chairman of the Joint Chiefs of Staff, combatant commanders, and 
CNO are rightfully involved in professional military education policy 
and engaged in determining professional educational standards, the 
College's executive leadership has been successful in preserving the 
autonomy of the College and its faculty in deciding what to teach and 
how to teach it. Faculty members are allowed great scope for 
experimenting with different teaching methods and for expressing 
different points of view in the classroom. Aside from projects assigned 
to researchers in the Center for Naval Warfare Studies, faculty members 
have been free to choose the subjects of their research and writing.
    The Naval War College endorses the key elements of the 1940 
statement of principles on academic freedom issued by the American 
Association of University Professors, as quoted in the following three 
items:

    ``(a) Teachers are entitled to full freedom in research and in the 
publication of results, subject to the adequate performance of their 
other academic duties. . . .

    (b) Teachers are entitled to freedom in the classroom in discussing 
their subject, but they should be careful not to introduce into their 
teaching controversial matter which has no relation to their subject. . 
. .

    (c) College and university teachers are citizens, members of a 
learned profession, and officers of an educational institution. When 
they speak or write as citizens, they should be free from institutional 
censorship or discipline, but their special position in the community 
imposes special obligations. As scholars and educational officers, they 
should remember that the public may judge their profession and their 
institution by their utterances. Hence they should at all times be 
accurate, should exercise appropriate restraint, should show respect 
for the opinions of others, and should make every effort to indicate 
that they are not speaking for the institution.''

    (d) As employees of an educational institution in DoD, faculty 
members have obligations that go beyond those incumbent upon professors 
in civilian educational institutions. While the leadership of the Naval 
War College encourages faculty members to write, make speeches, and 
give interviews in any forum, they shall not reveal classified 
information. In expressing opinions they must issue explicit 
disclaimers that they do not speak for the U.S. Government, the 
Department of Defense, the Department of the Navy, or the Naval War 
College. Faculty members who are active-duty military officers are 
subject to the Uniform Code of Military Justice and must refrain from 
speech that is disparaging or contemptuous of public officials, 
insulting toward superior officers, harmful to good order and 
discipline in the military, or harmful to the interests of the United 
States.

    Hardly a week passes without Naval War College professors publicly 
expressing opinions and offering expertise on current political and 
military issues in a wide variety of mass media--television, radio, 
newspapers, magazines, and journalistic websites. Individual faculty 
members ensure this material contains a disclaimer identifying it as 
the opinion of the author and not the College. The College prides 
itself on respect for academic freedom; at the same time, the idea that 
the exercise of academic freedom should be informed in practice by a 
sense of responsibility is widely accepted among faculty members 
dealing with issues of great national and international importance. 
There have never been any allegations that a faculty member's contract 
was not renewed because of his views or opinions.
    Faculty members inform their departments when they have provided or 
are about to respond to press inquiries, interviews or expert advice. 
Individual faculty members know they can respond timely, but must, as 
with their written work, provide a verbal disclaimer to the interviewer 
that the opinions and positions represent the individual and not the 
College, the Navy or DoD. Previously, faculty members had to travel to 
Providence to appear on local or national television stations for 
interviews. Within the last few years, the College built a television 
studio on campus in which we now facilitate such interviews. The 
College has recently funded the appropriate equipment to send high-
quality broadcast audio from campus to support faculty radio interviews 
with the likes of National Public Radio or BBC.
    Dr. Snyder. Acquisition reforms all call for more of the general 
purpose forces to be educated and trained in understanding contracting 
and contractors. Civilians, contracting, and contractors on the 
battlefield--how much do officers, outside the acquisition workforce, 
need to know?
    Admiral Wisecup. Civilians, contracting, and contractors on the 
battlefield are an important part of the curricula at the U.S. Naval 
War College. Operational Contract Support was recently approved as one 
of the 2009 Joint Professional Military Education Special Areas of 
Emphasis. For planning and conducting military operations through the 
full spectrum of conflict, contractors on the battlefield are an 
integral part of the planning process and are included in our 
curricula. Contractors have been on battlefields during every major 
conflict of our nation's history.
    In the Joint Maritime Operations course, there is a specific 
session on contractors, Nongovernmental and Intergovernmental 
Organizations/Contractors in the Operating Environment. The focus of 
the session is getting students to know that an operational commander 
cannot ignore the presence of Nongovernmental Organizations (NGOs), 
Intergovernmental Organizations (IGOs), and contractors in the 
contemporary operating environment. Objectives for the session include 
comprehending the differences in culture between military, NGO/IGO, and 
contractor communities. Students analyze the impact these differences 
may have on building unity of effort throughout the phases of an 
operation. In seminar they explore the capabilities and requirements 
for NGO/IGOs and contractors operate under in the joint environment.
    This session also addresses the practical challenges and risks 
associated with civilian contractors in the contemporary operating 
environment. Students come to understand that contractors are employed 
by most U.S. government agencies, as well as by IGOs and NGOs. NGOs may 
also be contractors. All of them may also employ contracted security 
providers. This is nothing new or unusual--contractors in one form or 
another have almost always been present on the battlefield and at sea. 
In the seminar we note there is limited service doctrine (Army 
doctrine, largely addressing logistics contractors) and less joint 
doctrine governing contractors (only those accompanying U.S. armed 
forces). Nevertheless, no joint force commander can hope to plan and 
execute operations effectively without carefully considering 
contractors; especially with respect to their consequences for key 
operational functions, including command and control, operational 
security, force protection, and logistics. The presence of contractors 
in an area of operations also raises complex and mostly not yet 
resolved legal issues concerning Status of Forces Agreements, Rules of 
Engagement, and the Law of Armed Conflict, not to mention problems of 
fiduciary responsibility. Adding contractors to the mix makes the 
problem of maintaining unity of effort with other U.S. government 
agencies, NGOs, and IGOs even more challenging for the JFC. We ask 
students to consider, among others, these questions:

  What can a joint force commander do to mitigate the risks posed by 
        contractors, NGOs and IGOs?

  What considerations must be made for loss of capabilities provided by 
        contractors?

  What are the responsibilities of the joint force commander for 
        contractors in his area of operations (e.g., force protection)?

  How do contractors affect the management of operational security?

  In what ways do contractors alter the level of risk for the joint 
        force commander? Is the risk military, political, or both?

    Dr. Snyder. Explain the Naval War College's civilian tenure 
program.
    Admiral Wisecup. Though the U.S. Naval College does not employ a 
system of tenure and has no intention of doing so, it accords its 
faculty reasonable contractual security consistent with the College's 
mission. The process of retaining faculty is an open, orderly and fair 
one. The College continues to sustain its quality standard for faculty. 
As a practice, the College renews contracts as early as 364 days in 
advance prior to their expiration. All faculty members are notified at 
least six months prior to the expiration of their contract. As 
highlighted in the Faculty Handbook, in all but extraordinary 
circumstances, notification of non-reappointment will be given by 1 
December prior to the expiration of the contractual term.
    The retention rate at the College is quite high for faculty beyond 
the six year mark, when many colleges and universities begin to grant 
tenure. In fact, the College identified just the opposite problem, a 
graying faculty, several years ago. Job satisfaction is high among our 
faculty members who know they possess the significant responsibility of 
curricula ownership for a Navy's profession of arms and the obligation 
to prepare the future military leaders of this nation for the 
challenges ahead.
    Dr. Snyder. Have the Navy intermediate (College of Naval Command 
and Staff) and senior (College of Naval Warfare) courses been 
differentiated enough? Should they have been? They share a faculty. 
What are the challenges and benefits of that? Students also start at 
various times throughout the school year and are integrated with other 
students who have been there longer. What are the benefits and 
challenges of that?
    Admiral Wisecup. Yes, the Navy intermediate (College of Naval 
Command and Staff) and senior (College of Naval Warfare) at the U.S. 
Naval War College have been differentiated enough. Today, the 
intermediate courses taught by the Naval War College focus at the 
operational level of war and operational-level leadership. Building 
operational level expertise in the Navy is one of the key focuses of 
Admiral Gary Roughead, the Chief of Naval Operations. The College 
contributes by producing intermediate-level graduates who are planners 
skilled in applying operational art through the Navy and Joint planning 
processes, leaders with operational-level perspectives who have honed 
their critical thinking skills through a rigorous, academic program, 
and effective maritime spokespersons familiar with the range of 
challenges of operating in the maritime domain and are competent in 
employing naval capabilities in conjunction with other Service, other 
agencies, and partner nations to achieve strategic objectives in war 
and peace.
    The intermediate-level course, resident and non-resident, consists 
of three core academic programs: National Security Decision Making, 
Strategy and Warfare, and Joint Maritime Operations. Together these 
courses focus on developing the operational knowledge base, 
operational-level perspective, critical thinking skills, and leadership 
required to contribute on a major staff. The senior course focuses at 
the strategic level examining national strategic and theater strategic 
perspectives, issues, and challenges.
    One of the most significant challenges with a single faculty 
teaching both intermediate and senior level courses is that it takes 
much more time than previously to do curriculum development because the 
two courses are so different. In the past, because of their parallel 
nature, there was more time available for faculty professional 
development or other teaching responsibilities. Additionally, the 
learning curve for new faculty members is higher since they have to 
learn to teach two different courses.
    The chief benefit with a single faculty is that both courses are 
aligned well and changes to the curriculum can be made easily. Both the 
senior and intermediate courses complement each other and there are 
efficiencies created with a single faculty. It allows the faculty to 
provide a progressive education experience. Our faculty must also meet 
the higher CJCS and U.S.C. Title X standards required to teach the JPME 
II curriculum. As a result, our service mix for military faculty is 
more robust than required for schools and colleges teaching 
intermediate-level PME with JPME I. Moreover, the faculty has a more 
comprehensive appreciation of the joint educational requirements for 
both JPME I and JPME II and how they work together.
    Before September 11, 2001, it was only the Navy and Marine Corps 
students who started three times per year, a schedule devised to meet 
their Services routine rotational deployments. These options offered 
flexibility for school assignment within tight and demanding career 
paths built on a culture of command and operational expertise. 
Subsequent to September 11, 2001, all Services found that their 
operational tempo has driven the assignment process. Now all Services 
avail themselves of the opportunity to align student academic years 
with their operational tempo and start the academic year at different 
times. Students rotating back from Iraq and Afghanistan are not forced 
to wait until the next summer rotation to start the academic year. It 
provides efficiency of personnel assignment without markedly affecting 
educational effectiveness.
    There are challenges with students starting at various times during 
the school year. In most schools, reading and writing ability and study 
skills are honed during the first 8-10 weeks of the academic year. We 
do this on an ongoing basis since there are always students that have 
recently started the curriculum. Additionally, there is an 
administrative overhead incurred with three different starts. The Dean 
of Students conducts three orientations and three graduation ceremonies 
as opposed to a single orientation and graduation ceremony at most 
other institutions. The departments must also distribute the students 
equitably to ensure that a single seminar does not have all new 
students.
    In terms of curriculum, the faculty must develop stand-alone 
courses for each trimester. In terms of curriculum development, faculty 
must be very aware of the incoming student foundational knowledge base 
and must on occasion provide succinct foundational material to 
facilitate transition into the course. Faculty must guard against 
redundancy especially since the curriculum is only progressive within 
each finite trimester. Having worked this educational model for nearly 
three decades, the faculty has most of the kinks out and the systematic 
means to assess and keep the core curriculum distinct, aligned and 
complementary.
    There are also benefits with students starting at various times 
during the school year. One of the main benefits is that students have 
an opportunity to master and synthesize the curriculum reinforcing 
concepts during each trimester. The exchange between students is high 
as often incoming students learn from the other students in a variety 
of informal venues and forums. In fact, it closely parallels the 
paradigm of our civilian higher education system so students readily 
adjust. Acculturation is an integral aspect on an in-resident 
education. The daily interaction builds trust and confidence and 
establishes career-long and life-long associations and networks. Since 
our students change seminars each trimester, they closely associate 
with more of their fellow students as seminar mates extending their 
network of personal associates significantly more than their peers at 
other institutions. This process also enables them to meet three times 
as many their international and interagency classmates. Further, 
student gouge on courses and faculty passes readily between classes 
creating a sustained student memory not present in other PME schools 
and colleges. This lingering reputation positively affects the faculty 
and the staff who work hard to maintain positive reputations.
    Dr. Snyder. Please provide your school's mission statement.
    General Cardon. The U.S. Army Command and General Staff College 
(CGSC) educates and develops leaders for full-spectrum joint, 
interagency, and multinational operations and advances the art and 
science of the profession of arms in support of Army operational 
requirements.
    Dr. Snyder. How have ongoing operations in Iraq and Afghanistan 
affected the quality of military faculty members? What is your average 
tour length for military faculty members? Have the credentials of 
military faculty in terms of graduate degrees and JQO qualifications 
diminished during this period? What is the percentage of military 
faculty who are fully JQO qualified?
    General Cardon. Faculty either returning from combat or enroute to 
combat operations are not always sent to the Command and General Staff 
College (CGSC). The same can be said of students. The typical tour 
length is three years; it has shortened since 9/11 with the average 
tour being around two years. Military faculty continue to arrive with 
the appropriate credentials and experience, but some aspects of their 
preparation have changed. The officers we receive now have 
significantly greater experience based upon more time in service (more 
lieutenant colonels versus majors) and repetitive combat tours. They 
almost universally have graduate degrees, but because of past 
reductions in the Army's Advanced Civil Schooling programs fewer of 
them have experience in a residential graduate program. The one area of 
greatest change is with senior faculty members. A decade ago most of 
our department directors were former brigade commanders, but that is 
becoming the exception now rather than the norm.
    Approximately 7% of the ILE/JPME-I military faculty are JQOs. While 
this number may not be as high as we would like it, many of the 
officers returning from the combat zones have worked in a joint, 
interagency, multinational environment due to the demands of these 
wars. This means that while only 7% of our uniformed faculty are 
formally qualified, a much greater percentage has hands-on experience 
with joint, interagency, and multinational operations that can 
transferred into the classrooms.
    We are working very diligently to achieve a 30:70 ratio of military 
to civilian faculty at the Command and General Staff College. The true 
benefits of a mixed faculty entail differing perspectives to broaden 
the learning aperture of our students. While many of our civilian 
faculty are indeed retired military, we also hire purely academic 
faculty as well to ensure our academic credentials demonstrate our 
commitment to excellence. Two challenges affect the quality within this 
target ratio. First, the current demands of the war preclude the 
sustained assignment of our best and brightest officers. Second is the 
challenge of recruiting and retaining the top tier faculty because of 
our commitment to teaching. Publishing and research are more difficult 
with the teaching loads required at military schools, and restrictive 
copyright laws make us less attractive to many scholars.
    Dr. Snyder. Are the services and agencies filling their assigned 
billets for faculty? What are your gaps?
    General Cardon. The Services are providing as many faculty and 
staff as they can spare because most are in the Contemporary Operating 
Environment. The personnel provided are qualified, dedicated 
professionals who take the mission of educating officers seriously.
    A current snapshot shows we currently have 275 civilian faculty 
members, 249 of which have active duty experience that sums to more 
than 4,700 years of service. The military faculty projected for this 
summer consists of 90 Army and 17 sister service (10 Air Force, 4 Navy, 
and 3 Marine). Within our civilian faculty, 32 served in our sister 
services, which yields a comparable joint representation in the 
civilian faculty.
    Our sister services, to their credit, continue to send highly 
qualified officers to the Command and General Staff College as faculty, 
for they also see a clear benefit to the joint force in doing so. The 
recent selection of the Air Force Element and Navy Element Commanders 
for command is indicative of this level of quality. However, there are 
indications the services cannot sustain this effort and still meet 
service and joint requirements. Further, this creates a second order 
effect by decreasing the number of viable career officers with 
potential for further promotion, thus degrading the quality of faculty. 
When the issue of the JDAL position changes in the NDAA is added to the 
other stresses that our sister services face, this could lead to the 
assignment of officers at the Command and General Staff College who are 
not promotion eligible and don't represent the best their service has 
to offer. This will be discussed in more depth in question #7.
    We currently have three Interagency faculty members who serve full 
time on our faculty. Representatives from the Central Intelligence 
Agency, the Department of State, and the National Geospatial Agency 
occupy exchange billets with the College and act as subject matter 
experts for our students and faculty, along with providing a conduit 
for information to and from the agencies they represent. This 
capability has shown great potential and our faculty would be greatly 
strengthened if more agencies would build in the capacity for a regular 
exchange at the intermediate level staff colleges.
    Dr. Snyder. To what extent has the curriculum enhanced its coverage 
of Stability, Security, Transition, and Reconstruction (SSTR) 
Operations given that DOD has put them on a par with combat operations?
    General Cardon. The Command and General Staff College (CGSC) has 
enhanced its curriculum in regards to SSTR (Stability Operations). 
CGSC's U.S. Army Full-Spectrum Operations (FSO) Curriculum balances 
combat operations and SSTR doctrine and application exercises. The 
course curriculum is presented in two major portions: Intermediate 
Level Education (ILE) Common Core and the Advanced Operations Course 
(AOC).

ILE COMMON CORE

    The Department of Joint, Interagency, and Multinational Operations 
(DJIMO) introduces the concept of SSTR in its Joint Functions and 
Capabilities lessons (C302/4/5/7/8). These lessons review the functions 
and capabilities of the Army, Navy, Marine Corps, Special Ops, and 
Multinational Ops.
    The Center for Army Tactics (CTAC) conducts a 3 hour class--C422 
Full Spectrum Operations (3 hours)--dedicated to studying the Army's 
role in SSTR. The Department of Command and Leadership (DCL) curriculum 
includes 6 hours using case studies from contemporary full spectrum 
operations to prepare leaders to operate effectively in complex, 
uncertain operational environments.

AOC

    This course provides greater emphasis on FSO and the balance 
between combat operations, SSTR, and the important transitions between 
them. Specific areas of instruction include:

    Campaign planning (67 hours). This area focuses at the operational 
level of war and includes SSTR planning and execution. The block 
concludes with a four day planning exercise totally focused on Phase IV 
Stability Operations and includes multinational, interagency, and joint 
force interactions.

    Full-Spectrum Operations (150 hours). This area focuses on land 
operations at the tactical level of war. This block includes 64 hours 
devoted to SSTR in a complex operational environment. The remaining 86 
hours are focused on conventional operations, but includes transitions 
and stability operations planning as a part of full spectrum 
operations.

    Force Generation (36 hours). This area focuses on how Army forces 
are generated, trained, readied, and prepared to conduct full-spectrum 
operations including both combat operations and SSTR.

    Historical analysis (16 hours). The Department of Military History 
(DMH) modified its H300 Block, Roots of Today's Operational 
Environment, to study several historical SSTR related events/periods.

    Leadership Case Studies (6 hours). The DCL curriculum uses case 
studies from contemporary operations (FSO) to prepare leaders to 
operate in the contemporary environment.
    Dr. Snyder. Describe the scenarios that you use for your simulation 
exercises and war games. To what extent do they incorporate SSTR and 
irregular warfare concepts?
    General Cardon. The ILE Common Core Course culminates with two 
application exercises that provide basic insights into Full Spectrum 
Operations, including Stability, Security, Transition, and 
Reconstruction (SSTR) and irregular warfare. The main focus of these 
exercises is on planning skill development using both Joint and Service 
doctrinal planning tools. They are foundational in nature. The 
instructional operating environment is hybrid, but the focus is on the 
skills needed in any environment.
    The Advanced Operations Course (AOC) O199 exercise is a ``whole of 
government'' approach. It is a 24-hour Joint Operational Level Planning 
exercise entirely focused on planning for actions, after major conflict 
operations have ended, through the transition to local national civil 
control. This exercise simulates the actions of a Joint Force Land 
Component staff planning SSTR operations in an environment where hybrid 
warfare (irregular warfare in which some of the insurgent fighters have 
technologically advanced systems) is occurring. The challenge for the 
students is to visualize what the operational environment will be based 
on a post conflict scenario, where there are remnants of conventional 
forces operating as well as insurgent activities and large displaced 
populations. The compound and complex situation includes a weak to non-
functioning infrastructure, environmental concerns, a large number of 
non governmental agencies as well as cultural and social challenges 
between all the various players. The students are to develop a ``whole 
of government'' approach to the situation where there are multiple 
levels of transition from military to civilian control of operations as 
well as local to national level host nation transition of authority and 
control. The students face a resource constrained situation where they 
must plan to work with local authorities to restore the rule of law, 
provide essential services and train and prepare the host nation forces 
to work without significant outside support. The exercise is not 
computer supported, but rather a planning exercise developing a 
workable resourced-constrained concept in a limited timeframe.
    The AOC O399 exercise is a 36-hour practical exercise entirely 
focused on planning and executing actions envisioned during the O199 
exercise. This exercise simulates the actions of a Brigade Combat Team 
planning and executing SSTR operations in a hybrid warfare environment 
that is facing and reacting to the challenges identified in the O199 
exercise, including those of the integration of ``Other U.S. 
Governmental Agencies'' (Whole of Government) as well as local official 
and unofficial leadership and non-governmental agencies. The College is 
piloting with several possible computer support tools and simulations 
but no decision has been reached. The simulation exercises for both of 
these courses are supported by Interagency faculty resident at the 
College, augmented by personnel from their agencies. Our Distinguished 
Professor of National Intelligence Studies, a CIA position, provides 
support to these exercises in the operational and strategic use of 
intelligence and the exchange faculty member from NGA, along with 
augmentation from his agency, supports student requests for imagery and 
geospatial data. Other Interagency partners are being solicited to 
provide support to these exercises in the future.
    Dr. Snyder. Please provide the most recent survey results from your 
graduates and their supervisors.
    General Cardon. In January 2009, the U.S. Army Command and General 
Staff College (CGSC) surveyed 9,910 Intermediate Level Education (ILE) 
graduates from academic years 2006-2008. The number of respondents was 
3,476 graduates. Graduates indicated that CGSC met ILE purposes and 
missions; the 31 ILE-Common Core learning objectives; the six common 
Advanced Operational Warfighting Course (AOWC) learning objectives; the 
four Joint Advanced Warfighting Seminar (JAWS) track learning 
objectives; and the three W300 (Brigade Combat Team Operations) 
objectives.
    The summary report of our most recent graduate survey is attached 
for the committee's use.
    CGSC has not done a supervisor survey in the last year.
    [The information referred to is retained in the committee files and 
can be viewed upon request.]
    Dr. Snyder. The intermediate level schools lost Joint Duty credit 
for their non-host service military faculty in the 2007 National 
Defense Authorization Act. We know that the tours of those who were 
grandfathered are ending. What will the effect of this be? How will it 
affect the quality of your faculty? How important is it that these JDAL 
positions be restored? Do the instructors truly get a joint experience? 
[Question #7, for cross-reference.]
    General Cardon. We recognize the value of the civilians teaching at 
the Command and General Staff College (CGSC), but also must convey the 
essentiality of military faculty. Army officers with the right 
education and experience are the lifeblood of the College. The Officer 
Professional Military Education Policy (OPMEP) process has provided 
CGSC the joint service officers critical to infusing the joint service 
perspective into the Army's school house. However, with the NDAA of 
2007 a change was made to the rules for granting joint credit to non-
host faculty teaching at CGSC. These billets were previously on a list 
of assignments receiving joint duty credit (JDAL) and from the 
College's standpoint this was both necessary and appropriate. This JDAL 
listing made teaching at CGSC attractive for sister service faculty 
because it assured them joint credit. There is now a different system 
in place which removes the JDAL status for our sister service slots. 
The new process does allow officers assigned to CGSC to apply for this 
credit after the fact, but joint officers consider the previous system 
much better, which influences their interest in coming to Ft. 
Leavenworth. The second related issue is more critical. Because our 
sister service faculty positions were dropped from JDAL status they are 
a much lower fill priority for the Air Force, Marines, and Navy. They 
are not `must fill' jobs. Recommendation 2 from the Skelton Report 
emphasized the criticality of recruiting and retaining a high quality 
faculty; having these positions on the JDAL better achieves this goal 
than the changes made with the NDAA of 2007. The Military Education 
Coordination Council (MECC) unanimously supports returning all sister 
service joint teaching billets to the JDAL.
    We truly appreciate the opportunity to address the impacts of 
change in rules for joint duty authorization list credit for non-host 
military in joint professional military education schools. This change 
directly impacts the quality of instruction for our officers attending 
Intermediate Level Education. This is all the more relevant given that 
all Command and General Staff College equivalent PME rates Joint 
Professional Military Education I accreditation. As discussed at the 
Military Education Coordination Council chaired by the Director of the 
Joint Staff, all members agreed that we need to revisit this critical 
issue. The impact from revising National Defense Authorization Act 
(NDAA) of 2007 on joint duty authorization list credit is two-fold. 
First, this change eliminates a powerful incentive for officers from 
these services to view this assignment as both developmental and career 
enhancing, thus narrowing the aperture of highly qualified officers. 
Second, because our sister service faculty positions were dropped from 
joint duty authorization list status they are a much lower fill 
priority for the Air Force, Marines, and Navy. They are not `must fill' 
jobs. Therefore, given the current strategic environment and its 
inherent joint, interagency, and multinational nature, we request 
Congress authorize joint credit for non-host faculty positions in joint 
professional military education schools.
    Dr. Snyder. Describe your school's use of historical case studies 
to teach strategy.
    General Cardon. The Department of Military History teaches a 
required 60-hour military history curriculum designed to contribute to 
historical consciousness, critical thinking, and problem-solving skills 
at the strategic, operational, and tactical levels of war for Field 
Grade Officers. This curriculum consists of three discrete blocks that 
address, respectively, the evolution of the Western Way of War, 
Military Innovation and Transformation, and the Roots of the 
Contemporary Operating Environment. Each block focuses on history, 
theory, doctrine, and application within the three main themes 
addressed, using history to illuminate and inform the contemporary 
challenges that the Officers will face when they graduate and go back 
into the field. In addition to the Military History curriculum required 
of all students, the Department of Military History also offers a slate 
of 36 electives.
    The Department of Joint, Interagency and Multinational Operations 
(DJIMO) teaches a 34-hour block of instruction on the Strategic 
Environment. The block includes a case study on the 1956 Suez Crisis. 
The case study addresses the political background and military planning 
leading up to and including the July-November 1956 crisis. The actions 
by Egypt, France, Britain and Israel resulted in an uncoordinated 
series of attacks, with frequent disconnects between national political 
authorities and their military subordinates as well as between the 
vital interests of different nation states. This lesson has three 
purposes: (1) enhances student understanding of the complexities and 
ambiguities at the strategic level of war and the inter-relationships 
between decisions made at the strategic and operational levels; (2) 
reinforces an appreciation of the value of military history as a 
professional tool, developed throughout the H100, History block of 
instruction; and (3) serves as an opportunity to apply the concepts of 
ends-ways and means. The lesson further challenges the students to 
assimilate much of what they learned throughout the Strategic 
Environment block of instruction.
    Dr. Snyder. What is the process for renewal and non-renewal of the 
faculty? How transparent is the system? In a tenure system people think 
the faculty members have all the power, in a non-tenure system it 
appears that the school has unlimited power. How do you avoid these 
extremes?
    General Cardon. Title 10 faculty members are initially appointed to 
two year term contracts, with the first year being a probationary 
period. Upon successfully meeting the requirements of the probationary 
period, faculty members are eligible for reappointment at the end of 
their initial contract to term contracts of greater lengths, depending 
on their level of performance. Term contracts can be from 1-5 years, 
with 3 years being the standard contract for those that meet College 
requirements.
    Title 10 faculty members who do not meet the performance standards 
set by their immediate leadership team may not be eligible for standard 
term contracts and may be offered contracts of lesser duration or no 
contract at all. This can be true at the completion of the initial two 
year contract or at the conclusion of any successive term contract. 
Contracts of lesser duration than the standard indicate performance 
that is below the expected level and carries with them the assumption 
that performance must be brought up to standards by the next renewal 
period. Failure to meet performance standards by the end of the non-
standard contract may result in non-renewal of Title 10 employment and 
termination. Contracts of greater duration than the standard indicate 
performance that is above the expected level and carries with them the 
distinction of superior performance.
    Title 10 faculty members apply for reappointment not earlier than 
nine months and not later than six months before the end of their 
current contract. The application for reappointment is staffed 
beginning with the faculty member's immediate leadership and through 
the appropriate channels to the Deputy Commandant, who approves all 
reappointment actions.
    If an initial appointment is not renewed, the school director will 
make a reasonable effort to provide three months advance written notice 
of the decision to the affected faculty member. If a subsequent 
appointment is not renewed, the director will make a reasonable effort 
to provide six months advance written notice of the decision to the 
affected faculty member.
    These procedures are outlined in our Faculty Manual (dated 2008), 
so that every member of the faculty knows the policies and procedures 
for contract renewal early on in their employment. The process allows 
for remediation with short duration contracts if the leadership 
believes a faculty member has shortcomings that must be addressed to 
meet College standards. Final decisions on all renewals or non-renewals 
are made by the College's Deputy Commandant, after detailed review and 
recommendation of the academic leadership up through the Dean of 
Academics.
    Our mix of faculty includes military, Title 10, and Title 5 
civilians. The military provide us currency and are not truly involved 
in the renewal discussion. The Title 5 civilians are the closest thing 
we have to tenured faculty members. Serving at the GS-12 through 14 
grades, they do not require contract renewal and have provided academic 
continuity for the College for many years. There are less than 10 of 
these individuals left on the faculty, but they continue to serve as 
senior faculty members in both Intermediate Level Education (ILE) and 
the School of Advanced Military Studies (SAMS). The bulk of our faculty 
are Title 10 civilians, the population that this question mainly 
addresses. They are contract faculty, similar to many faculty members 
at civilian institutions, who serve 1-5 year contracts. By law, they 
can be released at the end of their contract, but by custom at the 
College they serve as long term members of the faculty. There is 
occasionally consternation from some Title 10 faculty members as to 
their status whenever the Army looks at possible changes to the ILE 
program, but the majority of these faculty members get on with their 
duties confident that if they perform well in the classroom they will 
be given the continuing opportunity to serve. One step that has been 
taken to try and relieve any faculty consternation and avoid the 
extremes mentioned in the question is to also hire the senior academic 
civilians in the College using the Title 10 authority. The Dean of 
Academics and Associate Dean of Academics are both Title 10 faculty 
members, as are the Directors of the Department of Command and 
Leadership and Department of Military History. By creating a single 
system through which the faculty and their civilian academic leadership 
are all in the same renewal process, the College avoids the perception 
of a have and have-not system of extremes within the institution.
    Dr. Snyder. What is your school's role in identifying promising 
officers with the potential for high-level strategic thinking at the 
appropriate point in their careers?
    General Cardon. The School of Advanced Military Studies (SAMS) 
mission is to educate future leaders of our Armed Forces, our Allies, 
and the Inter-Agency at the graduate level to be agile and adaptive 
leaders who think critically at the strategic and operational levels to 
solve complex ambiguous problems. The School runs two programs. One is 
a Senior Service College (SSC) Fellowship titled the Advanced 
Operational Art Studies Fellowship (AOASF) with the role to educate 
future leaders of our Armed Forces, our Allies, and the Inter-Agency at 
the graduate level to be agile and adaptive leaders who think 
critically at the strategic level to solve complex ambiguous problems. 
The second program is the Advanced Military Studies Program (AMSP) 
which educates future leaders of our Armed Forces, our Allies, and the 
Inter-Agency at the graduate level to be agile and adaptive leaders who 
think critically at the operational level to solve complex ambiguous 
problems.
    The military officers who attend the AOASF must have been selected 
through their service's process and board for senior service college 
(SSC) attendance. SAMS recruits for AOASF students from the published 
SSC list. Military officers who volunteer to attend the AMSP compete in 
a rigorous selection process which concludes with a local Command and 
General Staff College (CGSC) board. After volunteering, the individual 
competes in a selection process which begins with the Intermediate 
Level Education (ILE) Staff Group Advisors (SGA) preparing an 
evaluation of the student's potential. Applicants also take an entrance 
exam composed of objective questions and essay questions. The SGA 
evaluation and applicant's exam results are then reviewed by SAMS 
senior leaders, who subsequently conduct personal interviews with each 
applicant. This initial effort produces a board file with: Officer 
Record Brief, individual's application & goals statement, entrance exam 
score and essay, SGA evaluation, applicant interview sheet, and letters 
of recommendation. The CGSC board, composed of colonels and civilian 
PhD faculty, conduct an objective review of each file over a week, to 
produce an Order of Merit List (OML). This overall effort is similar to 
formal Department of the Army selection boards and enables the command 
to identify and select the most qualified officers for SAMS. The OML is 
subsequently forward from the Commandant, CGSC to HQDA G1, G3, and the 
Human Resources Command CG for final approval.
    Dr. Snyder. How do you specifically measure the quality of the 
faculty and staff in the PME environment?
    General Cardon. In response to this question, let us first deal 
with the quality of faculty. The Command and General Staff College 
(CGSC) monitors the quality of its faculty both systemically and 
individually. From a systemic point of view, CGSC adheres to Joint 
Professional Military Education (JPME) guidance to ensure the requisite 
number of instructors from the other services and complements that mix 
as possible with selected specialists from other agencies. In addition, 
CGSC also employs a small number of exchange instructors from other 
armies such as Canada, Australia and the United Kingdom. The range of 
mixture of requisite faculty specialties and credentials figures 
directly in the hiring process in order to yield a composite faculty 
that meets institutional needs.
    CGSC manages the quality of individual faculty in two distinct 
stages based on initial hiring and subsequently on performance. Initial 
hiring is based upon the requirements for each specific faculty 
position. Some teaching positions, such as in the Department of 
Tactics, place a premium on relevant experience in the field but also 
require at least a master's degree. Other positions, such as those in 
the Department of Military History, place more emphasis on formal 
academic credentials. Accordingly most of our historians hold a 
doctoral degree and have a track record of research and publication.
    Measurement of faculty quality performance after hiring is shaped 
by our Faculty Manual. The Faculty Manual identifies four domains of 
performance for faculty members and lays out the expectations of 
faculty members based upon their academic rank. The four domains that 
we use would look very familiar to faculty members at most academic 
institution and consist of Teaching, Scholarship, Service, and Faculty 
Development. First of all, because CGSC is foremost a teaching 
institution, excellence in classroom instruction is paramount. CGSC 
employs peer observation of teaching as well as student surveys to gage 
the performance of faculty in the classroom. Input from each of these 
sources offers instructors constructive advice on how to improve. While 
teaching makes up the largest part of any faculty member's performance 
evaluation, the other three domains require attention. Faculty members 
are expected to contribute to the scholarly and professional body of 
knowledge in their discipline, be it tactics or history. As faculty 
progress through the ranks towards Associate Professor or Professor of 
Discipline, publication will become a more important part of their 
evaluation. In the same vein, all faculty members are evaluated in the 
areas of service and faculty development, as defined in the Faculty 
Manual, but these requirements grow as faculty members become more 
senior.
    In turn, the measurement of staff performance corresponds to the 
specific requirements of each position as well as to the rules under 
which each hiring action occurred, whether under General Schedule, the 
National Security Personnel System (NSPS), or Title 10. Senior staff 
positions requiring some knowledge of the functioning of academic 
institutions may demand a combination of academic as well as 
administrative or managerial experience. Each staff job description 
specifies performance career criteria in the form of job objectives 
against which results can be evaluated on an annual basis.
    Dr. Snyder. How were you chosen to be school's commandant? How was 
your dean chosen? Will you be retiring from this job? What background 
should the Chief of Naval Operations be looking for in selecting 
individuals for these positions? Should the focus be on operational 
leadership skills or academic and teaching experience (not instructing 
in a training institution) background or both?
    General Cardon. The Deputy Commandant is chosen as part of the 
general officer assignment process lead by the Army Chief of Staff. I 
will not be retiring from this job. The Dean of Academics was chosen 
after a nationwide academic search. A hiring panel, made up of senior 
members of the College leadership and members from the Army War 
College, interviewed final candidates and recommended a candidate to 
the Deputy Commandant and Commandant. The final decision was made by 
the Commandant, at that time GEN Petraeus. The Dean's position is 
focused on the academic and teaching experience; in this case the Dean 
spent over 15 years on the faculty at the United States Military 
Academy and had an outstanding national reputation as a scholar and 
administrator. The Deputy Commandant's position requires less of a 
focus on academic expertise and more on the operational leadership 
skills and experience. The Deputy Commandant is responsible for the 
content of the programs at the College and, as such, must have the 
recent experience necessary to guide the modification and maturation of 
the curriculum in relation to the Army's mission. While the Dean 
provides advice and counsel on the systems and methods of curriculum 
change and faculty management, the Deputy Commandant must be the 
guiding force at the College who represents the Chief of Staff and the 
Commandant in forming the right programs to meet the Army's current and 
future needs.
    Dr. Snyder. How should intermediate schools attract top-tier 
civilian faculty? How do you specifically define top-tier? What are the 
elements that would attract the highest quality of faculty--tenure, 
copyright, resources, pay, ability to keep their government 
retirements, research and administrative assistance, etc.?
    General Cardon. The ongoing challenge for the Command and General 
Staff College (CGSC) is to attract top-tier faculty who meet highly 
specific institutional needs. Overall, CGSC is successful in 
identifying and hiring highly qualified faculty members due both to 
actively advertising position openings and its reputation across the 
military community as a good place to work.
    CGSC defines top-tier according to position requirements. Top-tier 
for a tactics instructor may well mean that the individual has 
experience in battalion command or as a brigade-level staff officer. In 
addition, the individual should have earned at least a master's degree 
sometime during his or her career. Most CGSC faculty positions fit this 
general paradigm and require significant experience as an officer in 
one of the armed services. Thus, the competition for their services 
will come less from civilian academia than from other Intermediate 
Level Education (ILE) institutions or civilian contractors. The pool of 
individuals with the requisite mix of career experience and academic 
credentials is limited. Tenure, pay, and retirement benefits all figure 
heavily in successful recruitment.
    Of course, there are some positions, especially those related to 
military history, international security, or strategy, in which CGSC 
must often compete with civilian academia. In such instances, the 
relative importance of tenure, research opportunities, or the ability 
to copyright and publish one's work increases. CGSC has generally found 
that its salaries, especially at entry level, are quite competitive 
with those in civilian academia. However, in contrast to a typical 
system of civilian university tenure, the Title 10 system for faculty 
hiring provides only for renewable, term appointments. Nevertheless, 
CGSC has a commendable record to date of keeping the overwhelming 
majority of high-performing teaching faculty.
    Another challenge in hiring and retention stems from the higher 
classroom teaching loads generally expected of CGSC faculty. 
Accordingly, the time available to focus on research is less than it 
would be at typical civilian research universities. Therefore, 
expectations concerning publication align more closely with those of 
small liberal arts or teaching-focused colleges. As a result, CGSC 
considers top-tier faculty in these fields to be outstanding teachers 
who have proven their ability to research and publish and are 
recognized in their respective fields. The opportunity to publish has 
remained a bit problematic because federal law denies federal employees 
the right to copyright work that has been accomplished during 
government duty time. In other words, in order to retain the freedom to 
dispose of a given work as the author wishes, it is necessary for him 
or her to complete this work outside of duty hours and not use any 
government facilities or equipment. Not surprisingly, this rule clashes 
with the expectations of many faculty in civilian academia who are 
accustomed to the unencumbered right to publish freely.
    Dr. Snyder. What are the policies at your school regarding academic 
freedom? What is its proper role in a PME setting without tenure? 
Describe how your faculty may be called upon to respond to press 
inquiries in the field of expertise and whether and how they are 
allowed to respond in a timely manner.
    General Cardon. Like most civilian academic institutions, the 
Command and General Staff College (CGSC) subscribes to the American 
Association of University Professors (AAUP) official statement on 
academic freedom. In practice, CGSC determines the general 
configuration and learning objectives of the curriculum, but leaves it 
up to individual instructors to shape all classroom dialogue. CGSC 
remains wholly committed to an environment of open, critical 
discussion.
    As for dealing with the press, CGSC invites all faculty members to 
respond to press inquiries, as well as to submit letters to the editor 
or participate in online discussions. The College asks only that 
faculty members observe federal law with respect to the release of 
sensitive or classified information and that they apprise the Public 
Affairs Office of formal interviews with members of the press.
    Dr. Snyder. Acquisition reforms all call for more of the general 
purpose forces to be educated and trained in understanding contracting 
and contractors. Civilians, contracting, and contractors on the 
battlefield--how much do officers, outside the acquisition workforce, 
need to know?
    General Cardon. The officers' education should cover all aspects of 
operational contracting support as it relates to the requirements of 
being a Field Grade Officer. This education should include his/her 
understanding on how to manage Logistics Civilian Assistance Program 
(LOGCAP) operations. They first need to understand why the Gansler 
Commission Findings were initiated and what was found to be an issue 
throughout the force. Each student should be educated on the different 
``colors'' of money and how they are allocated by law, such as 
Operations, Maintenance, and Acquisition (OMA), Commanders Emergency 
Response Program (CERP), and specific funding lines. Additional 
education in the contracting arena is required to understand 
contracting from the perspective of how to manage contracting officers 
and contracting representatives in their respective units. This would 
include: Joint and Army Contracting command and control architecture; 
Theater contracting command and control architecture; understanding how 
the joint acquisition review process and the Coalition Acquisition 
Review Board (CARB) validates requirements; how to interpret a 
contracting support annex in a theater; understanding the intrinsic 
aspects of Money as a Weapons System; CERP; understanding the 
contracting process in a theater of operations; being able to develop a 
performance work statement (statement of work); how to develop an 
Organizational Needs Statement (ONS) and finally how to manage 
contracting support of our Brigade Combat Team (BCT) which would 
include hiring, accounting for funds and managing the Brigade 
Contracting Officers Representatives (CORs).
    Dr. Snyder. The Universal Intermediate Level Education program has 
put a strain on the other services to provide sufficient instructors 
and students. Has this initiative watered down the joint experience for 
those officers attending?
    General Cardon. The resident faculty mix of Army and other Military 
Department Faculty meets the requirements of Chairman of the Joint 
Chiefs of Staff Instruction (CJCSI) 1800.01B, Officer Professional 
Military Education Policy (OPMEP). The Command and General Staff School 
(CGSS) teaches in staff groups (seminars) of 16 students. Under the 
CGSS model which is based on the OPMEP rules, each staff group should 
include one sea and one air service officer. Resident Class 09-02 
currently in session and Class 10-01 scheduled to begin 10 August, 
include a total of 92 staff groups. Class 09-02 is short two sea 
service officers and 10-01 will be short one Air Force officer and 
eight sea service officers. CGSS mitigates shortages to the extent 
possible. No staff group is without both sister service students and 
all staff groups short a sister service officer have an interagency 
student. This helps ensure diversity and different perspectives during 
seminar discussions. Also, to the extent possible, sister service 
faculty members are assigned to the staff groups without sister service 
students. Although we know service mix is vitally important, we believe 
mitigation efforts have reduced the impact of shortages. For a number 
of reasons the policy Universal Intermediate Level Education is 
currently being reexamined by the Army. Our ability to meet the OPMEP 
standards at CGSS is certainly important concern for the Army, but 
there are other issues within the current operation tempo that also 
must be addressed to assure that the Army is providing its future 
strategic leaders the best possible education.
    Dr. Snyder. What opportunities do your students have to study 
language and culture?
    General Cardon. We at the Command and General Staff College (CGSC) 
have begun our analysis of what are the needs for officers over the 
next ten years. As a product of our self-assessment, there are a number 
of initiatives in military education ongoing at CGSC, one of which is 
the teaching of language and culture. The Army now has a strategy for 
addressing the development of culture and language skills within the 
service. CGSC has already added more cultural education and created 
language opportunities. Culture is part of the foundation curriculum 
required for all Army majors. Further, of eight required electives, 
every student must take at least one from a list of approved cultural 
electives, usually a regional studies course. After this initial 
volley, culture becomes a component of the integrated curriculum 
discussed in my previous testimony. Students learn to conduct cultural 
analysis to address the impacts of culture on military operations, 
particularly as they practice or exercise their planning skills using 
scenarios crafted to require cultural understanding.
    Teaching language as an additional subject in a 10-month 
warfighting course is an educational challenge. Consider that Defense 
Language Institute Foreign Language Center (DLIFLI) courses to bring 
students to a rudimentary working level of proficiency are all 
immersion experiences lasting from nine months to over a year, 
depending on the relative difficulty of the language. Language 
instruction is needed at CGSC, but must be prudently implemented. In 
January 2006, CGSC implemented Iraqi and Pashto language 
familiarization programs for students who upon graduation would join 
units deploying in support of Operation Iraqi Freedom (OIF) and 
Operation Enduring Freedom (OEF). CGSC developed these programs with 
the support of DLIFLC. They helped develop the concept and provided 
native-speaking instructors. Currently, CGSC offers operational 
language familiarization classes in Iraqi dialect Arabic and Dari. 
These are the prominent languages used in current operations and are 
consistent with Military Training Team (MiTT) language training 
conducted at Ft Riley, KS. The 48 hour mandatory courses prepare 
students for OIF/OEF deployment assignments. The courses not only 
introduce students to Iraqi and Dari languages, but also Arab and 
Afghan interpersonal cultural. The course increases awareness of 
cultural norms, values, customs and events. Since the 2006 elective 
term, all students can enroll in self-study language electives to study 
a language of their choice (self development) using Rosetta Stone, 
available through Army Knowledge Online (AKO). Students may choose from 
any of the languages offered in Rosetta Stone online through Army E-
Learning (Arabic, Chinese, Danish, Dutch, Farsi (Persian), French, 
German, Greek, Hebrew, Hindi, Indonesian, Italian, Japanese, Korean, 
Dari, Polish, Portuguese, Russian, Spanish, Swahili, Swedish, Tagalog, 
Thai, Turkish, Vietnamese, Welsh). In April 2008, CGSC developed a 
strategic language program that allows students to study Chinese, 
French, Spanish or Modern Standard Arabic (MSA) in a modified year-long 
program employing directed self-study, distance learning, and resident 
instruction conducted by DLIFLC instructors. Students acquire basic 
knowledge of the language in listening, speaking, reading and writing, 
to include the basic grammar, syntax and cultural information.
    Dr. Snyder. What is the impact of not being able to hold copyright, 
especially on civilian faculty?
    General Cardon. The inability to hold copyright has in some 
instances acted on a constraint on faculty publication. For example, a 
faculty member who intends to publish with an academic press must do 
the writing on his or her own time. Alternatively, work done on duty 
time must be offered to a government press for first right of 
publication. Whether or not a government press chooses to publish the 
work in question, the inability to copyright is an impediment to 
outside publication since all academic and commercial publishers expect 
to copyright the works they publish. Thus, in order to meet legal 
requirements, a work initially authored on duty time must undergo 
substantial revision outside of duty time to be considered 
copyrightable. Needless to say, many civilian faculty chafe under this 
restriction and consider it a deterrent both to research and 
publication. While we have no specific evidence of this affecting the 
employment decisions of prospective civilian faculty has been noted, it 
could be perceived as a deterrent if we are in competition with a non-
government academic institution.
    Dr. Snyder. What expanded Title 10 authorities are needed?
    General Cardon. Current Title 10 authority has, thus far, been used 
extensively in Intermediate Level Education (ILE) to meet our mission 
requirements. For Professional Military Education (PME) overall, the 
largest problem with Title 10 authority is the requirement in the law 
that a course be 10 months in length to qualify for Title 10 faculty. A 
relaxation of this requirement would permit a broader use of the Title 
10 authority to meet faculty needs.
    Dr. Snyder. Please provide these two documents: 1) CGSC Student 
Text 2010, Master of Military Art and Science (MMAS) Research and 
Thesis, August 2007 and 2) Master of Military Art and Science (MMAS) 
Program Information, August 2007.
    General Cardon. The latest version of the two referenced documents, 
updated for the class beginning in February 2009, is attached for your 
use.
    [The information referred to is retained in the committee files and 
can be viewed upon request.]
    Dr. Snyder. Please provide your school's mission statement.
    General Jackson. Air Command and Staff College's (ACSC) current 
mission statement is to prepare field-grade officers to develop, employ 
and command air, space and cyberspace power in joint, combined and 
multinational operations. ACSC reviews the mission statement as a part 
of its strategic planning processes to ensure it is focused on 
producing agile, critical thinkers to meet future challenges. Based on 
the latest review the statement is being changed to prepare field-grade 
officers to develop, employ and command air, space and cyberspace power 
in joint, multinational and interagency operations. The minor change 
more accurately reflects the environment in which ACSC graduates will 
be operating.
    Dr. Snyder. How have ongoing operations in Iraq and Afghanistan 
affected the quality of military faculty members? What is your average 
tour length for military faculty members? Have the credentials of 
military faculty in terms of graduate degrees and JQO qualifications 
diminished during this period? What is the percentage of military 
faculty who are fully JQO qualified?
    General Jackson. Current operations have actually increased the 
quality of military faculty members. First hand operational experience 
provides instant credibility with students. The experience is an 
excellent source of real-world examples/cases and contacts that can be 
exploited for curriculum material and faculty development 
opportunities. Air Command and Staff College (ACSC) now has a high 
percentage of faculty members who have had experience, either in 
command or in staff positions, who have dealt with the challenges of 
combat, stabilization, and reconstruction. The challenge is getting 
faculty members from the highly stressed career fields. ACSC works 
closely with the Air Force Personnel Center to minimize the impact of 
deployments on faculty manning. Coordination and timing of 179-day and 
365-day deployments are keys to minimizing impact.
    Tour lengths for our military faculty members are typically 3 
years. We often allow shorter tours to support members selected for key 
command and leadership positions. This flexibility and support is an 
incentive for making faculty assignments more attractive.
    Credentials of military faculty in terms of graduate degrees have 
not diminished. The ACSC Advanced Academic Degree (AAD) program has 
been instrumental in increasing the academic credentials among the 
military faculty members. These are Air Force-sponsored programs that 
select highly qualified military faculty members for funded study at 
civilian institutions to acquire advanced (doctoral or master's level) 
degrees in fields directly applicable to the ACSC curriculum. Most ACSC 
faculty members have joint operational experience; however, only three 
percent are fully JQO qualified.
    Dr. Snyder. Are the services and agencies filling their assigned 
billets for faculty? What are your gaps?
    General Jackson. Sister services have been very supportive in 
providing outstanding faculty members but an emerging issue is joint 
credit for faculty duty at Air Command and Staff College (ACSC). 
Faculty requirements for ACSC are outlined in the Chairman of the Joint 
Chiefs of Staff Instruction 1800.01, Officer Professional Military 
Education Policy (OPMEP). The mix of military faculty members whose 
primary duty is student instruction of Joint Professional Military 
Education should be a minimum of 5 percent from each non-host Military 
Department. ACSC's current requirement based on this policy is 7 Army, 
5 Navy, and 2 Marine faculty members. ACSC does not have faculty 
billets for other agencies. Faculty and advisory positions from the 
other agencies are assigned at the Spaatz Center for Officer Education 
or Air University and ACSC draws upon these resources for interagency 
expertise. ACSC is currently short two Naval faculty members with one 
projected fill in November 2009. A significant contributing factor is 
the Navy Fiscal Year 09 Permanent Change of Station funding shortfall.
    Dr. Snyder. To what extent has the curriculum enhanced its coverage 
of Stability, Security, Transition, and Reconstruction (SSTR) 
Operations given that DOD has put them on a par with combat operations?
    General Jackson. Air Command and Staff College (ACSC) recognizes 
that the planning and conduct of post-conflict operations are as 
important as combat operations. Accordingly, the college has added both 
lectures and seminars that pertain specifically to SSTR. Draft revision 
to the Chairman of the Joint Chiefs of Staff Instruction 1800.01, 
Officer Professional Military Education Policy (OPMEP) includes a 
Learning Area Objective that specifically requires Intermediate Level 
Colleges to address the topic. The wording of the objective in the 
draft states that students should ``comprehend the role and perspective 
of the combatant commander and staff in developing various theater 
policies, strategies, and plans to include Weapons of Mass Destruction/
Effect (WMD/E), irregular warfare, information operations, Stability, 
Security, Transition and Reconstruction (SSTR) and strategic 
communication.'' The International Security Studies course covers weak 
and failing states and the problems surrounding stability operations. 
The course examines not only military options, but diplomatic (i.e. 
international/multinational to include nongovernment organizations and 
intergovernmental organizations) and economic resources and strategies 
related to this topic. The Warfare Studies course has curriculum time 
devoted to war termination and conflict resolution, with focus on 
operations in Kosovo. The course also includes curriculum time directly 
focused on stability operations in Afghanistan. The Joint Campaign 
Planning course devotes a lecture and seminar to planning 
considerations for conducting SSTR operations in irregular warfare.
    Dr. Snyder. Describe the scenarios that you use for your simulation 
exercises and war games. To what extent do they incorporate SSTR and 
irregular warfare concepts?
    General Jackson. Air Command and Staff College (ACSC) principally 
uses two scenarios to support educational objectives concerning SSTR 
and irregular warfare operations. These scenarios also support SSTR and 
irregular warfare educational objectives in the Joint Advanced Warfare 
Elective Series (JAWES). The first scenario is the Georgia, Azerbaijan, 
Armenia and Turkey (GAAT) scenario and the second is the Joint Forces 
Command/North Atlantic Treaty Organization (JFCOM/NATO) Zoran Sea 
scenario. The GAAT scenario is used during the annual Intermediate 
Level Education Exercise with the Army Command and General Staff 
College and a variant of the GAAT scenario is incorporated into the 
Joint Planning Exercise of the Joint Planning course and the Joint Air 
Exercise during the Joint Air and Space Operations course.
    Dr. Snyder. Please provide the most recent survey results from your 
graduates and their supervisors.
    General Jackson. The Air Command and Staff College (ACSC) executes 
an aggressive closed-loop feedback process to assess quality and 
constantly improve our program. While any student can critique any 
event, each week during the academic year we task one fourth of the 
ACSC class in rotating groups to provide feedback for the lectures, 
seminars, readings, and guest speakers delivered that week. These 
surveys provide a method to detect and influence immediate trends. At 
the end of each of our 11 courses, all students and the faculty who 
taught the course are asked to provide feedback on the effectiveness, 
structure, relevance, and workload of the course as well as whether the 
course achieved its stated educational objectives. Just prior to 
graduation, we survey the students on the overall program, soliciting 
their feedback on whether the program achieved our published 
educational outcomes, the proportion of curriculum devoted to various 
topics, the variety and quality of instructional methodologies 
employed, the support, the value, and so on. Satisfaction rates are 
over 85 percent positive in virtually all categories surveyed, and 
return rates give us a 95 percent confidence that the survey results 
accurately reflect the opinion of the student population within 5 
percent. Finally, surveys are sent to graduates and the graduates' 
supervisors approximately one year after graduation. The survey to our 
graduates consists of questions dealing with broad areas such as 
mission effectiveness, program value, career institutional impact, and 
areas that reflect how well the curriculum helped them in their current 
duties. Results from the last two classes on these surveys showed 
satisfaction levels of over 85 percent in every area measured. In fact, 
most areas exceeded 95 percent satisfaction. Supervisor results on 
questions that parallel those we ask the graduates were unanimously 
(100 percent) positive. A remarkable trend that we've observed is that 
the already-high satisfaction levels on the exit surveys are even 
higher on the post-graduate surveys. This further substantiates the 
lasting value of the resident professional military education 
experience. All survey data are used to inform decisions of the 
curriculum builders and is briefed to the commandant as part of the 
course approval process.
    In addition to the routine graduate and supervisor surveys ACSC 
seeks feedback from the Command Board of Advisors (CBOA). The CBOA is 
chaired by the Air Education and Training Command vice commander and 
consists of the vice-commanders of the major commands. This body 
includes the key stakeholders in the ACSC educational program. The CBOA 
provides information about the educational needs of the commands and 
their level of satisfaction with ACSC (and other Air University 
schools) graduates and programs. At the last meeting of the CBOA 
members indicated Air University programs (including ACSC) perform well 
in meeting the needs of Airmen, developing warrior-leaders for the Air 
Force and providing education in the right eight areas prescribed by 
the Air Force Competency List.
    Dr. Snyder. The intermediate level schools lost Joint Duty credit 
for their non-host service military faculty in the 2007 National 
Defense Authorization Act. We know that the tours of those who were 
grandfathered are ending. What will the effect of this be? How will it 
affect the quality of your faculty? How important is it that these JDAL 
positions be restored? Do the instructors truly get a joint experience?
    General Jackson. NOTE: Brigadier General Jackson has retired. 
Answer is provided by Air Command and Staff College.
    The long-term effect of restricting JPME I institutions from adding 
billets to the Joint Duty Assignment List has yet to be determined. 
While having the joint duty designator for faculty member positions is 
a selling point when soliciting volunteers, there are a number of 
assignment policies that can positively impact the quality and number 
of candidates. The Department is exploring these options in concert 
with the Military Services. In addition, the Department has indicated 
no objection to the withdrawal of the statutory prohibition provided 
that these positions are vetted along with all other potential joint 
qualifying assignments. It is possible that given the right mixture of 
duties and responsibilities, faculty members can meet the statutory 
definition of joint matters. If the statutory prohibition is lifted, 
these positions can be evaluated on a case-by-case basis.
    Dr. Snyder. Describe your school's use of historical case studies 
to teach strategy.
    General Jackson. NOTE: Brigadier General Jackson has retired. 
Answer is provided by Air Command and Staff College.
    Air Command and Staff College (ACSC) is focused at the operational 
level of war and the strategy taught is operational strategy from the 
joint force commander's (JFC's) perspective. The entire Warfare Studies 
course deals with the concepts of operational warfare and strategy, the 
factors that influence and have led to changes in operational art and 
strategy, and examines in great detail the differences between regular 
warfare and irregular warfare strategies. Case studies include the 
attrition warfare on the Western Front in World War I, mechanized 
warfare in World War II, airpower operations in Kosovo, irregular 
warfare and stability operations in Afghanistan, T.E. Lawrence in the 
Middle East, and counterinsurgency operations in Iraq. The Air, Space 
and Cyberspace course specifically examines strategies for the 
development and employment of air, space and cyberspace power. This 
involves study of classical and contemporary air power theory, and the 
evaluation of historical air power strategies as well as air, space and 
cyberspace strategies in ongoing operations. Through historical case 
studies of air power in the Korean and Vietnam Wars, the Balkans, Iraq 
and Afghanistan, students analyze the evolution of U.S. air power 
strategies since WW II. Coalition air power strategy is examined 
through lessons on Operations Deliberate Force and Provide Promise, 
along with operations in the Persian Gulf and the Balkans. Lessons on 
Chinese and Soviet air power in the Korean War and Israel's recent 
conflict with Hezbollah provide insight into air power strategies 
employed by other countries. These historical studies encourage 
assessment of the effectiveness of diverse air power strategies in 
different geopolitical and military contexts. Students are prompted to 
take lessons from these historical cases and apply them to the 
development of effective air power strategies for future operations.
    Dr. Snyder. What is the process for renewal and non-renewal of the 
faculty? How transparent is the system? In a tenure system people think 
the faculty members have all the power, in a non-tenure system it 
appears that the school has unlimited power. How do you avoid these 
extremes?
    General Jackson. NOTE: Brigadier General Jackson has retired. 
Answer is provided by Air Command and Staff College.
    The initial appointment of faculty is based on the applicant's 
meeting the minimum criteria for each academic grade established as 
described in Air University Instruction 36-2314, Academic Rank. All 
civilian faculty members new to federal service serve a one-year 
probationary period. The reappointment process normally begins 12 
months prior to the expiration of a faculty member's current 
appointment. Air University (AU) policy requires that any non-renewal 
decision must be communicated to the faculty member in writing at least 
12 months before the effective date for those on an appointment of 2 
years or longer. The faculty member's supervisor prepares a staff 
summary sheet which details the faculty member's current appointment 
data and the requested reappointment terms. The faculty member's vita 
or resume is attached as supporting documentation and forwarded to the 
Dean of Academic Affairs and the Air Command and Staff College (ACSC) 
Commandant for review. The ACSC Commandant signs the staff summary 
sheet and sends the renewal package to the AU Commander for approval. 
Once approved, the faculty member's supervisor explains the terms of 
reappointment approved by the AU Commander to the faculty member. 
Faculty members are reappointed for a period of 1 to 5 years. 
Reappointment occurs when significant contributions to AU and ACSC are 
expected for the term of the reappointment. Any member of the faculty 
may be removed for cause (such as misconduct or poor performance) 
regardless of academic tenure, faculty status, or length of appointment 
according to applicable statutory and regulatory provisions governing 
federal employment.
    The renewal and non-renewal process is very transparent. 
Information and processes related to reappointment and termination/non-
reappointment are included in Air Force and Air University instructions 
(AFI 36-804, Civilian Faculty Pay Plan for Air University and the USAF 
Academy and AU Supplement 1) and the Air University Faculty Handbook. 
Each publication is posted on the Air University website. Individuals 
are briefed on the processes as a part of their initial faculty 
orientation.
    AU and ACSC avoid the extremes and arbitrariness through 
transparent personnel policies and the involvement of faculty in 
administrative and curriculum development processes. For example, the 
ACSC curriculum is created, reviewed, and approved by the full-time 
faculty members through a rigorous, academic, corporate process. 
Curriculum guidance is strategic in nature with primary responsibility 
for the content, quality, and effectiveness of the curriculum placed 
with the faculty. This strategic guidance ensures ACSC remains focused 
on the mission of the college while providing flexibility for the 
faculty to design courses to achieve the strategic objectives.
    Dr. Snyder. What is your school's role in identifying promising 
officers with the potential for high-level strategic thinking at the 
appropriate point in their careers?
    General Jackson. NOTE: Brigadier General Jackson has retired. 
Answer is provided by Air Command and Staff College.
    Air Command and Staff College's (ACSC) primary role in identifying 
promising strategic thinking officers rests in providing opportunities 
for academic preparation. The school's Joint Advanced Warfare Elective 
Series (JAWES) focuses on preparing U.S. and international students for 
second year programs such as the School of Advanced Air and Space 
Studies (SAASS), School of Advanced Military Studies (SAMS), and the 
School of Advanced Warfighting (SAW). During Academic Year 2010, ACSC 
will expand the number of students participating in JAWES from 85 to 
102. The mission statement of SAASS is to produce strategists through 
advanced education in the art and science of air, space, and cyberspace 
power to defend the United States and protect its interest. One of the 
means of identifying officers with the potential for high-level 
strategic thinking is through the highly competitive selection process 
for the school. ACSC also has a Distinguished Graduate program that 
identifies the top 10 percent of the graduating class. This indicates 
the individual has excelled in a program that is focused on producing 
critical and strategic thinkers. This designation is entered into the 
individual's training report that becomes a part of the permanent 
personnel record.
    Dr. Snyder. How do you specifically measure the quality of the 
faculty and staff in the PME environment?
    General Jackson. NOTE: Brigadier General Jackson has retired. 
Answer is provided by Air Command and Staff College.
    Air Command and Staff College (ACSC) measures quality based on 
credentials at the time of appointment/assignment and performance on 
elements or factors in the faculty member's work plan. We measure the 
quality of faculty members in three distinct areas: teaching, research 
and publication, and service. A strong faculty development program is 
key in developing and sustaining a high quality faculty.
    The college's unique mission requires a distinctive mix of faculty 
qualifications and credentials. Traditional civilian academics provide 
the depth and breadth of subject-matter expertise to guarantee the 
academic rigor of the college's offerings while simultaneously ensuring 
adherence to validated teaching theory and practice. Military officers 
contribute unparalleled currency and expertise in the operational 
topics so critical to the college's success.
    ACSC sets high standards for its military faculty members to ensure 
its high standards for educational excellence are never compromised. 
Military faculty requirements are communicated to the Air Force 
Personnel Center (AFPC) for use in assignment of individuals to faculty 
duty at ACSC. With the unique hiring process (non-volunteers) for 
active duty AF faculty members, we use their level of educational 
credentials and prior professional experience to determine if they are 
academically qualified (terminal degree) and/or professionally 
qualified (graduate degree plus applicable professional experience). 
Military members must have completed the appropriate levels of 
professional military education (PME), functional-area education and 
training, and offer expertise relevant to the College's core 
curriculum. In addition, ACSC strives to ensure that 75 percent of its 
military faculty members have completed intermediate or senior level 
PME in residence or earned qualification as a Joint Specialty Officer 
(JSO).
    Our civilian faculty members are hired as academically qualified; 
we recruit civilians based on their terminal degree and research 
experience/interests in areas of expertise applicable to the ACSC 
educational program. We expect all faculty members to continue their 
professional development through professional activities such as 
conference attendance, research and publications/presentations.
    To ensure a continuous level of improvement in the execution of the 
educational program (instruction) we use several feedback methods 
including student assessment of instruction and peer/supervisor 
observation and evaluation. Additionally, through our faculty 
development colloquia, faculty members inform each other regarding 
current events, classroom best practices and re-emphasize successful 
instructional techniques.
    Military faculty members are evaluated through the Air Force 
personnel evaluation system and through annual instructional reviews 
within the college or when a change in reporting official occurs. These 
performance reports are completed in accordance with established Air 
Force (or other Service) personnel policies using the appropriate 
official form. Each civilian faculty member is evaluated based on three 
primary criteria: teaching effectiveness; research, scholarship, and 
publication; and service. Assessment of these criteria is based on the 
work plan established for the individual at the beginning of the 
appraisal cycle. Civilian faculty members' merit pay and cash/time off 
awards are based on this assessment.
    Dr. Snyder. How were you chosen to be school's commandant? How was 
your dean chosen? Will you be retiring from this job? What background 
should the Chief of Naval Operations be looking for in selecting 
individuals for these positions? Should the focus be on operational 
leadership skills or academic and teaching experience (not instructing 
in a training institution) background or both?
    General Jackson. NOTE: Brigadier General Jackson has retired. 
Answer is provided by Air Command and Staff College.
    The commandant and all military faculty members are selected 
through the Air Force assignment system. The Air Force General Officer 
Management Office works to ensure that a highly qualified individual is 
selected to lead Air Command and Staff College (ACSC). There is no 
academic qualification for the commandant (O-7 position). The 
recommendation is coordinated with the Commander, Air Education and 
Training Command, and presented to the Chief of Staff of the Air Force 
for approval. The group reviews leadership, operational, and 
educational experiences to identify an individual with appropriate 
credentials to lead an educational program that is academically 
accredited, steeped in joint operations, and that graduates students 
who are agile, critical thinkers prepared to meet any challenge.
    The ACSC Dean of Academic Affairs is coded in the personnel system 
as an O-6 position requiring an advanced academic degree. The ACSC 
Commandant, Spaatz Center Commander, and Air University Commander work 
with the Air Force Colonel Management Office to identify Air Force O-6s 
with advanced academic degrees who are eligible for reassignment. This 
list is reviewed and bids placed for officers with credentials that 
most closely align with the ACSC requirements and desires.
    Brig Gen Jimmie C. Jackson, Jr., retired from the job after serving 
2 years as the commandant. He was only the second commandant to retire 
from the position over the last 30 years. The position is viewed as a 
command-level position and individuals normally serve for a 2-year 
period similar to other Air Force command assignments and move on to 
other positions in the Air Force or Joint community.
    The Chief of Staff of the Air Force should look for an individual 
with strong leadership credentials and operational and educational 
experiences that complement other Air University senior leadership. 
This is important because of the synergies gained in having all officer 
professional military education collocated in one location and 
organization. At ACSC, the Commandant and Dean of Academic Affairs are 
viewed as military leadership assignments. Focus should be on a balance 
of operational leadership credentials and academic/military education 
experience. Because of the diversity of the student body it is 
important that the commandant articulate his/her leadership perspective 
and share operational experience with the class.
    Dr. Snyder. How should intermediate schools attract top-tier 
civilian faculty? How do you specifically define top-tier? What are the 
elements that would attract the highest quality of faculty--tenure, 
copyright, resources, pay, ability to keep their government 
retirements, research and administrative assistance, etc.?
    General Jackson. NOTE: Brigadier General Jackson has retired. 
Answer is provided by Air Command and Staff College.
    Air Command and Staff College (ACSC) uses Title 10 U.S. Code 
authority to hire civilian faculty members. Strategies for recruiting 
and retaining civilian faculty members depend on ACSC's needs at the 
time. The search must be comprehensive, transparent and consensus-
driven. In all aspects of the hiring process the objective should be a 
comprehensive search of the best available candidates and a transparent 
and inclusive hiring procedure that encourages maximum participation. 
Comprehensive and rigorous recruitment and screening processes are used 
to obtain civilian faculty members, assisted by the Civilian Personnel 
Office in recruiting advertisements in USAJobs.Com, Chronicle of Higher 
Education, and targeted professional journals. ACSC also directly 
targets respected higher education institutions, professional 
organizations and centers of excellence related to the discipline or 
professional area of focus. ACSC also encourages current faculty 
members to become recruiters at professional conferences and in their 
research collaboration efforts. General criteria used for evaluating 
candidates for initial appointment include professional competence, as 
evidenced by educational achievement and experience (degrees earned or 
other professional recognition); academic activity and service; 
publishing record; evidence of effective teaching; reputation in a 
field of academic or professional specialization; and promise of 
significant contribution to the mission and operation of Air University 
(AU) and its schools.
    Defining ``top-tier'' faculty occurs within the relevant 
disciplines and within the academic rank level being focused. Each 
discipline and rank has its own specific criteria, but they always 
involve a combination of scholarship, teaching and service. Top-tier 
definition for young first-time faculty members are based more on 
presumptive potential for effective teaching, research, and 
consultation while those more mature in the discipline it is based on 
demonstrated evidence. ACSC defines a top quality civilian faculty as 
those who have: experience in the subject matter sought in the vacancy, 
evidence of academic activity and service, a record of publication in 
peer-reviewed outlets in the subject matter sought or related fields, 
and evidence of outstanding teaching. Top tier faculty members within 
professional military education are multi-role professionals who 
possess military and/or civilian education credentials, are capable of 
research and publishing, and effective teaching.
    Degree-granting authority and regional accreditation play an 
intrinsic role in attracting top-tier civilian faculty members. 
Accreditation signifies high standards and serves as a common 
denominator among academic institutions. High-caliber professors are 
more likely to seek out teaching and research opportunities at 
accredited institutions. Air University's accreditation has been a key 
factor in enabling ACSC to continue to attract and retain top-tier 
civilian faculty. Attracting top-tier faculty also requires a wide 
range of incentives. No single incentive can be solely relied upon to 
attract the quality of faculty required to educate intermediate-level 
students. The best quality faculty members necessarily want to achieve 
prominence and respect within their disciplines; therefore the elements 
that attract the highest quality faculty are those elements that enable 
them to achieve excellence in their discipline. Tenure is an issue for 
some faculty candidates. There have been in the past some candidates 
vying for vacant faculty positions who have either voiced their 
concerns or withdrawn themselves from consideration after discovering 
we do not have a tenure track. The most often cited benefits of a 
tenure system would be to protect faculty members from the vagaries of 
faculty management policy changes and to provide additional 
reassurances on the promise of academic freedom. Academics respond to 
attractions of pay and benefits no differently than other job seekers. 
Support for research travel, technology support and flexibility in 
establishing an individual's research agenda are important in 
attracting some civilian faculty members.
    Dr. Snyder. What are the policies at your school regarding academic 
freedom? What is its proper role in a PME setting without tenure? 
Describe how your faculty may be called upon to respond to press 
inquiries in the field of expertise and whether and how they are 
allowed to respond in a timely manner.
    General Jackson. NOTE: Brigadier General Jackson has retired. 
Answer is provided by Air Command and Staff College.
    Air University (AU) has a clearly articulated policy on academic 
freedom which is an amended form of the American Association of 
University Professors (AAUP) definition of academic freedom. AU 
Instruction 36-2308, Academic Freedom states:

        ``Air University faculty, students, and staff are members of a 
        learned profession, and members of their respective educational 
        organizations. The free exchange of opinions and ideas is 
        essential to the educational process and, to the greatest 
        extent possible, faculty, students, and staff are encouraged to 
        speak and write freely. Even in this academic setting, however, 
        the importance of the University's military mission requires 
        limits on some types of expression. For example, in accordance 
        with the Uniform Code of Military Justice (UCMJ), commissioned 
        officers, officer trainees, and cadets may not use contemptuous 
        words toward the President, Vice President, Congress, the 
        Secretary of Defense, the Secretary of the Air Force, and 
        others. In addition, military members may not make 
        disrespectful remarks about a superior commissioned officer, 
        nor may an enlisted member make a disrespectful statement 
        toward a superior noncommissioned officer. In addition to these 
        specific restrictions on military members, faculty, students, 
        and staff should remember that the public might judge the armed 
        forces or Air University by their spoken or written statements. 
        In any public forum, Air University faculty, students and staff 
        members should make every effort to indicate clearly that the 
        opinions they express are personal to the member, and do not 
        represent the official views of their organization, Air 
        University, the United States Air Force, the U.S. government, 
        or any other government or academic community.''

    Academic freedom is further enhanced and safeguarded though AU's 
policy of ``non-attribution.'' ACSC encourages guest lecturers, faculty 
and students to state their opinions and support or offer critical 
opinion of any objective, policy, strategy, or tactic while pursuing 
knowledge, understanding, and improvement of the military profession. 
In the articulation and defense of ideas and positions on issues, 
individuals should endeavor to be accurate, should show respect for the 
opinions of others and should make every effort to indicate they do not 
speak for the university. It is acceptable to say ``a previous 
speaker'' made a particular statement, but the speaker's identity may 
not be divulged without permission.
    The role of academic freedom is equally important in tenure and 
non-tenure environments. Although ACSC civilian faculty members do not 
receive tenure ACSC ensures procedures are in place to safeguard and 
protect academic freedom. This is foundational to the full freedom of 
research and the publication of the results. Academic freedom is 
fundamental in producing students who are agile, critical thinkers 
capable of leveraging new ideas in the complex and fast-paced 
environment of military operations. Freedom for faculty to discuss 
their subject in the educational setting is key to the critical thought 
process.
    AU faculty members are called upon to respond to the press 
regarding matters in their respective field(s) of expertise and they 
are encouraged to respond in a timely manner. The only limitation to 
any response concerns discussions of sensitive subjects and, depending 
on the scope of the request, coordination with senior-level Public 
Affairs staff may be appropriate. In addition, notifying supervisors 
and leadership of the press inquiry is standard practice. How faculty 
respond depends on the manner in which a request is made; for instance, 
whether through direct contact with the faculty member or through a 
request to Public Affairs. Faculty members may respond independently or 
may request Public Affairs facilitation. All requests are handled with 
utmost awareness of press deadlines and every effort is made to respond 
in a timely manner.
    Dr. Snyder. Acquisition reforms all call for more of the general 
purpose forces to be educated and trained in understanding contracting 
and contractors. Civilians, contracting, and contractors on the 
battlefield--how much do officers, outside the acquisition workforce, 
need to know?
    General Jackson. NOTE: Brigadier General Jackson has retired. 
Answer is provided by Air Command and Staff College.
    A general understanding of the acquisition and budgeting processes 
is appropriate because of the staffing and leadership roles that Air 
Command and Staff College (ACSC) graduates fill. ACSC addresses the 
acquisition reforms/issues through readings, lectures, and seminar 
discussion. The key focus is the impact of having the right equipment, 
at the right time to fly, fight, and win in air, space, and cyberspace. 
Discussions of the impact of civilians and contractors on the 
battlefield are included in our warfare studies courses and the 
leadership and command lessons. These discussions are incorporated into 
the learning area objective related to the role and perspective of the 
combatant commander and staff in developing various theater policies, 
strategies and plans, and building partnerships.
    Dr. Snyder. Regarding languages, regional studies, and cultural 
competency--how much can be taught at the intermediate level and for 
what purpose? What feedback have you been receiving from your students 
on your foreign language training? What changes have you effected on 
the basis of that feedback?
    General Jackson. NOTE: Brigadier General Jackson has retired and 
the answer is provided by Air Command and Staff College.
    Modern leaders need to grasp the broader context of modern military 
operations, comprehending both the challenges and opportunities that 
confront the United States in the 21st Century. They must also 
understand the security policies, national planning systems and 
resulting strategies through which the U.S. will employ instruments of 
power to engage regionally and globally. This involves regional 
studies, development of cultural competency and a familiarization or 
understanding of the nuances of languages in a region.
    Air Command and Staff College (ACSC) responded to the Chief of 
Staff of the Air Force initiative to introduce language training into 
the college's curriculum in Academic Year 2007. During the first 2 
years of implementation the program consisted of completing an assigned 
number of language software modules in Rosetta Stone in one of the four 
strategic languages (Spanish, French, Mandarin Chinese or Arabic). 
Students were required to take the Defense Language Aptitude Battery 
Test as a data point in determining which languages students were 
vectored to. Students were offered optional use of Defense Language 
Institute's (DLI) mobile training teams. The program for Academic Year 
2010 will shift to a mandatory program of 30 hours of face-to-face 
mediated instruction with DLI instructors. Software tools will be 
available to students to supplement classroom instruction.
    Surveys of students conducted at the end of the language 
familiarization program and at graduation revealed some of the lowest 
levels of satisfaction of all the areas measured. ACSC's assessment of 
the program indicated that it is very difficult to gain language 
proficiency within the time allotted for the program without 
significantly impacting the critical time needed to focus on the core 
curriculum. The college now uses the term ``language familiarization'' 
and ``language enhancement'' to describe the language program. The Air 
Force vision is to focus language capability development and 
proficiency earlier in an individual's career and provide enhancing 
opportunities throughout the career. The Air Force Culture and Language 
Center located at Air University provides the strategic leadership and 
guidance for the language program.
    ACSC's Regional and Cultural Studies course focuses specifically on 
regional and cultural competencies. Tools for understanding and 
interacting with and within other cultures and the broad regional 
differences are a major component of the course. ACSC has introduced 
culture-general and culture-specific concepts and skills and integrated 
them into the existing curriculum. This course has also improved the 
integration of the over 70 International Officer students into the 
educational process of understanding regions and cultures.
    Dr. Snyder. Please provide your school's mission statement.
    Colonel Damm. Informed by the study of history and culture, Command 
and Staff College (CSC) educates and trains its joint, multinational, 
and interagency professionals in order to produce skilled warfighting 
leaders able to overcome diverse 21st Century security challenges.
    Dr. Snyder. How have ongoing operations in Iraq and Afghanistan 
affected the quality of military faculty members? What is your average 
tour length for military faculty members? Have the credentials of 
military faculty in terms of graduate degrees and JQO qualifications 
diminished during this period? What is the percentage of military 
faculty who are fully JQO qualified?
    Colonel Damm. How have ongoing operations in Iraq and Afghanistan 
affected the quality of military faculty members? I would say that the 
ongoing operations in Iraq and Afghanistan have positively affected the 
quality of military faculty members. We now have a generation of field 
grade officers with multiple deployments in combat environments--
nothing beats experience and the subsequent ability to pass along that 
knowledge to the next level of warfighter.
    What is your average tour length for military faculty members? The 
average tour length for military faculty members is two years. Over the 
last several years the tour length for the majority of Marine faculty 
has been only one year, but it is a good news story. This is because 
the rate of selection for promotion to O-6 and selection for Command 
has been very high among our Marine faculty and, once they are 
selected, they are reassigned. The College and Marine Corps University 
have made the conscious decision to accept capability over continuity; 
we ``hire'' highly competitive Officers as our Instructors. As long as 
the level of quality among the Marine faculty remains high, we will 
live with the fact that some may be leaving earlier than they otherwise 
are slated.
    Have the credentials of military faculty in terms of graduate 
degrees and JQO qualifications diminished during this period? No, the 
credentials of military faculty in terms of graduate degrees and JQO 
qualifications have not diminished as the services, and the Marine 
Corps in particular, has continued to promote officer professional 
military education during this period of high operational tempo.
    What is the percentage of military faculty who are fully JQO 
qualified?
    Fifty percent of our Military teaching faculty are JQO.
    Dr. Snyder. Are the services and agencies filling their assigned 
billets for faculty? What are your gaps?
    Colonel Damm. Yes, the sister services and agencies are fulfilling 
their assigned billets for our faculty. At present we have two United 
States Air Force (USAF) officers, two United States Army (USA) 
officers, two United States Navy (USN) officers, and one International 
Military Officer (IMO) from Norway on staff here at CSC. This is in 
addition to the twelve United States Marine Corps (USMC) officers, 
eighteen Terminally Degreed civilian faculty members, and a number of 
adjunct Marine Corps University (MCU) chair faculty available to our 
student population.
    At present, I would not say that we have any identifiable gaps 
within our faculty as we are as strong as we have ever been in the 
history of our school.
    Dr. Snyder. To what extent has the curriculum enhanced its coverage 
of Stability, Security, Transition, and Reconstruction (SSTR) 
Operations given that DOD has put them on a par with combat operations?
    Colonel Damm. Prior to 2005 approximately 17% of the curriculum was 
dedicated coverage of Irregular Warfare subject matter. Beginning with 
Academic Year 2005-2006, Marine Corps Command and Staff College began 
implementing a comprehensive redesign of its curriculum in response to 
emerging lessons from Afghanistan and Iraq with the objective of 
maintaining the highest degree of currency and relevancy with regard to 
the challenges and opportunities of the contemporary security 
environment. Now in its fifth year, this effort has yielded impressive 
results as they relate to the coverage of irregular warfare, to include 
both counterinsurgency (COIN) operations and Stability, Security, 
Transition and Reconstruction (SSTR) operations. In the Operational Art 
(OpArt) and Culture and Interagency Operations (CIAO) lines of 
operation, fully 47% of total curriculum hours (164 of 348) are 
dedicated to these subjects for AY09-10. This coursework provides 
students with extensive exposure to the historical, social, and 
cultural factors that influence the application of all instruments of 
national power during operations. Likewise, our leadership line of 
operation provides coverage in 144 out of 318 total hours (45%) 
including courses in negotiations, ethics in a COIN environment, and 
strategic communications. Finally, the Warfighting . . . from the Sea 
(WFTS) line of operation dedicates 237 of 563 hours (42%) to these 
topics, to include an entire, seminar-based block of instruction on 
Irregular Warfare, complemented by two major practical application 
exercises focused on campaign planning for long-term stability and 
security. The first of these, COINEX, is based on an historical 
scenario set in the Long An Province of South Vietnam during the period 
1969-1972. The second, more comprehensive, ``living'' exercise (NINE 
INNINGS) is based on current events in a country in the SOUTHCOM area 
of responsibility and involves the development of a ``whole of 
government'' interagency campaign plan that fosters stability and 
security and advances U.S. strategic interests in the region. Overall, 
Marine Corps Command & Staff College dedicates 545 of 1229 curriculum 
hours (44%) to irregular warfare-related subject matter. This total 
does not include the electives block, which also includes a number of 
electives that deal directly with these subjects.
    Dr. Snyder. Describe the scenarios that you use for your simulation 
exercises and war games. To what extent do they incorporate SSTR and 
irregular warfare concepts? [Question #5, for cross-reference.]
    Colonel Damm.

    BARBARY DAGGER OVERVIEW

    COURSE DESCRIPTION. As the second block of instruction (of eight) 
Warfighting . . . From the Sea (WFTS) practical application Exercise 
BARBARY DAGGER provides students with an opportunity to employ the 
Marine Corps Planning Process (MCPP) in a relatively simple scenario 
against an opponent employing ``traditional'' methods. The focus of 
this exercise is on the planning process itself, with the goal of 
ensuring that all students have a grasp of the Marine Corps' approach 
to planning, and of the basic planning ``toolkit'' as outlined in the 
Marine Air-Ground Task Force (MAGTF) Planning lesson within the MAGTF 
Operations block. Employing a ``crawl, walk, run'' approach, this 
exercise begins to lay the intellectual foundation for the more 
sophisticated planning exercises that follow. Though this exercise 
scenario exists in a ``traditional'' setting the student will be 
exposed to and discuss how to deal with challenges associated with a 
locally displaced or disrupted population that may be hostile or 
belligerent to the U.S. military presence. 69 hours are dedicated to 
this block of instruction with basic incorporation of SSTR and 
irregular warfare concepts.

    PACIFIC CHALLENGE OVERVIEW

    COURSE DESCRIPTION. As the fourth block of instruction (of eight) 
WFTS practical application Exercise PACIFIC CHALLENGE provides students 
with an opportunity to build upon the knowledge obtained during 
Exercise BARBARY DAGGER to employ the MCPP in a more complex, MEF-level 
operational planning scenario against an opponent employing 
``traditional'' methods. The focus of this exercise is not only on the 
continued refinement of student understanding of the planning process 
itself, but also on the viability and sophistication of the proposed 
solution(s). As the last ``traditional'' planning problem for AY09-10, 
it provides students with a thorough test of their understanding of the 
Marine Corps' approach to planning and of the basic planning 
``toolkit'' as outlined in previous coursework. Future planning 
exercises will require the adaptation of these basic tools to meet 
irregular challenges. 93 hours are dedicated to this block of 
instruction with basic incorporation of SSTR and irregular warfare 
concepts.

    COUNTERINSURGENCY (COIN) EXERCISE OVERVIEW

    COURSE DESCRIPTION. Building on previous coursework and practical 
application exercises on the Marine Corps approach to planning and the 
MCPP, and augmented by the lessons provided during WFTS Block 5 
(Irregular Warfare) and related Culture and Interagency Operations 
(CIAO) and Operational Art (OpArt) seminars on Vietnam, this sixth 
block of instruction (of eight) WFTS practical application (COIN 
Exercise) provides students with an opportunity to adapt the basic 
planning ``tool kit'' to address the unique characteristics and 
challenges of irregular operations. The COIN Exercise introduces 
students to the seminal problem of our day: the conduct of ``whole of 
government'' campaign design and planning to address an unstructured 
problem posed by an enemy employing irregular methods. The objective is 
the ``hearts and minds'' of a contested population rather than terrain 
captured or enemy units destroyed; more precisely, the challenge 
centers on the establishment and maintenance of the mechanisms of 
political control over a population--all in competition with similar 
mechanisms that define the political and social alternative offered by 
a thinking enemy. 54 hours are dedicated to this block of instruction 
with thorough incorporation of SSTR and irregular warfare concepts.

    NATIONAL RESPONSE TO CATASTROPHIC AND DISRUPTIVE THREAT EXERCISE 
OVERVIEW

    COURSE DESCRIPTION. WFTS Block 7, National Response to Catastrophic 
and Disruptive Threats (NRCDT) block of instruction, is designed to 
educate mid-career professionals in the myriad of threats to the 
homeland, the organizations and plans in place that drive DoD support 
in these scenarios, and the challenges associated with joint crisis 
action planning to support a national response to a catastrophic 
incident. Developed in partnership with the Joint Staff J-8 (Joint 
Requirements Office-CBRN), United States Joint Forces Command's Joint 
Warfighting Center, and Joint Task Force Civil Support (JTF-CS), this 
experience familiarizes students with the military's role in domestic 
consequent management planning and execution. The methods used to 
achieve these educational objectives include lectures, seminars, and 
selected readings, all of which lay the intellectual foundation 
necessary to conduct the culminating event of the block--a student 
practical exercise involving interagency representatives from the 
state, local and federal levels. The end state is to prepare students 
to serve as future commanders and staff officers in units that may be 
called upon to support USNORTHCOM in responding to a natural or man-
made disaster. Though this scenario takes place within CONUS the 
students are required to think through how to support USNORTHCOM in 
dealing with security and stability type situation that might occur due 
to a disaster within the borders of the United States. 39 hours are 
dedicated to this block of instruction with aspects similar to SSTR.

    NINE INNINGS OVERVIEW

    COURSE DESCRIPTION. Building on all previous seminar-based 
coursework and practical application exercises within the WFTS line of 
operations (LOO), and augmented by the material covered in the CIAO, 
Op-Art and Leadership LOOs, the final WFTS practical application 
exercise (Exercise NINE INNINGS) is designed to test student 
understanding of all of the material covered during the Command & Staff 
College academic year . . . and then some. Students will be challenged 
to think critically about, and to develop viable solutions for, a 
myriad of problems that fall well outside of the typical officer's 
intellectual comfort zone; to demonstrate their ability, to use General 
Petreaus' words, to serve as `` `pentathlete leaders'--individuals who, 
metaphorically speaking, are not just sprinters or shot putters but can 
do it all.'' The exercise affords an opportunity, in an unclassified 
venue and working with our counterparts from within the interagency, to 
develop a ``whole of government'' plan for confronting a range of 
issues centered on a country within SOUTHCOM AOR, to include the loss 
of U.S. influence in the region, transnational terrorism, multiple 
insurgencies, the potential for civil war, and the threat of a broader 
regional conflict with emerging powers. It is a ``living exercise'' in 
that it relies on existing conditions/events--as gleaned from various 
open source venues--rather than a pre-scripted, canned scenario.
    Students will serve as planners in a Joint Interagency Planning 
Group (JIPG), co-chaired by Senior Mentors playing the roles of the 
U.S. Ambassador and the Commander of the Combined Joint Interagency 
Task Force (CJIATF). The mission of the JIPG is to design a four-year, 
``Phase 0'' interagency campaign plan that fosters stability and 
security in the country and advances U.S. strategic interests in the 
region. A number of resources will be made available to the students to 
support the accomplishment of these daunting tasks, to include the 
large-scale participation of Subject Matter Experts from a wide variety 
of joint, combined, interagency, NGO, media, think tank, and academic 
organizations. However, all of these resources merely supplement the 
issue at hand--one final opportunity to apply critical and creative 
thinking to a challenging, contemporary operational problem. 115 hours 
are dedicated to this block of instruction with thorough incorporation 
of SSTR and irregular warfare concepts.
    Dr. Snyder. Please provide the most recent survey results from your 
graduates and their supervisors. [Question #6, for cross-reference.]
    Colonel Damm. The raw data collected by our Marine Corps University 
survey section from graduates and supervisors is included as an 
enclosure following these questions.
    [The information referred to is retained in the committee files and 
can be viewed upon request.]
    Dr. Snyder. The intermediate level schools lost Joint Duty credit 
for their non-host service military faculty in the 2007 National 
Defense Authorization Act. We know that the tours of those who were 
grandfathered are ending. What will the effect of this be? How will it 
affect the quality of your faculty? How important is it that these JDAL 
positions be restored? Do the instructors truly get a joint experience?
    Colonel Damm. The requirement for Joint Duty in the National 
Defense Authorization Act is an important one for the growth and 
training of our forces. As we have added this necessary requirement, we 
need to realize the benefits of a well-rounded Officer as we find ways 
to allow them to fulfill the requirement. To understand your own 
warfighting culture, you must experience it first; only then can you 
represent your service position as you branch out into the other 
services. To do that, you need time. My own example would be I had to 
learn how to fly my own aircraft before I could shift my focus to 
training others how to fly. If we let Officers get joint credit at 
other service institutions, we satisfy a requirement for them to attain 
Flag Officer rank without requiring another tour outside their 
respective service. In the Marine Corps, we look at an Officer file and 
check for credibility in his own Military Occupational Specialty before 
we promote that Officer or send them to school. The effect of not 
receiving joint credit as an ``exchange'' instructor is that the 
quality of the Officers may suffer as there is no incentive other than 
wanting to learn more about another service. It is very important to 
restore joint credit so we can continue to attract high quality 
Officers to our respective programs.
    Officers do get joint experience. First they must immerse 
themselves in other service culture to learn and then teach in each 
curriculum. As an example, one of the first things in our program of 
instruction is the Marine Corps Planning Process; it is our baseline. 
We have Army, Navy and Air Force Officers teaching that process. The 
absolutely best way to learn is to teach. They are also inculcated with 
our culture beginning with faculty development in the weeks before the 
students arrive. Development included visits to an amphibious ship and 
a wing to not just talk about a Marine Air Ground Task Force, but to 
show a Marine Air Ground Task Force. The year is truly a joint 
experience.
    Dr. Snyder. Describe your school's use of historical case studies 
to teach strategy.
    Colonel Damm. The Command and Staff College is an intermediate-
level school within the hierarchy of professional military education. 
As such, it is expected to educate its students in matters relating 
primarily to the Operational Level of War, that is, the level that 
forms the bridge between strategy and tactics. The level at which 
campaigns are planned. The level of the Combatant Commander. The 
College's mission is not focused primarily on teaching strategy. In the 
course of establishing and examining the context in which campaigns are 
planned and executed it is necessary to examine both strategy and 
strategic issues and tactics and tactical issues. In all of these areas 
case studies play an important educational role. Marine Corps Doctrinal 
Publication 1-1, Strategy (Italics), broadly defines strategy as the 
process of interrelating ends and means. Through a series of lectures 
and seminars, reinforced by case studies and practical applications, 
the College requires the students to examine the relationships between 
ends and means. Students read and discuss the National Security 
Strategy, the National Defense Strategy, the National Military 
Strategy, among other strategic issues, as part of their understanding 
of the context of the current operating environment. The planning 
processes they learn and employ in practical exercises during the year 
are all about defining the ``ways'' in which ends and means will be 
reconciled. The precise character of the various exercises conducted at 
the College are explained in response to Question #5. In the 
Operational Art and Culture and Interagency Operations courses they 
examine historical and contemporary situations ranging from, for 
example, the British experiences confronting the Malayan Emergency from 
1948-1960, or the French Experience in Algeria, 1954-1962, or the 
American experiences in Operations DESERT STORM, ENDURING FREEDOM or 
IRAQI FREEDOM, or the Allied dilemmas in defining the modern Middle-
East in the aftermath of World War I, the challenges of bringing 
stability to post-War Japan and Germany in 1945, the responses to 
insurgency in the Huk rebellion in the Philippines, or the interagency 
challenges of the current array of overseas contingency operations. In 
these and other cases the questions associated with reconciling ends, 
ways, and means are central to seminar discussion. So the College 
contributes to the development of strategic thinkers and the College 
does teach strategy, although not in quite the structured way that the 
sub-committee's question suggests.
    Dr. Snyder. What is the process for renewal and non-renewal of the 
faculty? How transparent is the system? In a tenure system people think 
the faculty members have all the power, in a non-tenure system it 
appears that the school has unlimited power. How do you avoid these 
extremes? [Question #9, for cross-reference.]
    Colonel Damm. Civilian faculty members are hired under Title 10 
authority granted to the President of Marine Corps University by the 
Secretary of the Navy. Civilian faculty members are offered a one, two 
or three-year appointment based on the needs of the college and the 
individual's qualifications. New civilian faculty members undergo a 
one-year probationary period during which their performance is 
evaluated. During the period, they are supervised and counseled on a 
periodic basis regarding their performance by the Director and the Dean 
of Academics.
    The faculty evaluation and renewal system is extremely transparent 
to the individual. He/she will receive periodic counseling as well as 
an annual performance appraisal. Renewals can be for periods of one, 
two, or three years. The College's informal policy has been to offer 
three year renewals. At least seven months prior to the end of the 
faculty member's appointment, the Director of the College recommends to 
the President of the University whether the faculty member's 
appointment should be renewed and for what period of time. If the 
University does not intend to retain an individual, the individual will 
be formally and informally counseled regarding his/her substandard 
performance and be given the means to improve. If he/she fails to 
improve, his/her performance appraisal will document the fact and state 
the reason for termination.
    To avoid arbitrariness, the College leadership manages the civilian 
faculty in an upfront and forthright manner, providing maximum 
transparency while maintaining open, two-way lines of communication. 
First, the College ensures that all rules governing policies and 
procedures are clearly delineated and equitably applied. Each faculty 
member is provided a College Faculty Handbook and Marine Corps 
University Title 10 Faculty Handbook which outlines the policies for 
the handling of reappointments, terminations, appeals, and grievances.
    Second, demonstrating its long-term commitment to its faculty, 
despite the absence of a formal program of tenure, the College invests 
time and funds into an aggressive faculty development program. The 
program seeks to advance faculty members' abilities through 
participation in functional area and academic meetings, panels, 
conferences, symposium, field studies, courses, and classes. By 
investing in each faculty member's development, the College develops a 
stronger cadre of instructors while recognizing the symbiotic and 
mutually supportive relationship between the individual and the 
institution.
    All but one of the College's civilian faculty members possess a 
Doctorate degree. The sole exception is the Deputy Head of the 
College's Warfighting Section. The individual is a former career 
officer in the Air Force whose professional background and experiences 
made him the ideal choice to fill this newly created position. He has 
multiple Master's Degrees but it is his professional military expertise 
that made him the proper individual for this non-teaching position.
    The benefits or pitfalls of a tenure system have never been issues 
at the College. During the interviews for prospective faculty, the 
process of hiring and renewals is explained to applicants so they 
understand how the system works. Since 1992, when the Title 10 faculty 
began to be hired, only one faculty member has been released prior to 
the completion of an appointment. Currently there are several civilian 
faculty who left tenured positions in civilian academic institutions to 
join the College faculty because of the opportunity to work in the kind 
of forward-looking and supportive educational environment that we have 
been able to establish and maintain over the past 17 years.
    Dr. Snyder. What is your school's role in identifying promising 
officers with the potential for high-level strategic thinking at the 
appropriate point in their careers?
    Colonel Damm. During our Academic year we identify students with 
the potential for strategic thinking as candidates for the School of 
Advanced Warfighting. They must go through an interview process and be 
selected to attend this resident follow-on school. A notable graduate 
of this school is LtGen John Allen, currently the Deputy Commanding 
General of CENTRAL COMMAND, hand selected by General Petraeus to be his 
Deputy. We also acknowledge superior performance in our students 
through our Distinguished Graduate and Writing Programs. Many of these 
students are indentified as potential future instructors by our Faculty 
(both Military and Civilian). The corporate memory resides in our 
civilian instructors as many have been here for many years, as names 
come up for military faculty, we use them as the ultimate litmus test.
    Dr. Snyder. How do you specifically measure the quality of the 
faculty and staff in the PME environment?
    Colonel Damm. I think this question may be asked incorrectly . . . 
the Faculty, both military and civilian, are ``hired'' because of their 
quality. That quality is measured by looking into their professional 
and academic experiences. Then we ``measure'' their quality by how they 
impart our constantly evolving curriculum to our student body. The 
``measurement'' is how the student body does; papers, exercises, and 
outside accolades of their work (one of our students has been the 
recipient of the Secretary of Defense writing award two years running). 
We monitor each other through our Director, Deputy and Academic Dean as 
we attend seminar. Another method of measurement is through student 
surveys, something included in this document at question #6. We read 
every word of those surveys and after deliberation, implement changes 
when necessary.
    Dr. Snyder. How were you chosen to be school's commandant? How was 
your dean chosen? Will you be retiring from this job? What background 
should the Chief of Naval Operations be looking for in selecting 
individuals for these positions? Should the focus be on operational 
leadership skills or academic and teaching experience (not instructing 
in a training institution) background or both?
    Colonel Damm. The Academic Dean came from the Civilian Faculty as 
delineated in the next paragraph. I was chosen by the Commandant of the 
Marine Corps from a number of names submitted by Manpower to the 
President of Marine Corps University. From that list, Active Duty 
Marines are recommended by the President and forwarded to the 
Commandant for his approval. My view is that individuals should be 
chosen for the important responsibility of training future leaders of 
all of our services and agencies based on both their operational and 
educational background. It is not just an academic responsibility. The 
Director should have a professional pedigree students can relate to and 
admire. In my case, although an aviator, I have commanded a squadron in 
combat and have attended both resident intermediate level education and 
top level school. I am also JPME II qualified and have joint credit. 
The only service I have not served personally with is the Coast Guard, 
although I have attended resident school with Coast Guard Officers. The 
Commandant should look at well rounded Officers who have shown a 
penchant for life-long learning and are credentialed in their Military 
Occupational Specialty as Commanders and operators; they will command 
the respect of their students.
    My intention is to retire out of this position merely due to 
service limitations and non-selection to O-7. Promotion to Flag Officer 
has happened from this position and from some of our other schools, but 
not in my case; but, the selection rate to General Officer in the 
Marine Corps is a very small percentage of the O-6's eligible so that 
is not an indictment of the system at all, it is just the way it is. 
The benefit is my career brings 29 years of leadership and learning to 
this billet, and I am still excited about being a part of the Marine 
Corps.
    The current dean of academics was hired as an associate dean in 
1992, after a career of 24 years of active service in the United States 
Army. That service included considerable time in operational 
assignments, but also included service on the faculties of both West 
Point and the Army's Command and General Staff College in teaching, 
curriculum design and development, and leadership positions. He also 
possessed a terminal degree from an outstanding university. The dean of 
academics of the college at that time was an active duty Marine O-6. In 
1998, when the College was about to name its 5th military dean in 6 
years, the Director named the civilian associate dean previously 
described to assume the position of dean of academics. In other words 
he promoted from within. Subsequently the position has been validated 
as a civilian, Title 10, GM-15 (Colonel equivalent) position and the 
Marine Corps University has put the active duty O-6 billet to use 
elsewhere.
    Dr. Snyder. How should intermediate schools attract top-tier 
civilian faculty? How do you specifically define top-tier? What are the 
elements that would attract the highest quality of faculty--tenure, 
copyright, resources, pay, ability to keep their government 
retirements, research and administrative assistance, etc.?
    Colonel Damm. Our definition of a ``top quality'' civilian faculty 
member is a scholar and educator who possesses 1) expertise in his/her 
respective field of study, 2) operational experience in curriculum-
related areas, 3) a general knowledge of adult educational methodology 
and most importantly, 4) a passion for developing curriculum and 
teaching our unique type of student. Such an individual should possess 
a terminal degree, yet remain a life-long student of his/her craft, 
continuously pursuing greater understanding of the subject through 
reading, research, reflection, and participation in scholarly form. He/
she should be proficient in written and oral communications, able to 
translate complex issues into understandable terms applicable to any 
audience--students or scholars.
    The principal attractions for top notch people to join the College 
faculty are intangible. There is much to be said for being paid a fair 
and equitable salary and participating in a good retirement program. 
The University is committed to doing that so that we do not under value 
those who we hire. There is also much to be said for being located in 
the area of the Nation's capitol with the attendant access to 
organizations and people that further research and enrichment in 
academic disciplines. Tenure is a topic already addressed in response 
to Question #9. But the most compelling attractions for top-tier 
faculty have to do with three things. The first and foremost reason is 
our experienced, aggressive, and motivated professional students. 
Having the privilege of being involved with their professional and 
intellectual development is enormously attractive to top notch faculty. 
Second, the quality of faculty, both military and civilian, is 
compelling to those who perhaps have not worked in such a collegial 
environment. Third, the combination of the two previous factors has 
created over time a well deserved reputation for excellence that makes 
people want to be part of who the College is and what the college does.
    Dr. Snyder. What are the policies at your school regarding academic 
freedom? What is its proper role in a PME setting without tenure? 
Describe how your faculty may be called upon to respond to press 
inquiries in the field of expertise and whether and how they are 
allowed to respond in a timely manner.
    Colonel Damm. All candidates for positions at the College are asked 
their definitions of academic freedom during their interviews. They are 
also asked whether or not they believe they will have any difficulty 
reconciling their sense of what academic freedom means in a military 
environment. The definition of academic freedom commonly expressed is 
couched in terms of being able to state judgments, do research, publish 
the results of that research, based on evidence, without fear of 
retribution or sanction. Faculty recognize that there are, and should 
be, boundaries defined by professional courtesy, common decency, and 
security classifications. Otherwise they are free to stimulate free and 
open discussion. Our faculty have never expressed any concerns about 
being limited in their academic freedoms. In fact, those who have more 
recent experience in the civilian academic world have testified that 
the environment at the College is more conducive to true academic 
freedom than the institutions where they previously taught, which might 
have cloaked particular agendas in the garb of academic freedom.
    Lack of tenure does not affect the ``academic freedom'' enjoyed by 
the faculty of the College. We believe that ``academic freedom'' is 
fostered by a positive organizational culture, not guaranteed 
employment. It springs from an academic environment in which faculty 
and students alike are encouraged to voice their judgments on any 
relevant subjects in open, scholarly debate without risk of rebuke or 
reprisal. Such judgments should be expressed in a well-researched, 
well-reasoned, and rationale manner, based on valid, empirical data and 
devoid of emotion. The College's strict non-attribution policy also 
safeguards academic freedom. It allows faculty, students and guest 
speakers voice their thoughts without fear of further dissemination.
    As an institution manned by a number of leader scholars, we have 
continuous requests for our faculty to join seminars or respond to the 
press. We endeavor to allow them to do as much as possible as long as 
it does not interfere with their primary responsibility of teaching our 
students. We are now blessed with a large enough quality faculty to 
cover down if there is a requirement for one of our Conference Group 
leaders to be out. As for requests from the press, we just ask that a 
disclaimer be added that their comments reflect their own opinions and 
not those necessarily endorsed by the school. We consider requests for 
our faculty as part of our outreach program, necessary for the academic 
growth of our faculty as well as a good news story about our 
University.
    Dr. Snyder. Acquisition reforms all call for more of the general 
purpose forces to be educated and trained in understanding contracting 
and contractors. Civilians, contracting, and contractors on the 
battlefield--how much do officers, outside the acquisition workforce, 
need to know?
    Colonel Damm. We approach this problem from the view that 
contractors on the battlefield come in all shapes and forms. They can 
sometimes be lumped in to the interagency or non-governmental groups we 
have turned to for many of the day to day requirements our forces need 
to operate. It is most prevalent on our final exercise NINE INNINGS 
where we have our students build a campaign plan for engagement using a 
real country and real time unclassified information. During that 
exercise, we bring in numerous subject matter experts (including 
contractors) to expand the students understanding of the operational 
environment before them. As a side note, this academic year we will be 
partnering with SOUTHCOM to set two hundred minds loose in their area 
or responsibility, in the Central American countries of Guatemala and 
Honduras (we actually chose this area before the current coup).
    Dr. Snyder. Regarding languages, regional studies, and cultural 
competency--how much can be taught at the intermediate level and for 
what purpose? What feedback have you been receiving from your students 
on your foreign language training? What changes have you effected on 
the basis of that feedback?
    Colonel Damm. Our language program has undergone a number of 
changes due to our looking at the program and realizing we were not 
reaping the benefits we desired. The options are either a full year 
language course as part of the curriculum, or some other language 
program tied in to a cultural immersion program. The first program 
would be the best as long as it was tied to an Officers career, as 
studies show one year of language without continuous practice after the 
fact is a poor investment. It would also, if the program wasn't tied to 
past language capability, require us to drop something from our 
curriculum. The Marine Corps is looking at tying a young Lieutenant to 
a specific area as a life long area of expertise, to include language 
training. That is under review at this time. The benefit of a language 
and cultural immersion is where we believe we can do the most good for 
the Marine Corps and the individual Marines as language is a tremendous 
component of culture. We bring in the Defense Language Institute (DLI) 
(the teaching specialist in language indoctrination) in the beginning 
of the year and immerse our students in a particular language. 
Throughout the year, students are expected to practice their skills 
through different available language training software. In the Spring, 
we bring back DLI and refresh our students, and then have them engage 
in a Negotiation exercise. In the exercise, students must communicate 
in a rudimentary fashion to a non-English speaker in the chosen 
language and eventually turn over the negation to an interpreter. Last 
academic year was our first using this methodology. The initial 
feedback was very positive, but we would like to check that feedback 
against a later survey after things have sunk in for a little while.

                                  <all>

</pre></body></html>
